<html>
<title> - IMPLEMENTING PLAN COLOMBIA: THE U.S. ROLE</title>
<body><pre>[House Hearing, 106 Congress]
[From the U.S. Government Printing Office]




               IMPLEMENTING PLAN COLOMBIA: THE U.S. ROLE

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                         THE WESTERN HEMISPHERE

                                 OF THE

                              COMMITTEE ON
                        INTERNATIONAL RELATIONS
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED SIXTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2000

                               __________

                           Serial No. 106-188

                               __________

    Printed for the use of the Committee on International Relations


        Available via the World Wide Web: http://www.house.gov/
                  international<INF>--</INF>relations

                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
69-868 DTP                  WASHINGTON : 2001
_______________________________________________________________________
 For sale by the Superintendent of Documents, U.S. Government Printing 
                                 Office
Internet: bookstore.gpo.gov  Phone: (202) 512-1800  Fax: (202) 512-2250
               Mail: Stop SSOP, Washington, DC 20402-0001




                  COMMITTEE ON INTERNATIONAL RELATIONS

                 BENJAMIN A. GILMAN, New York, Chairman
WILLIAM F. GOODLING, Pennsylvania    SAM GEJDENSON, Connecticut
JAMES A. LEACH, Iowa                 TOM LANTOS, California
HENRY J. HYDE, Illinois              HOWARD L. BERMAN, California
DOUG BEREUTER, Nebraska              GARY L. ACKERMAN, New York
CHRISTOPHER H. SMITH, New Jersey     ENI F.H. FALEOMAVAEGA, American 
DAN BURTON, Indiana                      Samoa
ELTON GALLEGLY, California           DONALD M. PAYNE, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT MENENDEZ, New Jersey
CASS BALLENGER, North Carolina       SHERROD BROWN, Ohio
DANA ROHRABACHER, California         CYNTHIA A. McKINNEY, Georgia
DONALD A. MANZULLO, Illinois         ALCEE L. HASTINGS, Florida
EDWARD R. ROYCE, California          PAT DANNER, Missouri
PETER T. KING, New York              EARL F. HILLIARD, Alabama
STEVE CHABOT, Ohio                   BRAD SHERMAN, California
MARSHALL ``MARK'' SANFORD, South     ROBERT WEXLER, Florida
    Carolina                         STEVEN R. ROTHMAN, New Jersey
MATT SALMON, Arizona                 JIM DAVIS, Florida
AMO HOUGHTON, New York               EARL POMEROY, North Dakota
TOM CAMPBELL, California             WILLIAM D. DELAHUNT, Massachusetts
JOHN M. McHUGH, New York             GREGORY W. MEEKS, New York
KEVIN BRADY, Texas                   BARBARA LEE, California
RICHARD BURR, North Carolina         JOSEPH CROWLEY, New York
PAUL E. GILLMOR, Ohio                JOSEPH M. HOEFFEL, Pennsylvania
GEORGE P. RADANOVICH, California     [VACANCY]
JOHN COOKSEY, Louisiana
THOMAS G. TANCREDO, Colorado
                    Richard J. Garon, Chief of Staff
          Kathleen Bertelsen Moazed, Democratic Chief of Staff
                                 ------                                

                 Subcommittee on The Western Hemisphere

                  ELTON GALLEGLY, California, Chairman
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
CASS BALLENGER, North Carolina       MATTHEW G. MARTINEZ, California
CHRISTOPHER H. SMITH, New Jersey     ROBERT MENENDEZ, New Jersey
ILEANA ROS-LEHTINEN, Florida         ROBERT WEXLER, Florida
MARSHALL ``MARK'' SANFORD, South     STEVEN R. ROTHMAN, New Jersey
    Carolina                         JIM DAVIS, Florida
KEVIN BRADY, Texas                   EARL POMEROY, North Dakota
PAUL E. GILLMOR, Ohio
               Vince Morelli, Subcommittee Staff Director
           David Adams, Democratic Professional Staff Member
               Kelly McDonald, Acting Professional Staff
                  Jessica Baumgarten, Staff Associate




                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable R. Rand Beers, Assistant Secretary, Bureau of 
  International Narcotics and Law Enforcement, U.S. Department of 
  State..........................................................    12
The Honorable Brian Sheridan, Assistant Secretary, Special 
  Operations and Low Intensity Conflict, U.S. Department of 
  Defense........................................................    24
Carl Leonard, Assistant Administrator for Latin America, U.S. 
  Agency for International Development...........................    31
Jose Miguel Vivanco, Executive Director, Americas Division, Human 
  Rights Watch...................................................    42
Michael Shifter, Senior Fellow, Inter-American Dialogue..........    62

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Elton Gallegly, a Representative in Congress from 
  the State of California, and Chairman, Subcommittee on the 
  Western Hemisphere: Prepared statement.........................     2
The Honorable Dan Burton, a Representative in Congress from the 
  State of Indiana: Prepared statement...........................     7
The Honorable Cynthia A. McKinney, a Representative in Congress 
  from the State of Georgia: Prepared statement..................    10
The Honorable Robert Menendez, a Representative in Congress from 
  the State of New Jersey: Prepared statement....................    11
The Honorable R. Rand Beers: Prepared statement..................    15
News Release from the International Relations Committee, dated 
  September 21, 2000.............................................    20
The Honorable Steven R. Rothman, a Representative in Congress 
  from the State of New Jersey: Prepared statement...............    22
The Honorable Brian Sheridan: Prepared statement.................    27
Carl Leonard: Prepared statement.................................    33
Jose Miguel Vivanco: Prepared statement..........................    44
Michael Shifter: Prepared statement..............................    65

                                APPENDIX

Additional material submitted for the record.....................    77

 
               IMPLEMENTING PLAN COLOMBIA: THE U.S. ROLE

                              ----------                              


                      THURSDAY, SEPTEMBER 21, 2000

                  House of Representatives,
            Subcommittee on the Western Hemisphere,
                      Committee on International Relations,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 9:34 a.m. in 
Room 2172, Rayburn House Office Building, Hon. Elton Gallegly 
[Chairman of the Subcommittee] presiding.
    Mr. Gallegly. I call to order the Western Hemisphere 
Subcommittee, and would like to start with an opening 
statement. Good morning, Mr. Ackerman.
    Mr. Ackerman. Morning, Mr. Chairman.
    Mr. Gallegly. One month ago, the President signed into law 
a $1.3 billion supplemental appropriation to carry out enhanced 
counternarcotics activities throughout Latin America. Of that 
amount, some $1.018 billion was designated as the U.S. 
contribution to what has become known as the Plan Colombia.
    Of all the issues we confront in our relations with our 
southern neighbors, none is more critically important to the 
stability of the hemisphere than the issue of illicit drug 
trade. The illicit drug trade in the Americas is pervasive. 
Drugs are eating away at the very fabric of American society 
and they pose a significant threat to the political and 
economic stability of the region. In short, I believe the drug 
trade can be described as a serious regional security threat.
    No one should doubt that there is a strong national resolve 
to deal with the drug problem here in this country. Budgets for 
demand reduction, education, treatment and law enforcement are 
at record levels. And yes, those budgets could be increased. 
But let there be no doubt, reducing demand and maximizing our 
efforts in the international war on drugs are both necessary.
    As I said during the floor consideration of the 
supplemental, the question was not whether the U.S. should be 
involved in providing assistance to the Colombia but how should 
the U.S. be involved.
    Today we are holding this hearing to find out just how the 
Administration plans to administer this aid to Colombia. Who is 
in charge? How are the roles and the responsibilities of each 
agency involved organized and defined? What kinds of time 
tables and benchmarks are we looking at and what are our 
expectations, both short, midterm and long term? Colombia has a 
plan. We have provided funding. We are now at the point as the 
saying goes, where the rubber hits the road. And if my 
colleagues will indulge me, we can only hope that this Plan 
Colombia is not riding on Firestone tires.
    To some of the Plan's critics, I say let us take a moment 
and seriously consider the problems that are facing that 
nation. Let us not get caught up in the emotional rhetoric. Let 
us think about the alternatives.
    Do you think assisting in the fight against drugs is the 
wrong thing to do? Do people care little of the future of 
Colombia's democracy? Do people believe we should not offer 
alternative economic assistance to the people of Colombia? Do 
critics not want us to help support judicial reform, human 
rights or the peace process? I believe providing funding for 
all these is more than appropriate.
    And yes, despite the fact that military aid comprises only 
25 percent of the entire Plan Colombia, the U.S. aid package is 
weighted toward the military. But mobility is necessary and 
helicopters are expensive. And unless and until the guerrillas 
who do not now appear to be serious about ending the bloodshed 
nor apparently care at all for the Colombian people get serious 
about the peace agreement, why shouldn't the Colombian 
government have the right to ask for help to prepare their 
military?
    I know many are worried about the past human rights abuses 
involving Colombia's military. And while these are valid 
concerns, I believe President Pastrana is working to crack down 
on human rights abuses in the military as well as trying to 
sever the connections between some of the military units and 
the paramilitaries. I believe this aid provides us a good 
starting point. We all support peace. We all wish the 
guerrillas would get serious in those peace talks. We wish the 
paramilitaries would stop killing civilians, but until those 
wishes become reality, the Colombians need help and our 
assistance to their Plan demonstrates to the Colombian people 
and all America that we are committed to help solving these 
enormous and dangerous problems of illicit drugs, violence and 
human rights abuses in this beleaguered country.
    The question today is can a plan be implemented and 
implemented correctly, efficiently and effectively? I hope our 
witnesses can provide some assurances that we can affect that 
end.
    Before we turn to the witnesses I would like to recognize 
Members for an open statement.
    [The prepared statement of Mr. Gallegly follows:]
Prepared Statement of the Honorable Elton Gallegly, a Representative in 
 Congress from the State of California, and Chairman, Subcommittee on 
               the Western Hemisphere: Prepared statement
    One month ago, the President signed into law, a $1.3 billion 
supplemental appropriation to carry out enhanced counter-narcotics 
activities throughout Latin America. Of that amount, some $1.018 
billion was designated as the U.S. contribution to what has become 
known as Plan Colombia.
    Of all the issues we confront in our relations with our southern 
neighbors, none is more critically important to the stability of the 
hemisphere than the issue of the illicit drug trade. The illicit drug 
trade in the Americas is pervasive. Drugs are eating away the very 
fabric of American society. And they pose a significant threat to the 
political and economic stability of the region. In short, I believe the 
drug trade can be described as a serious regional security threat.
    No one should doubt that there is a strong national resolve to deal 
with the drug problem here in this country. Budgets for demand 
reduction, education, treatment and law enforcement are at record 
levels. And yes, those budgets could be increased. But let there be no 
doubt--reducing demand and maximizing our efforts in the international 
war on drugs are both necessary.
    As I said during Floor consideration of the Supplemental, the 
question was not whether the U.S. should be involved in providing 
assistance to Colombia, but how the U.S. should be involved.
    I believe United States policy toward Colombia should help Colombia 
reduce the presence of illicit drug cultivation, production and 
transit.
    It should help protect Colombia's democracy which is under siege 
from a large and violent guerrilla gang.
    It should ensure the stability of Colombia and the Andean region as 
a whole.
    Today, we are holding this hearing to find out just how the 
Administration plans to administer this aid to Colombia. Who is in 
charge? How are the roles and responsibilities of each Agency involved 
organized and defined? What kinds of timetables and benchmarks are we 
looking at and what are our expectations, both short and mid-term?
    Colombia has a Plan. We have provided funding. We are now at that 
point, as the saying goes, ``where the rubber meets the road''. And if 
my Colleagues will indulge me, we can only hope that this Plan Colombia 
is not riding on Firestone tires!
    To some of the Plan's critics I say let's take a moment and 
seriously consider the problems that the nation is facing. Let's not 
get caught up in emotional rhetoric. Let's think about the 
alternatives.
    Do people think assisting in the fight against drugs is the wrong 
thing to do? Do people care little of the future of Colombia's 
democracy? Do people believe we should not offer alternative economic 
assistance to the people of Colombia? Do critics not want us to help 
support judicial reform, human rights or the peace process?
    I believe providing funding for all of these is appropriate.
    I also believe providing funding for select, vetted, Colombian 
military units who will work with the Police in the counter-drug effort 
is crucial if our efforts to address the drug trade and Colombia's 
stability are to be successful.
    It is true that the Colombian police have a proven record in the 
drug effort and should continue to be supported. And they are in our 
aid package. But, the responsibility for protecting Colombia's 
democracy from the drug supported violence of the guerrillas and the 
paramilitaries is a legitimate job for the military. As Colombia's 
national strategy to expand the counter-drug effort is likely to be met 
by stronger resistence from the guerrillas, the police must have a 
strong military to back them up. Additionally, if the military is to be 
a successful backup to the police and a credible threat to the rebels 
protecting the drug trade, then it needs modern weapons and 
professional training.
    And yes, despite the fact that military aid comprises only 25 
percent of the entire Plan Colombia, the U.S. aid package is weighted 
toward the military. But mobility is necessary and helicopters are 
expensive. And, unless and until the guerrillas, who do not now appear 
to be serious about ending the bloodshed, nor apparently care at all 
for the Colombian people, get serious about a peace agreement, why 
doesn't the Colombian government have the right to ask for help to 
prepare their military?
    The comprehensive strategy known as Plan Colombia was developed by 
the government of President Pastrana for the good of Colombia. However, 
there should be no doubt that providing additional aid to Colombia to 
counter the drug trade, to help reform the judicial system, to provide 
economic alternatives and to support the peace process is in our 
national interest as well. Failing to help Colombia help itself will 
have long-term adverse effects not only on our own country but on the 
rest of the region, putting Peru, Bolivia, Ecuador, Venezuela and 
Panama under tremendous pressure and risk.
    I know many are worried about past human rights abuses involving 
Colombia's military. And while these are valid concerns, I believe 
President Pastrana is working to crack down on human rights abuses in 
the military as well as trying to sever the connections between some of 
his military units and the paramilitaries.
    I believe this aid package provides us a good starting point. We 
all support peace. We all wish the guerrillas would get serious in 
those peace talks. We wish the paramilitaries would stop killing 
civilians. But until those wishes become a reality, the Colombians need 
help. And our assistance to their Plan demonstrates to the Colombian 
people and all Americans that we are committed to helping solve the 
enormous and dangerous problems of illicit drugs, violence and human 
rights abuses in that beleaguered country.
    The question today is can such a plan be implemented and 
implemented correctly, efficiently and effectively? I hope our 
witnesses can provide some assurances that it can be.

    Mr. Gallegly. At this time, I would yield to my good friend 
from New York, the Ranking Member, Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman. And thank you for 
calling this timely hearing. Mr. Chairman, the United States 
Government has embarked on a new course in the counternarcotics 
effort in Colombia. In the broadest sense I support this effort 
because I believe that we have an obligation to support 
democracies when they are threatened.
    Colombia is the oldest democracy in Latin America and it is 
clearly under siege. But Colombia is not fighting a traditional 
insurgency whose followers claim some ideological justification 
for violence. It may have been that way once, but it isn't 
anymore.
    The guerilla movements in Colombia have largely abandoned 
their ideology and instead provide protection to the narcotics 
traffickers who poison our children. The guerrillas also resort 
to kidnapping and extortion. From all these activities the 
guerrillas generate substantial income making them the best 
funded insurgency probably in the history of the world.
    In addition to the guerrillas, the government must deal 
with the paramilitary organizations who also receive a 
significant amount of funding from narcotics traffickers and 
who have continuing connections to the Colombian military.
    So the first point that I would make to my colleagues is 
that we should be clear about what our assistance is used for. 
While it comforts us here to talk about this assistance as only 
for counternarcotics, we must recognize, because of the current 
situation on the ground in Colombia, counternarcotic strategy 
is, by necessity, counterinsurgency strategy.
    The push into southern Colombia is designed to punish the 
drug traffickers and their guerrilla allies in order to stop 
the flow of narcotics and arrest the traffickers and, with 
luck, drive the guerrillas to the negotiating table. In this 
scenario, I don't think we will be able to draw bright lines 
around what is and what isn't narcotics related.
    The second point we must consider is who we are providing 
our assistance to. The Colombian National Police have an 
outstanding human rights record. They are an organization we 
should be proud to assist. The bulk of the Plan Colombia and 
its assistance will go to the Colombian military, which has one 
of the worst human rights records in the hemisphere. On top of 
that there are critical allegations of ongoing cooperation 
between elements of the Colombian military and the paramilitary 
organizations. The good news is that the assistance will be 
provided to battalions that have been vetted and trained by us.
    In addition, it appears to me that the leadership of the 
Colombian military genuinely wants to address human rights 
issues. We should give General Tapias a chance to live up to 
his rhetoric on human rights. We should also be clear with the 
government of Colombia that the next waiver will not come so 
easily.
    And lastly, I am concerned about the direction of our 
counternarcotics strategy and the heavy reliance on 
interdiction and eradication. As we have seen in Bolivia and 
Peru, when there is success with this strategy in one area, the 
production and traffic merely moves to another area. I am 
pleased that there is regional assistance in the overall 
package, but I believe we must be vigilant in regarding changes 
in production and trafficking patterns and be flexible in 
response to those changes.
    In a very real sense, much of the turmoil in Colombia is 
our fault. Our citizens consume the drugs, grown and produced 
in Colombia. Yet at the policy-making level, we don't spend 
much time talking about demand reduction. For me, this is basic 
economics, demand drives supply, and unless we intensify our 
efforts to reduce demand here, a supply side strategy is doomed 
to failure.
    All of us would prefer not to become more deeply involved 
in another civil conflict in Latin America. Yet doing nothing 
imperils not only Colombia, but her immediate neighbors as 
well. Today's hearing is the first in what should be many 
hearings to ensure that the policy we have embarked upon is 
working as we and the Colombians intend.
    I thank you, Mr. Chairman, and I look forward to hearing 
from this morning's witnesses.
    Mr. Gallegly. I thank the gentleman from New York.
    At this time I yield to the gentleman from Pennsylvania, 
for an opening statement--or I am sorry, Indiana.
    Mr. Burton. Pennsylvania?
    Mr. Gallegly. You both have a basketball team, right?
    Mr. Burton. Now, wait a minute. Pennsylvania has a great 
governor from my class of 1982, Tom Ridge. I just thought I 
would mention that. And we used to have some pretty good 
basketball teams and we will again.
    Mr. Gallegly. The gentleman's time has expired.
    I yield to the gentleman from Indiana, Mr. Burton.
    Mr. Ackerman. William Penn was a good governor, as I 
recall.
    Mr. Burton. Bobby Knight will be missed.
    On a more serious note, Mr. Chairman, thanks for holding 
this hearing. The situation in Colombia continues to 
deteriorate by the day. Our allies in the Colombian National 
Police are dying in droves. Over 5,000 CNP police officers have 
been killed fighting the war on drugs in the last decade. Two 
years ago, the Congress of the United States rightfully shut 
down the Capitol for a week to mourn the loss of U.S. Capitol 
Police Officers Chestnut and Gibson, who were killed protecting 
all of us in the Capitol building.
    Last year 49 police officers in the United States died in 
the line of duty. Last year in Colombia, more than 500 CNP 
police officers were murdered fighting our war on drugs.
    Few in the U.S. even know or care about the lives of these 
brave men and women, and I wish everybody did. In Colombia, the 
FARC has made a sport out of planning and launching attacks on 
remote CNP bases from the DMZ, which was granted to them in 
exchange for peace. They were supposed to be peaceful if the 
President gave them a peaceful area where they could be safe. 
Yet they attack out of there and then go back to the DMZ, where 
they are safe from counterattacks.
    These attacks are always brutal and barbaric. The FARC 
frequently cuts off the heads and mutilates CNP officers, even 
executing their wives and children. We had one case where they 
executed a CNP officer's wife and children in front of him, and 
then very methodically tortured him before they beheaded him. 
This is almost a daily scenario in Colombia. Yet no human 
rights organizations ever condemn the FARC for their brutality 
against these non combatant police officers. We ought to be 
concerned about human rights in the army down there, and the 
CNP, which has a great human rights record, incidently. 
However, the human rights groups ought to also be talking about 
the barbarism of the FARC and the ELN. I mean, they are doing 
horrible things and nobody mentions a word about it.
    Five years ago, when I was Chairman of this Subcommittee, 
Chairman Gilman and I began pleading with an uninterested 
Clinton-Gore Administration to do something about our national 
security interests in Colombia. Unfortunately the 
Administration had other priorities, Bosnia, Kosovo, and East 
Timor, until now. We welcome them to this war on drugs in 
Colombia because it is very important to our national security 
as well.
    It has been hard for Chairman Gilman and myself and others 
on this Committee to fight this fight when every attempt we 
have made to get equipment to our drug war allies has been 
vigorously opposed by the Administration. We have repeatedly 
reminded them that every year, nearly 17,000 Americans die from 
drug overdoses, and that Colombia is the source of 90 percent 
of the cocaine in this country and 70 percent of the heroin.
    Our pleas have fallen on deaf ears. The Administration 
chose to provide a lion's share of the Plan Colombia aid to the 
Colombian Army. Many of us in Congress had hoped there would 
have been a more balanced approach, distributing the assistance 
in a more equitable manner between our proven allies in the 
CNP, who have a great human rights record, and the Colombian 
Army, which does not. The CNP has a long track record of 
successfully combating the narco traffickers while the army is 
new to this mission. The Colombian Army desperately needs 
military assistance to combat the insurgency. It also needs 
training to take on its new role of assisting the CNP in 
enforcing the rule of law and attacking the narco-terrorists. 
This untested plan needs some fine tuning before any CNP 
officers or Colombia Army soldiers are sent on counternarcotics 
missions together.
    Fortunately in the past, the CNP has taken the meager 
assistance we have been able to extract from a reluctant 
Administration and has produced amazing results. This year the 
CNP has already used the six Congressionally-funded Black Hawk 
helicopters to eradicate over 10,000 hectares of opium poppy. 
This is more than they did in 12 months last year and five 
times as much in 1998, in only 5\1/2\ months. This equipment 
protected by the GAU-19, defensive weapons that Congress 
funded, has also permitted CNP to eradicate poppy without 
taking a single casualty during hundreds of poppy eradication 
missions.
    In previous years many CNP officers were killed performing 
this duty without the security that Black Hawks and defensive 
GAU-19s provide.
    It is my hope it is not too little too late in Colombia. It 
is too bad it took negative polling numbers in an election year 
to get the Clinton-Gore Administration engaged on this vital 
national security issue. I don't like to be partisan about 
something like this, but it is extremely important that we 
realize that this is a war for America and not just Colombia. 
It is a very short flight from the United States to Colombia. 
And those people that are dying down there are fighting our war 
for us. We ought to give them all the assistance we possibly 
can.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Burton follows:]
  Prepared Statement of the Honorable Dan Burton, a Representative in 
                   Congress from the State of Indiana
    The situation in Colombia continues to deteriorate by the day. Our 
allies in the Colombian National Police (CNP) are dying in droves. Over 
5,000 CNP officers have been killed fighting our war on drugs in the 
last decade. In Colombia the FARC has made a sport out of planning and 
launching attacks on remote CNP bases from the DMZ, which was granted 
to them in exchange for ``peace.'' These attacks are always brutal and 
barbaric. The FARC frequently beheads and mutilates CNP officers, and 
even executes their wives and children. Tragically this is almost a 
daily scenario in Colombia, yet no human rights organization ever 
condemns the FARC for its brutality against these noncombatant police 
officers.
    Five years ago, when I was chairman of this subcommittee, Chairman 
Gilman and I began pleading with an uninterested Clinton-Gore 
Administration to do something about our national security interests in 
Colombia. Unfortunately the Administration had other priorities--
Bosnia, Kosovo and East Timor--until now. I want to welcome the 
Administration to the war on drugs in Colombia.
    It has been hard for Chairman Gilman and myself to fight this fight 
when every attempt we've made to get equipment to our drug war allies 
has been vigorously opposed by this Administration. We have repeatedly 
reminded them that every year nearly 17,000 Americans die from drug 
overdoses, and that Colombia was the source of 90% of the cocaine and 
70% of the heroin on American streets and schoolyards. Our pleas have 
always fallen on deaf ears with this Administration.
    The Administration chose to provide a lion's share of the Plan 
Colombia aid to the Colombian Army. Many of us in Congress had hoped 
there would have been a more balanced approach, distributing the 
assistance in a more equitable manner between our proven allies in the 
CNP and the Colombian Army. The CNP has a long track record of success 
in combating the narco-traffickers while the Army is new to this 
mission. The Colombian Army desperately needs military assistance to 
combat the insurgency. It also needs training to take on its new role 
of assisting the CNP in enforcing the rule of law and attacking the 
narco-terrorists. This untested plan needs some fine-tuning before any 
CNP officers or Colombian Army soldiers are sent on counter-narcotics 
missions together.
    Fortunately, in the past, the CNP has taken the meager assistance 
we've been able to extract from a reluctant Administration and has 
produced amazing results. This year the CNP has already used the six 
Congressionally-funded Black Hawk helicopters to eradicate over 10,000 
hectares of opium poppy. This is more than they did in 12 months last 
year, and five times as much as 1998--in only 5\1/2\ months! This 
equipment, protected by GAU-19 defensive weapons that Congress funded, 
has also permitted the CNP to eradicate poppy without taking a single 
casualty during hundreds of poppy eradication missions. In previous 
years, many CNP officers were killed performing this duty without the 
security that Black Hawks and defensive GAU-19's provide.
    It is my hope it is not too little too late in Colombia. It's too 
bad it took negative polling numbers in an election year to get the 
Clinton-Gore Administration engaged on this national security issue.

    Mr. Gallegly. Thank you, Mr. Burton. The gentleman from 
Nebraska, Mr. Bereuter, who is a Member of the Full Committee.
    Mr. Bereuter. Thank you very much, Mr. Chairman. I am 
coming here as vice-Chairman of the Full Committee, and at the 
specific personal request of the Speaker that I attend this 
meeting and raise some questions on behalf of the Speaker's 
office. This marks a return to the Subcommittee where I began 
my service on the then-House Foreign Affairs Committee.
    Speaker Hastert came away from the trip to Colombia--by the 
way, the gentleman from Massachusetts, Mr. Delahunt, was one of 
the 11 Members of the House and Senate to also go along with 
this Member--firmly believing that we have less time, not more 
time, than initially envisioned. He believes that delays are 
deadly. The President went to Colombia talking about the need 
to respond rapidly. And he had our support in that. An 
emergency supplemental was approved. Now everything seems to be 
slipping. And the question is why.
    This is the information I want to relay from the Speaker's 
office, and I am authorized to do that. It would appear that 
critical components of Plan Colombia initiative are being 
delayed by the Administration. I hope that the witnesses will 
address some of these specifics that I am going to give you.
    As of last week, Sikorsky notified House Intelligence 
Committee staff that the 18 Black Hawks authorized in the 
package would be reduced to 15 on the instructions of the State 
Department. Further, the contracts, it was told, will not be 
signed until April 2001, and delivery would be pushed back to 
late 2002.
    This is the Speaker's information. And the indications are 
that it is not a Sikorsky problem. The company asserts that it 
is prepared to stand by its original estimate of 16 Black Hawks 
delivered in early 2000 through October 2001 for the $234 
million provided by Plan Colombia. The Sikorsky package also 
provided for training infrastructure and maintenance training.
    Furthermore, the Speaker's office has discovered that the 
Huey-II program seems to be stalled. In order to stay with the 
anticipated delivery schedule, the State Department will have 
to sign contracts, we are told, and perform inspections by the 
end of September 2000. If they fail to meet the September 
deadline, the kits that are now available in Fort Worth will be 
sent elsewhere, and the Presidential certification which was 
made in August will expire.
    All of this information comes from the private sector. The 
Speaker's staff had asked to be briefed on this issue, the 
State Department acceded to that request for briefings, but OMB 
and the White House stepped in and blocked those briefings.
    You have some questions that I hope you can address or that 
the Administration can address if you are not able to. I look 
forward to the testimony, Mr. Chairman.
    Mr. Gallegly. The gentleman from Massachusetts, Mr. 
Delahunt.
    Mr. Delahunt. Thank you, Mr. Chairman. I will be very 
brief. Clearly there are a lot of specific questions that my 
colleagues have, particularly the gentleman from Nebraska. But 
I would like to step back for a minute because we hear a lot 
about helicopters, delivery dates, we hear about additional 
assistance of a military nature, and military hardware to the 
CNP, et cetera, et cetera. We shouldn't deceive ourselves. Plan 
Colombia is more than simply about military assistance.
    In fact, it is my opinion that Plan Colombia is really much 
more fundamental. It goes to the transformation of Colombian 
society. It speaks to the issue of judicial reform.
    I would like to hear what has occurred in terms of 
preliminary efforts in that regard. Let me also suggest it goes 
to the issue of the transformation of the Colombian military. 
As the gentleman from Indiana indicated, the military 
historically in Colombia has had an abysmal human rights 
record. I believe that at least at the senior command level and 
particularly with General Tapias, we have an individual and a 
leader who believes and embraces the concept of human rights in 
terms of its military as we would hope.
    I also believe that Plan Colombia deals with the issue of 
economic and social justice in Colombia. Efforts that should be 
undertaken in terms of bridging the gap or narrowing the gap, 
if you will, between those that have and have not. If we are 
going to have success in Colombia, it is going to require a 
much more comprehensive effort than simply the delivery of 
helicopters and military hardware. I think in the end, we 
should acknowledge the fact that if there is to be a 
substantial and significant reduction of the flow of cocaine 
and heroin into this country, it only can be achieved by 
stability in Colombia. And the linchpin to stability is peace, 
and like every peace process all over the world, that is a 
very, very, painfully slow faltering stumbling effort.
    Clearly, that is the case currently in Colombia. So I would 
like to hear from the panel their assessment and evaluation of 
the peace process. Because it is my opinion in the end, if we 
don't have peace, we will never do anything significant and 
permanent about the export of cocaine and heroin into the 
streets of this country. This isn't simply about drugs. It is 
about having a different relationship with a society that needs 
substantial change.
    Mr. Bereuter. Would the gentleman yield? I agree with his 
statement entirely. And in fact, I think that the four charts 
prepared by the Subcommittee, with assistance from the State 
Department, would be good to show the diversity of the aid that 
the U.S. is giving, if we could have those put before the 
audience as well as Members. It does provide for economic 
development and does provide for judicial training and reform. 
Perhaps the other point that should be made is that the overall 
Plan Colombia current version calls for $7 billion of 
expenditure, most of which comes from Colombian and other 
international donors. I thank the gentleman for yielding.
    Mr. Delahunt. I thank the gentleman for the further 
observation. I think it is very, very important that we 
understand that the American assistance, while skewed in terms 
of military hardware, the rest of the plan--and I would be very 
interested to hear the commitments that have been made by other 
nations as well as the Colombian government, where are we in 
terms of those commitments, because as the gentleman from 
Nebraska indicated, they are more attuned and focused in the 
areas that I was referring to in my own remarks.
    And I also want to echo--let me make a statement about an 
observation or statement made by Mr. Bereuter in terms of 
cooperation by the Department of State. And the intervention of 
OMB in terms of providing a briefing to Members. I find it very 
disturbing that information would be blocked by OMB, those 
briefings would be stopped by OMB for any Member of Congress. I 
think it is absolutely essential that there be an ongoing 
working relationship between the Administration and interested 
Members of Congress in regards to what is occurring as far as 
our efforts in Colombia. And I would hope that if there has 
been a block by OMB in terms of briefings by state and other 
Federal agencies, that that block be removed quickly. I yield 
back.
    Mr. Gallegly. I thank the gentleman from Massachusetts. We 
will move on to our witnesses.
    Mr. Ackerman. Mr. Chairman, I would like to ask unanimous 
consent that the statements of Mr. Menendez and Ms. McKinney be 
placed in the record.
    Mr. Gallegly. They will be made part of the record.
    [The prepared statement of Representative McKinney 
follows:]
      Prepared Statement of the Honorable Cynthia A. McKinney, a 
          Representative in Congress from the State of Georgia
    Thank you for this opportunity to speak. And I would like to thank 
the Chairman and the Ranking Member for calling this very important 
hearing.
    Our relationship with the people of Colombia is about to 
fundamentally change and I hope we know that going into this massive 
projection of US force into that country.
    I am especially appreciative of the opportunity to put my thoughts 
on the record because more than anything else, I care about the most 
fundamental aspects of human rights and how Plan Colombia will affect 
the human rights climate in Colombia today and the notions about the 
United States that Colombians affected most will have about us after 
implementation of Plan Colombia.
    As citizens of the most powerful nation in the world, it's our duty 
to ensure that this power is used responsibly and that we are not 
confused when we use it. Bobby Kennedy once said that we used to be a 
force for good in the world. I would like to hope that peoples around 
the world still see us as a force for good. However, I fear that this 
is far from the thoughts of the Colombian people from whom I have 
heard.
    Some 80% of the aid in Plan Colombia comes in the form of military 
weapons.
    This, more properly, should be called a military aid package and 
this meeting must include the military component if we are to truly 
grasp the full meaning of the US Role in Implementing Plan Colombia.
    Congress actually voted to fund a counter attack against an army of 
20,000 guerrillas in the Amazon jungle. We did this act alone without 
the support of our European allies. The European Union does not support 
our involvement of this nature in Colombia. And because we've voted to 
give approximately one billion dollars to the Colombian military, not 
very many other donors want to be associated with this kind of 
contribution.
    So, although Plan Colombia was originally intended by President 
Pastrana to be a multinational aid package, it has now morphed into a 
US military operation.
    About two weeks ago, the Presidents of the twelve Latin American 
countries met for the first time in a historic summit in Brasilia. 
Although it was not the intended theme of the meeting, the leaders 
resolved their opposition to the US aid package. Brazil's Fernando 
Cardoso spoke against it, Venezuela's Hugo Chavez spoke against it. In 
Ecuador they believe that tens of thousands of refugees are going to 
spill across the border from the violence this plan is going to 
generate. This is what Colombia's neighbors think of the plan.
    Thirty-seven Colombian NGO's, including the Center for 
Investigations and Popular Education and the Consortium for Human 
Rights and the Displaced have signed a letter saying they would reject 
any aid offered to them as part of Plan Colombia. They are completely 
unwilling to be associated with this program in any way no matter how 
much money they are offered.
    Amnesty International, Human Rights Watch, and the Washington 
Office on Latin America all denounced President Clinton's decision to 
waive the human rights conditions that had been placed on the aid by 
Congress. The human rights groups had hoped that by placing such 
conditions on the aid, Colombia would be forced to choose between the 
modern weaponry and the dirty war of assassination they are currently 
engaged in. I am extremely disappointed that the Clinton Administration 
once again has taken human rights completely off the table for 
discussion. Now there is no incentive whatsoever for Colombia to reform 
its military and abandon its paramilitary strategy.
    I will also note for the record that the push into southern 
Colombia, which has been described today, violates the Geneva 
Conventions, which prohibit the forced displacement of civilian 
populations as a tactic of war.
    In the whole world, only the Congo has more displaced people than 
Colombia. At a forum recently sponsored by my office, I have quite 
sadly learned that the vast majority of those displaced persons are 
Afro-Latinos. Two-thirds are minors. Only one in eight has access to 
education. One in three has access to health care. These poor children 
suffer from the neglect of the Colombian State and the ignorance of 
Washington policy makers.
    My third and final point is that not only is this plan immoral, 
it's impractical. Spraying chemicals on third world farmers is not an 
effective way to discourage people in the United States from using 
cocaine.
    We are not immune to the lure of quick cocaine cash ourselves. As 
has been made embarrassingly clear recently.
    How can Colonel James Hiett, smuggling cocaine and laundering money 
with his wife while overseeing anti-drug operations for the US Southern 
Command in Bogota . . . how could this narco get off with five months 
in jail while today there are more African Americans in prison than in 
college?
    So now, the US is about to implement a plan to spray chemicals on 
third world subsistence farmers and attack them with helicopter 
gunships while the Colombian government allows paramilitary groups to 
massacre them.
    One thing is for sure in this plan, it isn't about drug abuse 
control and won't help my friends who are strung out on dope.
    I would rather have from the CIA a truthful accounting of how crack 
cocaine came to flood every black neighborhood in America and affect 
every black family. Telling the truth about the relationships between 
federal agencies, US multinational banks, and elites in this country 
and abroad will do more to eradicate the scourge of drugs in America 
than this proposed Plan Colombia.
    Thank you Mr. Chairman.

    [The prepared statement of Representative Robert Menendez 
follows:]
 Prepared Statement of the Honorable Robert Menendez, a Representative 
                in Congress from the State of New Jersey
    Thank you, Mr. Chairman, for holding this hearing. And thank all of 
you, our witnesses today, for coming here to testify on this important 
and difficult subject. You all have tough jobs. Those on the first 
panel, the Administration panel, have the difficult task of 
implementing what is not the easiest, surest policy response to an 
extremely tough situation, that of reducing the drug flows out of 
Colombia and reducing the threat to democracy in that violence-racked 
country. Those on the second panel have the almost equally tough task 
of assessing the situation, trying to guide us as we make policy and 
reminding us of the human rights concerns and reporting on the abuses.
    We shouldn't rehash today the policy debates of the past few 
months. Like it or not, we now have a plan for at least the next two 
years. It is an expensive plan. Though I supported it, I would have 
preferred to see less emphasis on helicopters and more emphasis on the 
peace process, on development in Colombia and elsewhere in Latin 
America, and on drug demand reduction through treatment programs in the 
U.S. Again, though, this is not the moment to reopen those discussions.
    Today, we talk about how to implement this big undertaking. How to 
best make sure it will work--to slow the flow of drugs, reduce the 
violence, restore stability and democracy, reform the judiciary, and 
move towards peace--all the while adhering to protection of human 
rights. It's a tall task.
    Some warn that Colombia will be ``our next Vietnam.'' I think one 
Vietnam was probably enough, and the awareness of that in and of itself 
will prevent a similar quagmire. But finding the right balance for the 
U.S. role in Colombia will not be easy. I hope that we will stand 
closely behind our Colombian friends, supporting them in their efforts 
to end the violence and the drugs; but at the same time leading by 
example and insisting on integrity, on efforts to rid corruption, and 
on adherence to human rights. I also hope that we will vigorously 
support efforts towards achieving peace.
    Though we're focusing on the U.S. role today, I hope you will give 
us some indication of what the Colombians, and other donors, are doing 
for their part. This will not be an inexpensive investment for us; and 
we already find ourselves ``in for a dime, in for a dollar.'' But I'd 
like to know what our money is leveraging in terms of others' 
contributions,
    I hope that we will not spend this time today--and our time is 
limited in these closing days of the session--micro-managing the 
Department of Defense, the Department of State, and the Agency for 
International Development. These witnesses and their many colleagues in 
the Administration have spent a lot of time and energy with their 
Colombian counterparts working out the details. We should oversee, we 
should hold accountable. We should not micromanage.
    Thank you. I look forward to your testimony.

    Mr. Gallegly. Okay. At this time let us move to our 
witnesses.
    The first witness we have is Assistant Secretary Rand 
Beers.
    Mr. Beers.

STATEMENT OF THE HONORABLE R. RAND BEERS, ASSISTANT SECRETARY, 
  BUREAU OF INTERNATIONAL NARCOTICS AND LAW ENFORCEMENT, U.S. 
                      DEPARTMENT OF STATE

    Mr. Beers. Thank you, Mr. Chairman and Members of the 
Committee. Thank you for the opportunity to speak to you today 
about the implementation of our assistance to Plan Colombia. I 
have submitted a statement in advance of this, which I would 
ask be submitted in the record, although there will be some 
amendments to it based on information that was available after 
the delivery of that statement to the Committee. We will do 
that by the end of today.
    Mr. Gallegly. Without objection it will be made a part of 
the record.
    Mr. Beers. Thank you. Since the emergency supplemental for 
Colombia was passed and signed into law in July, U.S. and 
Colombian planners have worked together to develop a 
comprehensive plan to spend the $1.3 billion of assistance for 
its integration into the broader efforts of the Government of 
Colombia. The U.S. planning team included representatives from 
U.S. SOUTHCOM, the State Department, USAID, the Defense 
Department, Justice and Treasury, who returned from Colombia 
last week, after nearly 2 months of daily consultations with 
their Colombian counterparts. The result is a comprehensive 
interagency action plan for the Government of Colombia that 
defines the implementation of our support to Colombia's 
counternarcotics effort and provides a mechanism to coordinate 
the various elements of our aid, particularly regarding 
eradication and alternative development.
    With the Government of Colombia's planning document in 
hand, U.S. agencies are now refining their own draft 
implementation plans, which had been prepared earlier prior to 
the development of the Colombian plan. In the interagency 
action plan, the Government of Colombia has laid out an 
organizational structure that will assist in coordinating the 
counternarcotics program with the other elements of Plan 
Colombia.
    Representatives of the Colombian police, military and 
PLANTE, the alternative development agency of Colombia, as well 
as the Social Security agency, will coordinate with mayors and 
governors at the local and regional level. They will work under 
the supervision of a national technical committee consisting of 
representative government ministers such as PLANTE, Social 
Security and the security community. U.S. embassy 
representatives will coordinate with this Committee and at the 
local levels with the embassy's military group narcotics 
affairs section and Drug Enforcement Administration personnel 
addressing these counternarcotics matters specifically.
    The Colombian technical committee will, in turn, report to 
an interagency Colombian government body at the vice 
ministerial level, and finally to the heads of the ministries 
involved. Senior members of the embassy country team will be 
handling bilateral issues at this level.
    U.S. agency representatives will coordinate operational 
issues within the embassy with the lead responsibility for 
specific projects generally falling to those agencies 
responsible for the project's funding. There will be exceptions 
to this approach, however. Such as, for example, with regard to 
the UH-60 Black Hawk helicopters. Although they were funded 
through the Department of State's Bureau of International 
Narcotics and Law Enforcement Affairs, they are being purchased 
as requested by Congress through the Defense Security and 
Cooperation Agency and will be managed by Department of Defense 
personnel.
    The initial 2-year phase of the interagency action plan 
focuses on southern Colombia. It will start with a rapid 
expansion of programs aimed at social action and institutional 
strengthening. Interdiction operations will follow shortly 
thereafter and eradication efforts will commence before the end 
of the year. Alternative development and other programs to 
strengthen legal communities will expand in neighboring regions 
where counternarcotics programs will continue regionally. 
During this first phase, these regional efforts will be 
accompanied at the national level by public outreach and 
programs meant to prepare for the eventual expansion of the 
programs nationwide.
    Eradication in Putumayo will be conducted in two ways: In 
the areas dominated by small scale cultivation of three 
hectares or less per farm, voluntary eradication agreements--
sometimes referred to as community pacts--will be concluded 
between the government of Colombia and the individual 
communities. Through this program, small farmers will be given 
the opportunity to eradicate their illegal crops voluntarily as 
part of their development projects. Aerial eradication will 
continue to be important in the more remote areas of Putumayo, 
where large agro business coca plantations dominate the 
landscape.
    After the first 12 months of the eradication campaign in 
Putumayo, those communities in the alternative development area 
that have opted not to participate in the voluntary eradication 
program will be subject to possible aerial eradication. This 
does not necessarily mean the spray operations will begin 
immediately upon the expiration of the 12-month grace period. 
It is merely intended to leave the aerial eradication as an 
option for the Colombian authorities to use in combating the 
coca cultivation.
    While eradication is getting underway, a Putumayo-focused 
interdiction effort will also be launched to disrupt the supply 
of important precursor chemicals into the region, and the 
shipments of cocaine base and processed cocaine into the 
region. Another principal activity will be the dismantling of 
processing laboratories. These actions should decrease the 
revenue potential of coca in the target area. When combined 
with the increased expense of time and money caused by 
eradication, the resulting distortions in the Putumayo coca 
market should encourage growers to abandon the crop as a source 
of income.
    As an essential element of the interdiction efforts in 
southern Colombia, we will be focusing on the Colombian Army's 
counternarcotics brigade. While funding for its training and 
support was contained in the supplemental appropriation, our 
greatest contribution to the brigade, both in terms of dollar 
amount and operational need is helicopter lift.
    And I would like now to begin a response to Congressman 
Bereuter's questions in my oral statement. As all are aware the 
helicopters themselves, the platforms that we are talking 
about, are but one part of the helicopter equation. In addition 
to the aircraft themselves, we also have to take into 
consideration the training and provision of pilots, crew, 
mechanics and a logistical infrastructure to support the 
operations of those aircraft. So that it is necessary in order 
to have functioning aircraft brought together to bring together 
all of these elements in near simultaneity so that aircraft are 
delivered for pilots who are available to actually fly them, 
and mechanics who are actually available to repair them.
    With respect to the delivery of those aircraft, and I 
understand that this is an important issue, as I mentioned 
earlier, Congress has asked that with respect to the Black 
Hawks, DSCA Act as the U.S. executive agent for the management 
of that program, and we are fully complying with that. Based on 
United States Army guidance and estimates, which are, by the 
Army's own admission, conservative, they estimate that prior to 
the signing of the contract, the first--in other words, at this 
time, the first aircraft would be scheduled to arrive in 
approximately October 2002 with all scheduled to arrive in 
country by May 2003.
    I know that this seems of concern to Members of Congress. 
It is equally of concern to us. But we are not in a position at 
this particular time to go beyond the Army's contracting 
estimate until we actually sign the contract. We will be in a 
much better position in order to deliver that estimate 
definitively to the Congress once the contract is signed. I 
know that the Congressman has heard that there has been a 
discussion of that being delivered, that that contract may not 
be signed for another 6 months. That is the current Army 
working estimate. We are not prepared to accept that estimate. 
And the Army, I think, would not be either. They have simply 
provided us with their most conservative estimate.
    Similarly, with respect to the brigade's Huey-II 
helicopters, we expect, based on conservative estimates in 
conjunction with Bell helicopter, that we will be able to fully 
field this force within 2 years, with the first contract 
helicopters arriving in the second quarter of calendar year 
2001, following in train immediately behind the currently 
programmed aircraft that Bell will be delivering earlier in the 
spring of that year.
    With respect to the numbers of aircraft that are under 
discussion, there have been some indications or rumors or 
information that has flown around suggesting that the numbers 
may be less than the numbers that Congress has appropriated 
for. We have been looking at the pricing of those aircraft. 
There are some widely differing estimates of price for those 
aircraft. We are trying to get to the bottom of that. The 
effort on the part of the State Department to provide Members 
with that briefing was stopped by OMB when they realized that 
those numbers required a more thorough scrubbing within the 
Administration. It is our intent to brief Members of Congress 
as quickly as we can give you definitive numbers. But we are 
not, unfortunately, in a position to do that at this particular 
time.
    With respect to the 18 UH-1N helicopters that were 
prepositioned in Colombia at the end of 1999 by the Department 
of State to provide an interim air mobility for the 
counternarcotics brigade, those 18 aircraft will be ready by 
the beginning of November with an initial operating capability 
in October in order to train with the counternarcotics brigade. 
The remaining 15 that are part of the supplemental will be 
available in Colombia in the first quarter of calendar year 
2001, in time to be available to work and operate with the 
fully trained second counternarcotics battalion. These 
aircraft, the UH-1N's, have always been envisioned as the 
interim aircraft, and they will be available for the 
operational requirement that we have all understood for them 
until we can make the other aircraft available.
    The Government of Colombia has committed itself to make an 
all-out effort to resolve the country's problems, and with our 
assistance of the package of $1.3 billion, the U.S. has pledged 
much needed support, while teams in both countries continue to 
plan and adjust to operational modalities. The implementation 
process is now underway. I am confident of the success of these 
projects and of Plan Colombia, and I look forward to working 
closely with Congress as we continue to address and discuss 
these critical issues.
    Thank you.
    [The prepared statement of Mr. Beers follows:]
Prepared Statement of the Honorable R. Rand Beers, Assistant Secretary, 
Bureau of International Narcotics and Law Enforcement, U.S. Department 
                                of State
    Mr. Chairman and Members of the Committee:
    I want to thank you for this opportunity to speak to you today 
about the situation in Colombia, the threat it poses to regional 
security, and the implementation of our assistance to Plan Colombia.
    Over the last year, the nature of the situation in Colombia has 
been repeatedly discussed in hearings such as this one, in the media, 
and in international fora. There is little doubt that the Colombian 
people are suffering greatly from the violence produced by that 
nation's guerrilla insurgents and paramilitary vigilantes: groups that 
support themselves through a host of criminal activities, the most 
important of which, the illegal narcotics industry, provides them with 
untold millions of dollars every month. Colombia's historic neglect of 
the nation's outlying areas has allowed this problem to fester, and it 
has been exacerbated by an economic down-turn of a magnitude Colombia 
has not seen for seventy years. In short, Colombia must overcome 
critical challenges.
    Why is Colombia's situation critical? It is critical because 
Colombians are dying. It is critical because the guerrilla and 
paramilitary groups that perpetuate the violence in Colombia are 
financed by the proceeds of illegal drug trafficking and the thousands 
of Americans that it kills in our streets every year. It is critical 
because that drug industry is clear-cutting Amazonian rainforest in 
order to expand cultivation and is polluting the Amazon basin with tons 
of toxins used in drug processing. It is critical because, with 
unemployment topping twenty percent and government resources strained, 
the financial lure of the narcotics industry is powerful.
    The leadership of Colombia recognizes the need for action. 
President Pastrana is committed to resolving his nation's problems. He 
was elected on a pledge to resolve peacefully 30 years of violence and, 
since taking office two years ago, he has maneuvered through a 
minefield of issues to bring the Revolutionary Armed Forces of Colombia 
(FARC) and, hopefully, the National Liberation Army (ELN) to the 
negotiating table. His administration understands the complexities of 
the issues confronting the country, laid them out in Plan Colombia, 
and, even while negotiating with insurgents, took the courageous step 
of admitting that they required the assistance of the international 
community to address that country's multiple crises.
    In consultation with the government of Colombia, an interagency 
group, including representatives of State, Defense, Justice, USAID, and 
Treasury, developed a proposed U.S. assistance package for Bogota's 
Plan Colombia, with a particular emphasis on the Plan's 
counternarcotics component. Funding for that package, with some 
modifications, was passed with the support of this committee and was 
signed by the President on July 13.
    Since the package was passed in its final form, U.S. and Colombian 
planners have worked together to develop a comprehensive plan for the 
implementation of our $1.3 billion of assistance and for its 
integration into the broader efforts of the Colombian government. The 
U.S. planning team, which included representatives of State, USAID, and 
DoD, returned from Colombia just last week after nearly two months of 
daily consultations with their Colombian counterparts. The result is a 
comprehensive Interagency Action Plan that defines the implementation 
of our support to Colombia's robust counternarcotics efforts and 
provides a mechanism to coordinate the various elements of our aid, 
particularly regarding eradication and alternative development. With 
the government of Colombia's planning document in hand, U.S. agencies 
are now refining their draft implementation plans.
    In their recently completed Interagency Action Plan, the government 
of Colombia has laid out an organizational structure that will assist 
in coordinating the counternarcotics programs with the other elements 
of Plan Colombia. Representatives of the Colombian police, military, 
PLANTE (the Colombian agency that administers alternative development 
programs), and the social security agency will coordinate with mayors 
and departmental governors at the local and regional level. They will 
work under the supervision of a national technical committee consisting 
of representative governmental ministries, such as PLANTE, social 
security, and the security community. U.S. Embassy representatives will 
interact with this committee and at the local levels, with the 
Embassy's Military Group, Narcotics Affairs Section and Drug 
Enforcement Administration personnel addressing counternarcotics 
matters. The Colombian technical committee, in turn, will report to an 
interagency Colombian government body at the vice-ministerial level and 
finally to the heads of the ministries involved. Senior members of the 
Embassy country team will handle bilateral issues at this level.
    The U.S. agency representatives will coordinate operational issues 
within the Embassy, with lead responsibility for specific projects 
generally falling to those agencies responsible for the project's 
funding. Exceptions to this approach can be found, particularly with 
regard to the UH-60 BlackHawk helicopters which, although funded 
through the Department of State's Bureau for International Narcotics 
and Law Enforcement Affairs, are being purchased through the Defense 
Security Cooperation Agency and will be managed by Defense Department 
personnel.
    The initial two-year phase of the Interagency Action Plan focuses 
on southern Colombia. It will start with a rapid expansion of programs 
aimed at social action and institutional strengthening. Interdiction 
operations will follow shortly and eradication efforts will commence 
before the end of the year. Alternative development and other programs 
to strengthen local communities will expand into neighboring 
departments where counternarcotics programs will continue regionally. 
This will include the expansion of voluntary eradication to Caqueta. 
During this first phase, these regional efforts will be accompanied at 
the national level by public outreach and programs meant to prepare for 
the eventual expansion of the programs nationwide.
    Implementation of Plan Colombia's counternarcotics elements will 
require a multiyear effort and a great deal of coordination between the 
U.S. and Colombian agencies involved, as well as care in the 
synchronization of equipment deliveries and the operations that the 
equipment is intended to support.
    In the first two years of Plan Colombia, the Action Plan calls for 
a concerted effort to eradicate illegal crops from southern Colombia, 
support for expanded interdiction efforts, continued support for the 
Colombian National Police, alternative and economic development, and 
additional funding for human rights and judicial reforms.
    Although the counternarcotics elements of Plan Colombia are 
national in scope, the specific objectives for the first two years call 
for programs to strengthen the government of Colombia's presence in 
southern Colombia while reducing the production, processing, and 
trafficking of illegal drugs in the area. One initial objective will be 
to establish the security conditions necessary to permit the 
implementation of other, civilian-run, programs. During these first two 
years, the Interagency Action Plan focuses its counternarcotics 
energies on southern Colombia in an attempt to reverse the current 
surging expansion of coca cultivation and, through the implementation 
of sustainable alternative development and institution building, to 
make dramatic inroads towards a coca-free Putumayo by achieving a fifty 
percent reduction in that region's coca cultivation.
    Eradication in Putumayo will start with identification of the coca 
cultivation to be targeted. A coordination committee including 
representatives of PLANTE and the Colombian National Police will make 
these targeting decisions prior to the commencement of eradication 
operations. The operations will include the aerial eradication of agro-
business, plantation scale crops and the establishment of voluntary 
eradication agreements, sometimes referred to as ``Community Pacts,'' 
between the government of Colombia and communities within the area that 
is dominated by small-scale cultivation of three hectares or less per 
farm. Eight communities have been identified in this alternative 
development area, including Villa Garzon, Puerto Guzman, Puerto Asis, 
and Orito. Through this program, they will be given the opportunity to 
eradicate their illegal crops voluntarily as part of their development 
projects. The pace of implementation for these voluntary eradication 
and alternative development projects will depend heavily on the local 
farmers and their willingness to participate and comply with verifiable 
compliance benchmarks. Aerial eradication, the cornerstone of current 
eradication efforts in Colombia, will continue to be important in the 
more remote areas of Putumayo, where large, agro-business coca 
plantations dominate the landscape. The spray campaign aimed at those 
targets is scheduled to begin in December. This timing coincides with 
the beginning of the local dry season, when aerial eradication is most 
effective, and with the anticipated completion of training by the 
Colombian army's second counternarcotics battalion, as well as the 
arrival of the UH-IN helicopters needed to provide transportation for 
it and for the first counternarcotics battalion.
    After the first twelve months of the eradication campaign in 
Putumayo, those communities in the alternative development area that 
have opted not to participate in the voluntary eradication program will 
be subject to possible aerial eradication. This does not mean that 
spray operations will begin immediately upon the expiration of the 
twelve-month grace period. It is merely intended to leave aerial 
eradication available as an option for the Colombian authorities to use 
in combating coca cultivation, which, under Colombian law, is a 
criminal act.
    While funding for the training and support of these battalions was 
contained in the supplemental appropriation, our greatest contribution 
to the brigade, both in terms of dollar amount and operational need, is 
helicopter lift. That said, the helicopter platforms themselves are 
just one part of the helicopter equation. We must also take into 
account the training needed to produce the pilots, mechanics and crews 
and the logistical network necessary for the helicopters to be 
functional aircraft. We are working, with the Colombians, to address 
all these issues.
    On the helicopters themselves, we are complying with Congress's 
wish to purchase the UH-60 BlackHawks through DSCA, who has provided us 
with delivery estimates. These delivery estimates, that by the Army's 
own admission are conservative, indicate that the brigade's UH-60 
BlackHawk utility helicopters should begin to arrive by October 2002, 
and all are scheduled to be in Colombia by May 2003. These dates are 
based upon the worst-case assumption that the aircraft will be 
contracted in April, with the first aircraft being completed eighteen 
months later. Clearly, it may be possible to complete the contract 
sooner than April and it may be possible to deliver the aircraft in 
less than eighteen months. We know that this matter is of concern to 
Congress. It is of concern to us as well and we will make every effort 
to pin down earlier dates, but we are not in a position to say anything 
beyond the Army's estimates at this time. Similarly, we expect the 
brigade's contingent of Huey II helicopters to be fully fielded within 
two years, with the first aircraft arriving in mid-2001. These are 
current contractor estimates. The exact delivery dates have not been 
determined, but the aircraft will follow immediately behind the Huey 
IIs currently being processed for the CNP. Moreover, we will sign a 
contract with Bell for the first 12 Huey II kits before the end of 
September.
    There have also been a great number of indications and rumors that 
the number of Black Hawk and other helicopters being provided through 
the supplemental appropriation may be less than Congress authorized. We 
believe that this is due to widely different cost figures circulating 
among the parties involved. We are working to resolve this confusion so 
that the programs can proceed and we will share those cost figures with 
the Congress as soon as they are available.
    Last year, eighteen UH-IN helicopters were sent to Colombia to 
provide lift to the counternarcotics battalion. Those aircraft were 
used to train pilots. Then, in the spring, because funding we expected 
from the supplemental appropriation was not yet available, the program 
was temporarily suspended, including training with the ground forces. 
Those aircraft are now being brought back into service. The first will 
be operational in October and the full complement of 18 complete in 
November. These 18 helicopters will be available for training with the 
first and second counternarcotics battalions. Additionally, all fifteen 
UH-IN helicopters provided by the supplemental are expected to be 
available the first quarter of 2001. These 33 helicopters were always 
envisioned as providing interim air-mobility for the first two 
battalions and eventually for the third battalion, when it becomes 
operational.
    Pilot and mechanic development and logistical training are also key 
to implementing Plan Colombia's counternarcotics goals. We believe that 
this training requirement can be successfully addressed. The delay 
between the order and delivery of the Huey II and UH-60 aircraft, for 
example, will allow pilots and others for those aircraft to be trained 
at a sustainable rate. No other counternarcotics element of Plan 
Colombia raises the question of absorptive capacity in so serious and 
difficult a manner. While the supplemental provides important new 
resources, those resources, with the exception of the helicopters, will 
primarily serve to expand upon programs already underway in Colombia. 
Past U.S. government assistance for those programs has been easily 
absorbed.
    Colombian preparations, however, must go beyond mere absorptive 
capacity and the training of personnel. In order to undertake such an 
ambitious counternarcotics strategy, Colombian governmental 
institutions have conducted difficult but necessary reforms to improve 
efficiency and interagency coordination. This includes the breaking 
down of long-standing intra-service rivalries, which is key for the 
success of the envisioned joint operations, and the improvement of 
communication between the country's security forces and organizations 
dedicated to humanitarian assistance, both within and outside of the 
government. This essential public outreach has been insufficient so 
far, but the Colombian government is now carrying out a campaign to 
educate the population, especially in Putumayo, regarding the social 
and developmental aspects of the counternarcotics efforts.
    Colombia must also work to address the human rights and 
counternarcotics certification criteria identified in the supplemental 
legislation. The documentation that accompanied the August 23 
certification and waiver decisions noted that President Pastrana had 
provided the written directive regarding jurisdiction over military 
personnel that was required for certification. The Colombian 
legislature has recently also passed a package of military reforms that 
gives the government the ability to dismiss military personnel with 
less than 15 years of service who are credibly suspected of human 
rights violations and/or collusion with the paramilitaries. We are 
confident that the next certification process, expected in December, 
will be able to document progress in the prosecution of alleged human 
rights abusers in the military. The Department of State is also working 
with the government of Colombia to develop a more aggressive plan for 
the eradication of illegal crops. Already, the Colombian government has 
revised its goals to include a fifty-percent reduction of coca 
cultivation in Putumayo and a thirty-percent reduction over the rest of 
the country within the next two years.
    The government of Colombia has committed itself to making an all 
out effort to resolve that country's problems. With our assistance 
package of $1.3 billion, the United States has pledged much needed 
support. While teams in both countries continue to plan and adjust 
operational modalities, the implementation process is now underway. I 
am confident of the success of these projects and of Plan Colombia, and 
I look forward to working closely with the Congress as we continue to 
address these critical issues.

    Mr. Gallegly. At this point, it is my pleasure to recognize 
the gentleman from New York, the Chairman of the Full 
Committee, Mr. Gilman.
    Mr. Gilman. Thank you, Mr. Chairman for conducting this 
very timely hearing. I regret I have to run to the Floor. I 
appreciate your letting me interrupt the proceedings, and I 
want to thank our witnesses for being here, particularly 
Assistant Secretary Beers, who we have worked with over the 
years.
    It is a particularly important time since the 
Administration was, we believed, about to sign contracts for 
the drug fighting choppers for which we provided the monies in 
Plan Colombia and which are sorely needed. The delays we are 
hearing about today are abominable and alarming, to say the 
least. How those choppers are configured and how the other 
monies Congress provided under Plan Colombia are going to be 
spent, will make a major difference in Colombia. It will 
determine whether or not we accomplish our twin goals of 
reducing drugs from abroad and helping save Colombian democracy 
from the self-sufficient and well-armed narco-terrorist 
insurgencies of the ELN and the FARC. If the Administration's 
track record of failing to get the right aid to Colombia in a 
timely fashion is any indication, I think we have to be very 
much concerned.
    By comparison, the Russian speaking mafia, in conjunction 
with the drug traffickers, got the steel, the tools and manuals 
down to Colombia to build a pressurized double hull submarine 
to move drugs into our Nation, out of Colombia. Our State 
Department ought to be able to deliver our counterdrug aid at 
least that well. If not, I think we are in major trouble. In 
July, the State Department Inspector General's Office released 
an audit of the Colombian anti-drug program. That report was 
requested by Chairman Burton and myself last March after we 
observed that the Huey-II choppers were improperly configured 
for the Colombian National Police. The IG's audit makes it 
clear there was a lack of consultation by our State Department 
with the Colombian police, the front line fighters against 
drugs, and how their choppers were to be configured.
    Even worse, the Inspector General's report revealed that 
the Bell 212 choppers that were given to the Colombia drug 
police could not fly because the INL Bureau failed to give the 
police the spare parts that were needed to make them operable.
    As we know, the Colombian police have the lead in drug 
fighting in that troubled nation. The police have lost nearly 
5,000 of their officers in the last decade fighting drugs. And 
many of their elite anti drug units were lost or captured when 
their choppers were shot down by the narco-terrorists. Congress 
had to lead the way in providing both good choppers and 
correctly configured Black Hawks for the police. We thank the 
Speaker, Mr. Hastert, for helping us in that direction. We 
helped to do it right. I am pleased to report today through mid 
September of this year, the police, have record eradication 
levels. Drug eradication has soared, all without the loss of 
one policeman's life because we gave them Black Hawks with the 
right defensive weapons, the GAU-19 gattling gun.
    I would like to note that this is the very same defensive 
weapon that was just chosen by our Marine Corps to protect 
their new 21st century troop transports.
    The police have done an amazing job with eradicating opium 
production. They have managed to eradicate nearly five times 
the amount of poppy that they eliminated in all of 1998. This 
was done without any loss of life in the rugged high Andes. I 
have long had a healthy skepticism of Plan Colombia, both in 
its implementation by our State Department-based on State's 
past performance, and the overemphasis on our aid to the 
Colombian military, instead of to these excellent CNP anti-drug 
units. As we approach a provision of nearly $1 billion in aid 
to Colombia under Plan Colombia, we need to be convinced that 
the mistakes of the past, are not going to be repeated. We look 
forward to the further testimony today, and to the work of 
assistant Secretary Beers, who is fully cognizant of the 
problems involved. I hope that answers will be provided on 
whether we can get it right this time. If not, I think the 
future of Colombian democracy is in grave risk, along with the 
lives of many of our American families and children in our 
Nation, as Colombian exports of illicit drugs continue to flood 
our shore lines.
    Thank you, Mr. Chairman.
    Mr. Gallegly. Thank you Mr. Gilman.
    [The information referred to follows:]
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Gallegly. At this point we recognize the gentleman from 
New Jersey who just joined us, the Member of the Committee, Mr. 
Rothman.
    Mr. Rothman. Thank you, Mr. Chairman. Let me begin by 
thanking you and our distinguished Ranking Member, Mr. 
Ackerman, for holding today's hearing. I am here today because 
I am interested in helping craft a U.S. foreign policy that 
will pave the path to peace in Colombia. I know in my district 
in northern New Jersey, I have some constituents who have 
emigrated from Colombia and whose greatest dream is to return 
to visit relatives and friends in a Colombia that is free from 
the chaos brought on by drug warlords. I share their dream. If 
history is any guide, large infusions of cash from the United 
States for counternarcotics operations in Colombia will not 
alone end that nation's dreadful slide into anarchy.
    While the 2-year, $1.3 billion aid package, and we recently 
approved, increased assistance for economic development and 
democracy building programs in Colombia, it also directs the 
lion's share of the aid about 75 percent for counternarcotics 
programs. Frankly, I wish the aid package was a little bit more 
balanced with more aid targeted toward democratization and 
economic development programs. I believe that the real path to 
peace in Colombia resides in two places, in the hearts of the 
Colombian people and the resolve of the United States to help 
Colombia in its efforts to fight narco-traffickers and to 
institute broad economic and civic reforms.
    Ultimately, it is these reforms that will help defeat the 
very drug traffickers who are now dragging this once proud 
nation into a political and economic black hole. Today, 
Colombia is in danger of losing its war against these drug 
traffickers and guerrilla groups funded by income from the 
narcotics industry. These groups now control or influence over 
half of the Colombia's 1,000 municipalities. These groups have 
escalated their attacks on military targets and innocent 
civilians and have expanded their kidnapping and extortion 
operations. Likewise, paramilitary groups in Colombia with 
close ties to the military have committed gross human rights 
violations, including the murder of guerrilla sympathizers and 
alleged guerrilla sympathizers. On top of these troubling 
facts, United States officials estimate that despite our 
programs, cocaine production in Colombia is likely to increase 
more than 50 percent in the next 2 years.
    To make matters worse, Colombia is now also the largest 
supplier of heroin to the eastern United States. No nation, no 
people can long endure the status quo that now prevails in 
Colombia. The murder of innocents, the assassination of honest 
government officials, and the lawlessness of the guerrilla 
groups and paramilitaries, have all taken an enormous toll on 
civil society and democracy and in Colombia. Many good people 
have been silenced in Colombia. Many more have been forced to 
flee their home land, leaving the guerrilla groups stronger and 
the government weaker. The good news is that the people of 
Colombia do hunger for change as evidenced by the fact that 
over 10 million Colombians, nearly one quarter of the 
population, marched last year in support of peace and a final 
end to violence.
    Today a new path toward peace in Colombia does exist. It is 
called Plan Colombia. I voted to help fund Plan Colombia, 
because I am convinced that it offers fresh new and concrete 
ways to bring hope and prosperity back to Colombia. It affirms 
that all Colombians should enjoy fundamental human rights, 
including freedom from fear. It offers real solutions to end 
the vicious cycles of poverty, and Plan Colombia includes a 
blueprint to provide full access to education and health care 
to the Colombian people, the real keys to long-term stability 
in that troubled country.
    Finally, by enhancing social development and 
democratization programs in Colombia, by addressing the need to 
advance the peace process and by defining goals for economic 
reforms, along with a very strong military response, Plan 
Colombia represents a bold new chance for a secure, vibrant and 
peaceful Colombia.
    Mr. Chairman, again I commend you for holding this hearing 
and I look forward to listening to the testimony of our 
distinguished witnesses.
    [The prepared statement of Mr. Rothman follows:]
Prepared Statement of the Honorable Steven R. Rothman, a Representative 
                in Congress from the State of New Jersey
    MR. CHAIRMAN, LET ME BEGIN BY THANKING YOU AND THE DISTINGUISHED 
RANKING MEMBER OF THIS COMMITTEE, MR. ACKERMAN, FOR HOLDING TODAY'S 
HEARING.
    I AM HERE TODAY BECAUSE I AM INTERESTED IN HELPING CRAFT A U.S. 
FOREIGN POLICY THAT WILL PAVE THE PATH TO PEACE IN COLOMBIA. AND I KNOW 
THAT IN MY DISTRICT IN NORTHERN NEW JERSEY, I HAVE MANY CONSTITUENTS 
WHO EMIGRATED FROM COLOMBIA AND WHOSE GREATEST DREAM IS TO RETURN TO 
VISIT RELATIVES AND FRIENDS IN A COLOMBIA THAT IS FREE FROM THE CHAOS 
BROUGHT ON BY DRUG WARLORDS. I SHARE THEIR DREAM.
    IF HISTORY IS ANY GUIDE, LARGE INFUSIONS OF CASH FROM THE U.S. FOR 
COUNTER-NARCOTICS OPERATIONS IN COLOMBIA WILL NOT ALONE END THAT 
NATION'S DREADFUL SLIDE INTO ANARCHY .
    WHILE THE 2 YEAR, $1.3 BILLION AID PACKAGE WE RECENTLY APPROVED 
INCREASES ASSISTANCE FOR ECONOMIC DEVELOPMENT AND DEMOCRACY BUILDING 
PROGRAMS IN COLOMBIA IT ALSO DIRECTS THE LION'S SHARE OF THE AID, ABOUT 
75%, FOR COUNTER-NARCOTICS PROGRAMS. FRANKLY, I WISH THE AID PACKAGE 
WAS MORE BALANCED, WITH MORE AID TARGETED TOWARDS DEMOCRATIZATION AND 
ECONOMIC DEVELOPMENT PROGRAMS.
    I BELIEVE THAT THE REAL PATH TO PEACE IN COLOMBIA RESIDES IN TWO 
PLACES; IN THE HEARTS OF THE COLOMBIAN PEOPLE AND IN THE RESOLVE OF THE 
UNITED STATES OF AMERICA TO HELP COLOMBIA IN ITS EFFORTS TO FIGHT 
NARCO-TRAFFICKERS AND INSTITUTE BROAD ECONOMIC AND CIVIC REFORMS. 
ULTIMATELY, IT IS THESE REFORMS THAT WILL HELP DEFEAT THE VERY DRUG-
TRAFFICKERS WHO ARE DRAGGING THIS PROUD NATION INTO A POLITICAL AND 
ECONOMIC BLACK-HOLE.
    TODAY, COLOMBIA IN DANGER OF LOSING ITS WAR AGAINST DRUG 
TRAFFICKERS AND GUERILLA GROUPS. FUNDED BY INCOME FROM THE NARCOTICS 
INDUSTRY, THESE GROUPS NOW CONTROL OR INFLUENCE OVER HALF OF COLOMBIA'S 
1,000 MUNICIPALITIES. THESE GROUPS HAVE ESCALATED THEIR ATTACKS ON 
MILITARY TARGETS AND INNOCENT CIVILIANS AND HAVE EXPANDED THEIR 
KIDNAPING AND EXTORTION OPERATIONS. LIKEWISE, PARAMILITARY GROUPS IN 
COLOMBIA, WITH CLOSE TIES TO THE MILITARY, HAVE COMMITTED GROSS HUMAN 
RIGHTS VIOLATIONS, INCLUDING THE MURDER OF GUERILLA SYMPATHIZERS.
    ON TOP OF THESE TROUBLING FACTS, U.S. OFFICIALS ESTIMATE THAT 
DESPITE ON-GOING COUNTER-NARCOTICS PROGRAMS, COCAINE PRODUCTION IN 
COLOMBIA IS LIKELY TO INCREASE MORE THAN 50% IN THE NEXT TWO YEARS. TO 
MAKE MATTERS WORSE, COLOMBIA IS NOW ALSO THE LARGEST SUPPLIER OF HEROIN 
TO THE EASTERN UNITED STATES.
    NO NATION, NO PEOPLE, CAN LONG ENDURE THE STATUS QUO THAT PREVAILS 
IN COLOMBIA. THE MURDER OF INNOCENTS, THE ASSASSINATION OF HONEST 
GOVERNMENT OFFICIALS, AND THE LAWLESSNESS OF THE GUERILLA GROUPS AND 
PARAMILITARIES HAVE ALL TAKEN AN ENORMOUS TOLL ON CIVIL SOCIETY AND 
DEMOCRACY IN COLOMBIA. MANY GOOD PEOPLE HAVE BEEN SILENCED IN COLOMBIA. 
AND TOO MANY MORE HAVE BEEN FORCED TO FLEE THEIR HOMELAND--LEAVING 
GUERILLA GROUPS STRONGER AND THE GOVERNMENT WEAKER.
    THE GOOD NEWS IS THAT COLOMBIA IS HUNGERING FOR CHANGE, AS 
EVIDENCED BY THE FACT THAT OVER 10 MILLION COLOMBIANS, NEARLY ONE 
QUARTER OF THE POPULATION, MARCHED LAST YEAR IN SUPPORT OF PEACE AND A 
FINAL END TO THE VIOLENCE.
    TODAY, A NEW PATH TOWARDS PEACE IN COLOMBIA DOES EXIST--PLAN 
COLOMBIA. I VOTED FOR HELPING FUND PLAN COLOMBIA BECAUSE I AM CONVINCED 
IT OFFERS FRESH, NEW, AND CONCRETE WAYS TO BRING HOPE AND PROSPERITY 
BACK TO COLOMBIA. IT AFFIRMS THAT ALL COLOMBIANS SHOULD ENJOY 
FUNDAMENTAL HUMAN RIGHTS, INCLUDING FREEDOM FROM FEAR. IT OFFERS REAL 
SOLUTIONS TO END VICIOUS CYCLES OF POVERTY. AND PLAN COLOMBIA INCLUDES 
A BLUEPRINT TO PROVIDE FULL ACCESS TO EDUCATION AND HEALTH CARE TO THE 
COLOMBIAN PEOPLE--THE REAL KEYS TO LONG TERM STABILITY IN THIS TROUBLED 
COUNTRY.
    BY ENHANCING SOCIAL DEVELOPMENT AND DEMOCRATIZATION PROGRAMS IN 
COLOMBIA, BY ADDRESSING THE NEED TO ADVANCE THE PEACE PROCESS, AND BY 
DEFINING GOALS FOR ECONOMIC REFORMS, PLAN COLOMBIA ALONG WITH STRONG 
AND CONTINUING MILITARY TRAINING, EQUIPMENT AND SUPPORT REPRESENTS A 
BOLD NEW CHANCE FOR A SECURE, VIBRANT AND PEACEFUL COLOMBIA.
    MR. CHAIRMAN, AGAIN, I COMMEND YOU FOR HOLDING THIS HEARING AND I 
LOOK FORWARD TO LISTENING TO THE TESTIMONY OF OUR DISTINGUISHED 
WITNESSES.

    Mr. Burton. Mr. Chairman, we have a mark up in about 5 
minutes. Could I take 30 or 60 seconds to make a brief comment, 
then I will depart.
    Mr. Gallegly. Without objection.
    Mr. Burton. Let me just say real quickly, we have a lot of 
Black Hawks in our inventory. We have mechanics and pilots in 
the Colombian National Police who can fly those and take care 
of them today, not 3 years from now, today. It will be a 
tragedy if we have to wait 2 or 3 years to get new Black Hawks 
and train people when we already have trained--look at me, sir, 
please. We already have trained pilots down there with the CNP 
and mechanics who can today fly Black Hawks. We have Black 
Hawks in our inventory, a lot of them. We could send them down 
there now. To wait 2 or 3 years for new Black Hawks to come off 
the line and train a whole bunch of people when we have them 
already trained and ready to go down there is a ludicrous 
argument. I mean, there is a war that is going to be lost if we 
wait 2 or 3 years. They already have a DMZ. The President down 
there is scared to death of these people. And you are going to 
wait 3 years to get them the help they need? That is bologna.
    Mr. Beers. Sir, may I submit for the record an answer to 
that question.
    Mr. Burton. Yes. I would like to read it.
    Mr. Gallegly. Yes, Mr. Secretary you can submit a response 
for the record and it will be made a part of the record.
    [The response appears in the appendix.]
    Mr. Gallegly. And with that, I would yield to the Assistant 
Secretary, Brian Sheridan.
    Mr. Sheridan.

STATEMENT OF THE HONORABLE BRIAN SHERIDAN, ASSISTANT SECRETARY, 
SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT, U.S. DEPARTMENT 
                           OF DEFENSE

    Mr. Sheridan. Mr. Chairman, let me thank you for holding 
this hearing this morning, giving us the opportunity to answer 
your questions. We appreciate your bipartisan support for Plan 
Colombia. Before we delve into a detailed discussion of 
delivery dates and GAU-19's versus M-60's and other kinds of 
machine guns, I wanted just to make four points quickly on 
behalf of the Department of Defense in order to make clear what 
our policy is.
    First, the DOD policy in Colombia is focused on 
counterdrugs, and counterdrugs only. As General McCaffrey 
eloquently has testified on numerous occasions, we have 
thousands of American killed every year because of illegal 
drugs in our society. By his estimation over $110 billion in 
damages to our economy, and we have exploding coca cultivation 
in Colombia. That is the problem that the Department of 
Defense, along with all the others, is trying to address. And 
that is our only focus in Colombia. Secondly, DOD's programs 
supporting the Colombians are designed to interdict, disrupt 
and destroy drug production, in particular, in southern 
Colombia. I would note that the Department of Defense has a 
broad ranging $900 million a year counterdrug program with 
programs throughout all South America, Central America, the 
Caribbean and in the United States. These programs are 
effective, they work. We help foreign and local law enforcement 
seize over 100 metric tons of cocaine a year. The programs that 
we are supporting in Colombia are very consistent with the 
types of programs we have been working on there since 1989.
    In particular, as we have seen the problems in southern 
Colombia explode over the last couple of years, with the strong 
support of the Congress, we have undertaken a wide variety of 
air, ground and river interdiction programs designed to choke 
off the flow of precursor chemicals into Putumayo and Caqueta, 
and to disrupt the flow of cocaine products out of that area. 
We have seen in interdiction programs before in Peru the 
dramatic effects that interdiction programs can have and how 
they can reinforce and help alternative development, crop 
eradication and other programs.
    My point is simply to say from a DOD perspective, the 
programs that we are executing under Plan Colombia are not new. 
They are not different. In fact, what we are really doing is 
somewhat more of and faster programs that we had architected 
several years ago, and were well on our way to implementing.
    My third point, is there is a concern, and I think a valid 
concern among many, that we may get dragged into some kind of a 
counter-insurgency campaign. Let me assure you that we will 
not. We have very clear guidance issued repeatedly from the 
Secretary of Defense, well understood by General Pace, 
understood by General Wilhelm before him, exactly what we are 
doing in Colombia and what we are not doing. As I have said 
before, we have been operating counterdrug programs in Colombia 
since 1989. We know what the mine fields are. We know what we 
are doing.
    The bright red line which we hold to and the one that I 
think will keep us out of trouble, simply says on every single 
deployment order of U.S. forces into Colombia, you are not to 
accompany host nation forces as they conduct operations. We can 
train them, we can give them intelligence support, I can give 
them engineering support, but at the end of the day, when it is 
time to do an operation, they go out and they do it. We have 
taken extraordinary protection measures in Colombia to ensure 
that our soldiers are as safe as they can possibly be.
    Having said that, it is fairly obvious, I think, to all of 
us here, that Colombia is a very dangerous place. We 
continuously review our force protection posture. We try to 
train at the largest military bases we can. For example, 
currently the second counterdrug battalion is being trained in 
Larandia in southern Colombia. Larandia is home to several 
thousand Colombia Army troops in any case, including of course 
the hundreds that we are currently training.
    As Congressman Burton I think eloquently pointed out at the 
beginning of his opening statement, the FARC are not noted for 
their profiles in courage. They prefer to attack in isolated 
police posts, a couple of hundred guerrillas against 10 
policemen and commit their atrocities. We are relatively 
comfortable that at a large military base with several thousand 
Colombian police and military housed there, that our handful of 
soldiers are relatively safe there.
    Lastly, let me say a word about human rights. Human rights, 
from our perspective, is an area that we evaluate and work with 
the Colombians in three distinct areas. One, how is the 
Colombian military doing currently in their conduct of their 
operations and in the human rights area; secondly, how are they 
doing on bringing to justice military personnel for past 
abuses; and third, what is the status of their relationship 
with the paramilitaries.
    Let me say on the first score, that of current abuses by 
security forces they are down dramatically. And any NGO, in 
fact, I think the severest critics of the Colombian military 
will tell you that human rights abuses by the Colombian police 
and military have plummeted over the last number of years as 
President Pastrana and the Colombian military leadership and 
the Minister of Defense have made it clear that this will 
simply not be tolerated. There was a time 5 or 10 years ago 
when the security forces may have committed over 50 percent of 
political violence in Colombia, but that number is now less 
than 2 percent. So we think they have made dramatic progress in 
that area. We think that needs to be recognized. I also would 
associate myself with Congressman Burton's statements on that 
score, while the human rights community has plenty to say about 
the conduct of the Colombian police and military, I don't hear 
a whole lot about the conduct of the FARC and ELN which engage 
in atrocities on a daily basis in Colombia.
    On bringing to justice military personnel who may have 
committed human rights abuses in the past, clearly this is a 
very difficult area that they have done some work on but 
clearly they need to do more. Over the last few years over 500 
cases of military personnel accused of human rights abuses have 
been submitted to the civilian courts. Within the military 
system over 400 members have been convicted of human rights 
abuses. The Prosecutor General has taken action and has been 
proceeding with cases against over 300 members over the last 
couple years. So there is vigorous action being taken on these 
past abuses.
    Lastly, on the links to the paramilitaries, let me just say 
that President Pastrana, Minister Ramirez, General Tapias and 
General Mora have made it abundantly clear they will not 
tolerate links to the paramilitaries. That said, we have no 
doubt that in isolated instances there may be some collusion. 
Clearly I think there is some onus of responsibility on those 
to accuse the military to show me such links, and usually they 
fall short in that area. I think it is one of those cases where 
it is very hard to disprove a negative. If there is significant 
collusion with the paramilitaries, I would like to see some 
proof of it. I have not seen it. I don't believe it is the 
case. I know all of the individuals I just named personally and 
have known them for years, they are men of integrity, and when 
they say this won't be tolerated and they convey that to their 
forces, I believe they mean it.
    I would just close by noting that on September 14th, 
President Pastrana announced a presidential decree with a broad 
sweeping reform of the Colombian military. Again, this is 
something that had been asked for by the NGOs repeatedly over 
the years. I haven't seen much press coverage of it; haven't 
seen too many NGO press releases. As a matter of fact, last 
week President Pastrana announced broad sweeping powers to the 
head of the Colombian military to dismiss those who he thinks 
have performed poorly or for other reasons. In the past General 
Serrano, of course, the head of the Colombian National Police 
had used such powers very effectively to dismiss those alleged 
to be corrupt or alleged to have committed human rights abuses. 
The Colombian military now has that power. The Colombian 
military will now institute the creation of a JAG Corps. Again, 
something requested repeatedly over the years by the NGOs and 
by the U.S. Government.
    So we think the Colombian military, the Minister of 
Defense, and President Pastrana have continued to make strong 
efforts in these areas, and I think we need to recognize their 
efforts in that regard.
    Let me close by saying Plan Colombia is very complicated. 
There are many moving parts. Along with Randy Beers and Carl, 
we are the three talking dogs who have been up on the Hill more 
hours than we can count since last summer as we put together 
Plan Colombia and explained it. We have always said it is 
difficult. We have always said it will take time to implement. 
But we also think it is the right approach. It is a holistic 
approach. It includes alternative development, includes social 
development, it includes judicial reform, it includes all those 
pieces that have to be there and it includes the security 
component piece of it. So it is complicated, it will be 
difficult to synchronize and execute, but we think it is the 
right thing to do. And I am happy to answer any questions the 
Members have this morning about our progress in that area.
    Mr. Gallegly. Thank you Mr. Secretary.
    [The prepared statement of Mr. Sheridan follows:]
     Prepared Statement of the Honorable Brian Sheridan, Assistant 
    Secretary, Special Operations and Low Intensity Conflict, U.S. 
                         Department of Defense
    I am pleased to have the opportunity to testify before this 
Committee to discuss the implementation of the Department of Defense's 
portion of the Fiscal Year 2000 supplemental appropriation that 
supports the Government of Colombia's execution of Plan Colombia.
    Drug abuse is an undeniable threat to our national security; one 
that is measured by the thousands of lives lost in our country every 
year and that costs our country billions of dollars annually. Reducing 
the supply of drugs on our streets is an integral component of our 
National Drug Control Strategy and the Department of Defense (DoD) 
plays a key supporting role in creating the opportunity for law 
enforcement agencies, both our own and those of foreign nations, to 
interdict the flow of drugs into our country. DoD is committed to this 
counterdrug mission.
    The demand for illegal drugs in the United States, specifically for 
cocaine and heroin, is met primarily from the growing fields and 
production laboratories in Colombia. The vast sums of money that this 
illegal activity provides have served to exacerbate current domestic 
issues facing the people of Colombia. The US and Colombian Governments, 
and our citizens, share a common objective to reach our specific 
national goals--to reduce drug abuse in our own country and to bring 
peace and stability to Colombia. A significant reduction in the flow of 
illegal drugs to the US, with the corresponding reduction in the supply 
of ``easy money'' which supports both guerillas and illegal self-
defense forces operating in Colombia, serves the national interests of 
both our countries. For these reasons, it is absolutely necessary that 
the US continue to support Colombia in its effort to reduce the 
production and transport of cocaine and heroin that is destined for the 
US.
    Over the past two years Colombia, specifically the area east of the 
Andes, has become the center of the cocaine trade, largely as a result 
of successful interdiction and eradication efforts in Peru and Bolivia. 
The remoteness of southern Colombia and the lack of government control 
in large areas of this region has precluded Colombian interdiction 
operations to the point that the expansion of coca growing areas, 
especially in the Putumayo Department, has progressed virtually 
unchecked. Most of the world's coca is now grown in Colombia and over 
ninety percent of the cocaine consumed in the US is manufactured or 
passes through Colombia. The United States, the nation with the 
greatest cocaine demand, currently consumes over 200 metric tons 
annually from the Andean region.
    DoD has been supporting Colombian counterdrug efforts for over ten 
years. The additional funding provided by the FY00 Emergency 
Supplemental will allow the Department to build on past programs, in 
short, to accelerate the implementation of the efforts in Colombia that 
ultimately proved to be successful in Peru and Bolivia. The 
supplemental is a balanced and executable plan that will not require an 
appreciable increase in the number of US military personnel present in 
Colombia. This effort is responsive to Plan Colombia and consistent 
with current US policy. Furthermore, these programs, in coordination 
with other interagency efforts, form the core of a sound, responsive, 
and timely assistance package that will significantly enhance 
Colombia's ability to conduct effective counterdrug operations.
    Let me briefly outline the Department's programs. Before I do so 
however, let me raise a cautionary note regarding the timing of the 
execution of the programs and delivery of equipment associated with 
this increased support for Plan Colombia. While the funding was 
appropriated in July of this year, several reporting requirements were 
mandated which precluded immediately obligating the funding. As a 
result, most of the supporting contracts are just now being submitted 
for review by the Department and many of the dates reflect only our 
best estimate of the expected delivery date.
              support for the push into southern colombia
Counternarcotics Battalion Support
    The Department has commenced training the second Colombian 
counternarcotics battalion using members of the US 7th Special Forces 
Group. This training is scheduled to be completed in the December 2000 
time frame. The third battalion is currently scheduled to begin 
training in early 2001. These battalions will give the Colombian Army a 
complete counterdrug brigade in the Putumayo/Caqueta region to engage 
what is the world's largest coca cultivation center. Plans include 
positioning counternarcotics battalions at Tres Esquinas and Larandia.
Counternarcotics Brigade Headquarters
    The establishment of a counterdrug brigade headquarters is 
sequenced to support the strategic and tactical operation of the 
counterdrug Brigade located in southern Colombia. Department support 
for this program is scheduled to begin in the first quarter of fiscal 
year 2001. Allocated funding will provide for training, communications 
equipment, computer needs, facility modification, and similar 
requirements. The counternarcotics brigade headquarters is scheduled to 
be operational in February 2001.
Army Aviation Infrastructure Support
    The Colombian Army does not have the infrastructure necessary to 
support the number and mix of helicopters that will be provided by the 
Department of State using emergency supplemental funding. DoD will fund 
a variety of critical aviation infrastructure needs to support the UH-
1N, UH-1H Huey II and UH-60 helicopters that are required to provide 
mobility for the counternarcotics battalions. This program will include 
funding for electrical utilities and road infrastructure, aviation fuel 
storage and fueling systems, security improvements, parking aprons and 
helicopter pads, a maintenance hanger, an operations facility, and a 
taxiway. DoD has conducted several site surveys and hosted conferences 
to facilitate planning for this challenging requirement. Support 
contracts are expected to be awarded in the first quarter of fiscal 
year 2001 and continue through 2002.
Military Reform
    For some time the Department has been managing a contractor led 
endeavor to provide the necessary assistance to Colombia to support the 
government's effort to restructure its military establishment so it can 
successfully engage the drug threat throughout the country. The focus 
of this effort is not tactical but organizational in nature, centered 
at the Minister of Defense level and the uniformed services of 
Colombia. The contractor's efforts have focused on restructuring and 
improving military planning, logistics support for ground and air 
operational assets, development of counternarcotics military doctrine, 
development of counternarcotics military strategy, new concepts on 
recruitment and conscription, development of an integrated intelligence 
capability, improved computerization and command and control, and 
similar initiatives. The program will also support efforts to promote 
human rights and effect judicial reforms. This is an on-going effort 
and is subject to periodic review. Supplemental funding will be 
utilized to extend this program should it prove to be necessary.
Organic Intelligence Capability
    The intelligence collection capability in the region will be 
enhanced to support operations by the counternarcotic battalions. This 
program will provide the counternarcotics battalions with a combination 
of airborne and ground tactical intelligence capabilities to directly 
assist in the planning and execution of counterdrug operations. It is 
scheduled to begin in the third quarter of fiscal year 2001 and be 
sustained for an extended period of time.
                    support for interdiction efforts
Tracker Aircraft Modification
    In the first quarter of fiscal year 2001, DoD will provide for the 
modification of two Colombia Air Force C-26 Merlin aircraft by 
installing APG-66 air-to-air radars, Forward Looking Infrared Radars 
(FLIRs), and communications equipment. The completed aircraft will give 
Colombia an organic capability to terminally track and intercept 
illegal smuggling aircraft that move the cocaine from the HCl labs in 
southeastern Colombia to the Colombian coasts for transshipment to the 
United States. These modified aircraft will replicate the terminal 
radar interceptor that supported the Peruvians in their successful air 
denial operation against the Peru-to-Colombia air bridge. The aircraft 
modifications should be completed in the summer of 2001.
AC-47 Aircraft Modifications
    Commencing in the first quarter of fiscal year 2001, the Department 
will support the installation of a FLIR in one of the three operational 
Colombian AC-47 aircraft. The FLIR will greatly enhance the aircraft's 
ability to support night operations against drug smuggling activities.
    Funding will also support modification of an additional Colombian 
DC-3, converting it into an AC-47 aircraft with FLIR, night vision 
cockpit, and fire control systems. This will be the 5th AC-47 in the 
Colombian inventory. These planes have been used repeatedly by the 
Colombian military to strafe drug trafficking aircraft. The aircraft 
upgrades are scheduled to be completed in the third quarter of fiscal 
year 2001.
Ground Based Radar
    The contract for the installation of a ground-based radar at Tres 
Equinas, Colombia that will provide positive air control for the 
counternarcotics brigade helicopters and fixed-wing aircraft that 
operate in the region is scheduled to be awarded in the first quarter 
of fiscal year 2001. The Tres Equinas radar will provide improved 
detection and monitoring of smuggling air activity in the Putumayo 
region of Colombia, where over 70% of Colombia's coca cultivation 
occurs. The program includes the upgrade of an existing TPS-70 owned by 
DoD, and the installation costs for installing the radar at Tres 
Esquinas. The radar site is scheduled to be operational in October of 
2001.
Radar Command and Control
    The DoD supported radar command and control program will provide 
Colombia a modern and operationally effective system, located in 
Bogota, which will be capable of monitoring multiple radar sites 
throughout Colombia. It will support positive control of Colombian Air 
Force air interdiction operations throughout Colombia. The current 
system is outmoded and needs to be replaced. The contract will be 
awarded in the first quarter of fiscal year 2001 with completion 
expected in the first quarter of fiscal year 2002.
Andean Ridge Intelligence Collection
    This ongoing program supports Colombia with critical intelligence 
against drug smuggling activities. It provides for collection sites 
located in critical areas throughout the drug cultivation and 
trafficking regions.
Colombian Ground Interdiction
    The Colombian ground interdiction program is still in the initial 
planning stages. Supplemental funding will be used to initiate a 
Colombian program to control drug smuggling on the major roads across 
the Andes and those roads feeding the northern coast and western coast 
cocaine transshipment regions. This funding will start the process of 
Colombia regaining control of their major roads, which currently are 
routinely utilized by the drug trafficking forces. Road control is 
important since it can help control cocaine and precursor chemical 
smuggling across the Andes and to/from major ports. As reference, there 
are 4 or 5 major roads across the Andes and these highways feed the 
road network located west of the Andes. Vehicle traffic on the highways 
west of the Andes serves as the principal mode of moving chemicals and 
cocaine to/from the northern coast and western coast cocaine ports and 
transshipment regions.

    All these programs that I just outlined build on our current 
strategy--no change in DoD policy is required to execute the programs 
funded by this supplemental. There is nothing new here for DoD. 
However, there will be challenges to confront in the course of our 
efforts to attack the center of the cocaine industry in southern 
Colombia. It will not be easy, but it is worth the effort. Let me share 
with you my concerns.
                              dod concerns
Colombian Military Organization
    The Colombian military has limitations based on resources, training 
practices, lack of joint planning and operations. They need to better 
coordinate operations between the services and with the Colombian 
National Police (CNP). The restructuring of the military is essential 
if Colombia is to have continuing operational success against the drug 
threat. The Colombian Congress has given President Pastrana authority 
to implement a number of reform measures now under review by the 
Ministry of Defense; those reforms will make the Colombian military a 
more modern, professional and effective force. The Colombian military 
needs help and, as was previously outlined, we plan to use a small 
portion of supplemental funding towards this end.
Human Rights
    I am also concerned, as are members of Congress, about human 
rights. The human rights practices and procedures that the US 
government has put in place, in response to legislative enactments, and 
the example set by the small number of our troops training Colombian 
forces has had an impact, as have President Pastrana's reforms. Human 
rights violations imputed to the armed forces have dropped by 95% over 
the last five years, to fewer than two percent of the total violations 
in 1999. Armed forces cooperation with the civilian court system in 
prosecuting human rights violations committed by military personnel has 
improved. Some military officers accused of collaboration with or 
tolerance of illegal self defense force activities have been dismissed, 
while others face prosecution. The armed forces have demonstrated 
greater aggressiveness recently in seeking out and attacking illegal 
self-defense forces. Clearly, the Colombian Armed Forces have come a 
long way, yet no one would dispute that more must be done. I am also 
alarmed by the reported dramatic increase in human rights violations 
attributed to both the illegal self-defense forces and insurgents--this 
is symptomatic of Colombia's crisis in general and, as I see it, a call 
for to action. The Colombian government needs the resources and 
training to address this problem and the supplemental represents a 
significant contribution on the part of the US.
Counterdrug vs. Counter Insurgency
    Lastly, let me address the ``targets'' of this supplemental 
package, and our source zone strategy as a whole. The targets are the 
narco-traffickers, those individuals and organizations that are 
involved in the cultivation of coca or opium poppy and the subsequent 
production and transportation of cocaine and heroin to the US. Only 
those armed elements that forcibly inhibit or confront counterdrug 
operations will be engaged, be they narco-traffickers, insurgent 
organizations, or illegal self-defense forces.
    I know that some are concerned that we are being drawn into a 
quagmire. Let me assure you, we are not. There are numerous 
restrictions, constraints, and reviews that are involved in the 
approval of the deployment of US military personnel on counterdrug 
missions in Colombia. Suffice it to say, the process is comprehensive, 
involving reviews by the Embassy in Bogota and US Southern Command in 
Miami as well as the Joint Staff and the Office of the Secretary of 
Defense. I personally look not only at who is deploying and what they 
are doing, but at the specific locations to which they are going. 
Furthermore, each and every deployment order states, in no uncertain 
terms, that DoD personnel are not to accompany host nation personnel on 
operational missions. This will not change. As I have said, the 
execution of this increased support does not require a change in US 
policy. Is there risk to US personnel providing counterdrug support? 
Yes, there is. However, we are aggressively working to minimize that 
risk.
    In summary, the Department of Defense supports this additional 
assistance for Colombia. US Southern Command and my office participated 
extensively in its formulation. It integrates fully our source zone 
strategy, affording the opportunity to enhance those counterdrug 
programs that have proven successful in Peru and Bolivia. President 
Pastrana has asked for international support to address an internal 
problem that has international dimensions--fueled in part by our 
country's demand for cocaine. It is time to move forward.

    Mr. Gallegly. Mr. Leonard.

 STATEMENT OF CARL LEONARD, ASSISTANT ADMINISTRATOR FOR LATIN 
       AMERICA, U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Leonard. Mr. Chairman, Members of the Committee, I am 
pleased to be here to speak about the role that the U.S. Agency 
for International Development will play in supporting Plan 
Colombia. USAID has been helping Colombia and its neighbors 
address a regional threat that knows no borders. We believe 
that President Pastrana has taken bold significant steps in 
beginning to address the challenges that today face his 
country. USAID's programs are intended to provide help to the 
people of Colombia who are caught in the middle of a national 
nightmare. They are desperate for the restoration of normalcy 
to their lives, free of violence and abuse and full of freedom 
and prosperity.
    We are well aware of the terrible scourge of drug abuse in 
the United States and the continuing need to address this 
problem at home. In Colombia, however, the effects are also 
severe. Pervasive violence, increasing crime and murder thrive 
under the flourishing drug economy. Urban drug consumption is 
on the rise. And the country's precious and diverse ecosystems 
are being decimated as cloud forest regions are destroyed for 
poppy cultivation, and Amazon rain forests are cleared for coca 
cultivation.
    As part of the United States Government's support of Plan 
Colombia, USAID will focus on the following three program 
areas: alternative development programs, to help farmers secure 
decent incomes and futures from the production and sale of 
legal crops; second, democracy, rule of law and human rights 
programs to help promote peace and support Colombian efforts to 
strengthen democratic institutions, the judicial process, and 
civil society; and third, support for Colombia's internally 
displaced persons and families, to help Colombia's most 
marginal population reenter the economy and social life of 
their country. Through alternative development, USAID is 
assisting Colombia to undermine the illegal narcotics economy 
by providing farmers with legal income alternatives. Our 
program fits into a multifaceted approach that includes 
interdiction, eradication, and alternative development.
    Our experience demonstrates that no single facet can be 
successful without the other two also being effectively 
applied. And Plan Colombia includes all three of these 
approaches.
    Today, more than 120,000 hectares of coca grow in Colombia. 
Most of this coca is grown on large industrial plantations with 
links to traffickers or insurgent groups. Our program will 
concentrate on the 18,000 small family farms that cultivate 
approximately 40,000 hectares of coca. USAID will focus on 
helping this sector of small farmers get out of the coca 
growing business.
    Supplemental appropriation funds will allow USAID to 
provide $52.5 million to help Colombians find viable and 
sustainable alternatives to illicit crops. Farmers will be 
introduced to more productive farming methods, provided with 
high quality seeds and assisted in replacing their coca fields 
with cash and food crops such as beans, rice, coffee, cacao and 
hearts of palm. In addition, we will facilitate the marketing 
of these products. We also finance critically needed social and 
productive infrastructure.
    Our goal is the voluntary eradication of coca production on 
roughly 30,000 hectares over the next 5 years. Similarly, USAID 
is also helping with the voluntary eradication of opium poppy 
production on 2,500 hectares. This will be accomplished by 
replacing the income derived from poppies with income from such 
cash crops as organic coffee, tropical fruits and berries. Our 
experience in Bolivia and Peru has found that alternative 
development works. In Bolivia where USAID has been the 
principal donor supporting alternative development, coca 
production has decreased by 55 percent. In neighboring Peru, 
coca production has decreased by 67 percent. Our experience 
demonstrates that alternative development is an essential 
element of an integrated counternarcotics program and can be 
pursued successfully in the context of security challenges.
    USAID will provide $39.5 million to help strengthen 
democracy, the rule of law and human rights in Colombia which 
have been under assault by insurgents, paramilitary groups and 
the drug trade. With these funds we will strengthen human 
rights institutions and groups and increase their capacity to 
operate within the country to document human rights abuses and 
monitor individual cases. We will help the government of 
Colombia and local non-governmental organizations to implement 
an early warning system that will allow officials to react 
swiftly to threats against the civilian population by illegal 
armed groups.
    We will help local organizations inform and educate 
Colombians about their legal rights and responsibilities, and 
options for taking preventative measures in the face of 
violations. And we will reinforce the ability of the government 
of Colombia to help protect human rights workers and their 
organizations.
    USAID will support efforts aimed at greater effectiveness 
and fairness within the Colombian judicial system. An 
independent and vigorous judicial system is vital to the 
observance of human rights, the defeat of narcotics 
trafficking, and the decrease of white collar and street crime. 
Working with the U.S. Department of Justice, we will help 
Colombia move from an inquisitorial to a more open and 
accusatorial judicial process. We will strengthen court 
administration and training of judges, institutionalize the 
public defender system, and work with NGOs and other interested 
groups to provide greater oversight and participation in 
judicial reform.
    With the funds from the supplemental, we will expand our 
support to the highly successful Casa de Justicia program. 
Casas are neighborhood judicial centers in underserved 
communities. I had the opportunity recently to accompany 
President Clinton, Speaker Hastert, Members of this Committee, 
and our Administrator, Brady Anderson, on a visit to one of 
these centers in Cartagena last month. These Casas bring 
together a variety of services in one location, giving 
residents one-stop access to legal services. There are 
presently 11 Casas in existence, and we plan to have 29 by the 
end of 2001. Over 300,000 cases have already been resolved by 
the Casa de Justicia system since the program was launched. And 
when all the Casas are operational, over a million cases will 
be addressed each year.
    USAID will help Colombians reduce public corruption which, 
like narco-trafficking, undermines the very fabric of 
democracy. As Colombians address issues of impunity and law 
enforcement, USAID will contribute to President Pastrana's 
anti-corruption strategy by helping to strengthen governmental 
and non-governmental oversight organizations such as the 
Controller General, the account general and interested citizens 
groups.
    Finally we intend to work with nearly 100 towns and 
municipalities to strengthen citizen participation in local 
government, improve budget and program transparency, and 
enhance the delivery of public services. Municipal governments 
play a key role in connecting citizens with effective, 
transparent accountable government.
    Assistance to displaced persons is the third major 
component of USAID's work within Plan Colombia. USAID will 
provide a total of $27.5 million to help displaced persons in 
Colombia. Accounts vary of the number of displaced inside 
Colombia. However, there is no doubt that hundreds of thousands 
of Colombians have sought refuge away from violence, threats 
and intimidation. Many, after receiving an initial support of 
housing and food for 90 days, are left on the margins of urban 
areas to fend for themselves. USAID, through U.S.-based NGOs 
and international organizations, will help municipalities and 
local governments promote employment for displaced persons and 
help them to obtain basic health care, primary education and 
decent shelter.
    USAID is prepared to obligate $119.5 million of 
supplemental appropriated funds by September 30th of this year. 
We are prepared to move forward immediately on assistance to 
displaced persons. Our activities in administration of justice 
and human rights will be expanded next month, and we expect to 
initiate the anti-corruption program. Our largest single 
program, alternative development in coca-producing areas, will 
be open for competitive bidding at a bidders' conference 
scheduled for early next month in Bogota.
    I should also note that funding in the supplemental 
appropriation bill provides for alternative and economic 
development in Ecuador and Bolivia. In Ecuador, USAID will 
provide $8 million for local infrastructure and support to 
civil society along the northern border with Colombia. In 
Bolivia, USAID plans to use $85 million in the supplemental to 
initiative alternative development in the Yungas region and 
broaden and deepen our program in the Chapare.
    Mr. Chairman and Members of the Subcommittee, clearly we 
have a long way to go and a difficult task. We are greatly 
impressed by the work and commitment of President Pastrana and 
his team and we are encouraged by the interest already shown by 
citizen groups, farmer organizations, municipalities and others 
participating in these very important programs. Thank you for 
giving me the opportunity to talk today.
    Mr. Gallegly. Thank you very much, Mr. Leonard.
    [The prepared statement of Mr. Leonard follows:]
 Prepared Statement of Carl Leonard, Assistant Administrator for Latin 
           America, U.S. Agency for International Development
    Mr. Chairman, I am pleased to be here to speak about the role that 
the U.S. Agency for International Development will play in supporting 
Plan Colombia.
    USAID has been helping Colombia and its neighbors address a 
regional threat that knows no borders. We believe that President 
Pastrana has taken bold, significant steps in beginning to address the 
challenges that today face his country.
    USAID's programs are intended to provide hope to the people of 
Colombia and the region who are caught in the middle of a national 
nightmare. They are desperate for the restoration of normalcy to their 
lives--free of violence and abuse and full of freedom and prosperity.
    We are well aware of the terrible scourge of drug abuse in the 
United States and the continuing need to address this problem at home. 
In Colombia, however, the effects are also severe. Pervasive violence, 
increasing crime and murder thrive under the flourishing drug economy. 
Urban drug consumption is on the rise. And the country's precious and 
diverse ecosystems are being decimated as cloud forest regions are 
destroyed for poppy cultivation and Amazon rainforests are cleared for 
coca cultivation.
    As part of the United States government's support of Plan Colombia, 
USAID will focus on the following three program areas:

        1. LAlternative development programs--to help farmers secure 
        decent incomes and futures from the production and sale of 
        licit crops;

        2. LDemocracy, rule of law, and human rights programs--to help 
        promote peace and support Colombian efforts to strengthen 
        democratic institutions, the judicial process, and civil 
        society; and

        3. LSupport for Colombia's internally displaced persons and 
        families--to help Colombia's most marginal population reenter 
        the economy and social life of their country.
                        alternative development
    Through alternative development, USAID is assisting Colombia to 
undermine the illegal narcotics economy by providing farmers with legal 
income alternatives. Our program fits into a multifaceted approach that 
includes interdiction, eradication, and alternative development.
    Our experience demonstrates that no single facet can be successful 
without the other two also being effectively applied. And Plan Colombia 
includes all three of these approaches.
    Today, more than 120,000 hectares of coca grow in Colombia. Most of 
this coca is grown on large, industrial plantations with links to 
traffickers or insurgent groups.
    Our program will concentrate on the 18,000 small family farms that 
cultivate approximately 40,000 hectares of coca. USAID will focus on 
helping this sector of small farmers get out of the coca growing 
business.
    Supplemental appropriation funds will allow USAID to provide $52.5 
million to substantially enhance our ongoing $5 million core program to 
help Colombians find viable and sustainable alternatives to illicit 
crops. Farmers, who are in need of the proper skills to sustain 
themselves with legal crops, will be introduced to more productive 
farming methods, provided with high quality seeds, and assisted in 
replacing their coca fields with cash and food crops such as beans, 
rice, coffee, cacao, and heart of palm. In addition, we will facilitate 
the marketing of and access to these legal products. We will also 
finance critically needed social and productive infrastructure.
    Our goal is the voluntary eradication of coca production on roughly 
30,000 hectares (about 75,000 acres) over the next five years.
    Similarly, USAID is also helping with the voluntary eradication of 
opium poppy production on 2,500 hectares. This will be accomplished by 
replacing the income derived from poppies with income from such cash 
crops as organic coffee and tropical fruits and berries.
    Our experience in Bolivia and Peru has found that alternative 
development works, especially when it fits into a comprehensive program 
that also includes interdiction, and eradication. In Bolivia, where 
USAID has been the principal donor supporting alternative development, 
coca production has decreased by 55 percent. In neighboring Peru, coca 
production has decreased by 67 percent in just four years. Our 
experiences in Bolivia and Peru demonstrate that alternative 
development is an essential element of an integrated counternarcotics 
program, and can be pursued successfully even in the context of 
security challenges.
                       democracy and rule of law
    USAID will provide $39.5 million, in addition to the $4 million 
core program now in place, to help strengthen democracy, the rule of 
law, and human rights in Colombia which have been under assault by 
insurgents, paramilitary groups, and the drug trade.
    With these funds, we will strengthen human rights institutions and 
groups, and increase their capacity to operate within the country to 
document human rights abuses and monitor individual cases. It is our 
goal that more human rights abuses will be reported and that cases in 
the system will be brought to justice in a timely manner, thereby 
contributing to a reduction in the number of violations.
    We will help the government of Colombia and local non-governmental 
organizations to implement an early warning system that will allow 
officials to react swiftly to threats against the civilian population 
by illegal armed groups.
    USAID will help local organizations inform and educate Colombians 
about their legal rights and responsibilities, and options for taking 
preventative measures in the face of violations. And, we will reinforce 
the ability of the government of Colombia to help protect human rights 
workers and their organizations.
    USAID will support efforts aimed at greater effectiveness and 
fairness within the Colombian judicial system. An independent and 
vigorous judicial system is vital to the observance of human rights, 
the defeat of narcotics trafficking, and the decrease of white collar 
and street crime. Working with the U.S. Department of Justice, we will 
help Colombia move from an inquisitorial to a more open, accusatorial 
judicial process. We will strengthen court administration and training 
of judges, institutionalize the public defender system, and work with 
NGOs and other interested groups to provide greater oversight and 
participation in judicial reform.
    With the funds from the supplemental, we will expand our support to 
the highly successful ``Casa de Justicia'' program. Casas are 
neighborhood judicial centers in underserved communities. I had the 
opportunity recently to accompany President Clinton, Speaker Hastert, 
and Brady Anderson, USAID's Administrator, on a visit to one of these 
centers in Cartagena last month. These Casas bring together a variety 
of services in one location, giving residents ``one stop'' access to 
legal services. There are presently eleven Casas in existence and we 
plan to have 29 by the end of 2001. Over 300,000 cases have already 
been resolved by the Casa de Justicia system since the program was 
launched; when all the Casas are operational, over a million cases will 
be addressed.
    USAID will help Colombians reduce public corruption, which, like 
narco trafficking, undermines the very fabric of democracy. As 
Colombians address issues of impunity and law enforcement, USAID will 
contribute to President Pastrana's anti-corruption strategy by helping 
to strengthen governmental and nongovernmental oversight organizations 
such as the Controller General, the Accountant General, and interested 
citizens groups.
    Finally, we intend to work with nearly 100 towns and municipalities 
to strengthen citizen participation in local government, improve budget 
and program transparency, and enhance the delivery of public services. 
Municipal governments play a key role in connecting citizens with 
effective, transparent, accountable government.
                      internally displaced persons
    Assistance to displaced persons is the third major component of 
USAID's work within Plan Colombia. USAID will provide a total of $27.5 
million to help displaced persons in Colombia. Accounts vary of the 
number of displaced persons inside Colombia. However, there is no doubt 
that hundreds of thousands of Colombians have sought refuge away from 
violence, threats and intimidation. Many, after receiving an initial 
support of housing and food for 90 days, are left on the margins of 
urban areas to fend for themselves. USAID, through U.S.-based NGOs and 
international organizations, will help municipalities and local 
governments promote employment for displaced persons and help them to 
obtain basic health care, primary education, and decent shelter.
    Through USAID's Office of Transition Initiatives in the Bureau of 
Humanitarian Response, the Agency will apply our experience in El 
Salvador, Guatemala, Nicaragua and other parts of the world to the 
problem of reintegrating child soldiers. Children as young as thirteen 
years old, many forcibly recruited, currently serve in the illegal 
armed groups. The OTI program will help remove them from armed conflict 
and peacefully reintegrate them back into society, through education, 
training, and community-based programs.
                             implementation
    USAID is prepared to obligate the entire $119.5 million of 
appropriated funds for the programs I outlined above under Plan 
Colombia by September 30 of this year. We are prepared to move forward 
immediately on assistance to displaced persons. Our activities in 
administration of justice and human rights will be expanded next month, 
and we expect to initiate activities in the prevention of corruption. 
Our largest single program, alternative development in coca-producing 
areas, will be open for competitive bidding at a bidders conference 
scheduled for early next month in Bogota.
                            regional support
    I should also note that funding in the supplemental appropriation 
legislation provides for alternative and economic development in 
Ecuador and Bolivia.
    In Ecuador, USAID will provide $8 million for local infrastructure 
and support to civil society along the northern border with Colombia. 
U.S. funding complements other funds already in place.
    In Bolivia, USAID plans to use $85 million in the supplemental 
funds to initiate alternative development in the Yungas region; and 
broaden and deepen alternative development in the Chapare.
    Mr. Chairman and Members of the Subcommittee, clearly, we have a 
long way to go and a difficult task. We are greatly impressed by the 
work and commitment of President Pastrana and his team, and we are 
encouraged by the interest already shown by citizen groups, farmer 
organizations, municipalities, and others participating in these very 
important programs.
    Thank you for giving me the opportunity to testify, and I would be 
pleased to respond to any questions.

    Mr. Gallegly. Mr. Beers, I am a little confused, and maybe 
you can help us out here, who exactly in the Administration has 
the overall responsibility for Plan Colombia? More 
specifically, if I had a question about the Plan, would I 
address it to State, INL, NSC, you, Secretary Pickering? Where 
would that best be directed?
    Mr. Beers. You have in front of you the three principal 
implementers of the various programs under Secretary Pickering 
as the co-chair, and in fact, the Chair of our executive 
committee within the Administration as the overall person in 
charge of Plan Colombia at this point in time, the whole range 
of activities, including the peace process, as well as the 
delivery of the programs that are implemented under the 
supplemental funding.
    Mr. Gallegly. Can you give us the members of the executive 
committee?
    Mr. Beers. They are representatives of the State 
Department, the Defense Department, the Joint Staff, the Agency 
for International Development, the Department of Justice, the 
Department of Treasury, and the Central Intelligence Agency as 
well as members from the White House staff of both ONDCP and 
the National Security Council staff.
    Mr. Gallegly. Do you have some type of an organizational 
chart?
    Mr. Beers. I can give you an organizational chart.
    [The information referred to appears in the appendix.]
    Mr. Gallegly. If you could give that to the Committee, I 
would appreciate it. On the issue of helicopters, the 18 UH-
1N's it is my understanding that we have this number in 
Colombia now, is that correct?
    Mr. Beers. Yes, sir.
    Mr. Gallegly. And they are assigned to the counternarcotics 
battalion?
    Mr. Beers. Yes, sir.
    Mr. Gallegly. Right now can you tell me specifically what 
they are doing and has the first battalion begun training yet 
or what are they doing?
    Mr. Beers. Sir, I will let Mr. Sheridan talk about the 
battalion itself, but with respect to the helicopters, we 
provided those helicopters in Colombia during the last quarter 
of calendar year 1999 with final helicopters arriving in early 
December. Those helicopters, when they originally arrived in 
Colombia, were involved in the training of the pilots that 
would fly those helicopters. They did not actually begin 
training with the counternarcotics brigade. We had hoped and 
expected that the funding from Plan Colombia would be available 
to allow us to conduct that particular training. It was not 
available. We stood down those 18 helicopters temporarily. They 
will be back online and available for training beginning in the 
middle of October, and the full 18 will be available for 
training at the beginning of November.
    Mr. Gallegly. Do you have all the spare parts and 
everything that you need to maintain them?
    Mr. Beers. We have the money. We have the spare parts. We 
are ready to operate. Yes, sir. I mean we will have to continue 
to order spare parts in order to maintain the inventory but 
they are available to fly.
    Mr. Gallegly. But at this particular point in time, there 
is no reason that all 18 are not ready and you have adequate 
back-up parts to keep them running without having to wait for 
something else?
    Mr. Beers. That is correct, sir.
    Mr. Gallegly. Mr. Ackerman.
    Mr. Ackerman. Thank you, Mr. Chairman. First, let me 
express my concern, it seems that all too often some of our 
colleagues seem to just buzz around and fly in here and do a 
political hit on the Administration or try to terrorize 
witnesses and then fly off into some jungle somewhere. I think 
that is really totally unnecessary for serious policy makers 
who want to discuss the issues with the witnesses instead of 
scoring political points.
    I want to thank the witnesses for their written and their 
oral presentations as well.
    If I can ask Secretary Beers, there has been some concern 
expressed that since the President exercised the human rights 
waiver, which was necessary to release the assistance, that the 
Colombian government now believes that a waiver is going to be 
issued every time one is required. In the wake of the waiver, 
how do we ensure that the military will actually improve its 
human rights performance?
    Mr. Beers. Sir, with respect to the issue of human rights, 
it has been a constant issue at every level of our dialogue 
with the Government of Colombia. We made clear to the 
Government of Colombia in association with the discussions that 
led to the decision by the President to waive those provisions, 
that we were going to work with them and talk with them and 
encourage them to move forward on the remaining items that were 
not able to be certified.
    In my written statement, and Brian Sheridan indicated it 
earlier, I suggested that the chief of the Armed Forces have 
the authority to dismiss individuals who are believed to have 
committed human rights abuses which is now an element of the 
Colombian military's way of doing business.
    Secondly, the provision which requires the Colombian 
military to create an equivalent of what we would call the 
Judge Advocate General Corps in the United States Army is 
underway. Both of those provisions, we believe now, would allow 
us to certify three of the six elements of that certification. 
The other three elements of the certification require judgments 
to be made over time with respect to the implementation of the 
dismissal of officers, the bringing to trial and whatnot. We 
will continue to monitor those, and we will work with the 
Colombian government. But there is no intent to simply say once 
and for all, because we have done it that we will continue to 
do it. We will work with the government of Colombia. This will 
be a key issue of our bilateral relationship.
    Mr. Sheridan. Can I just add, I was a strap hanger on the 
President's trip to Cartagena a couple weeks ago. And I thought 
there was a very powerful presentation made by a number of 
Members of Congress to President Pastrana and his team, which 
included the military leadership, which were in the room, about 
how important it is, and this was post waiver, by the way, how 
important it is that they continue to make progress in this 
area. And so, I think they heard it very clearly from the 
executive branch, they heard it very eloquently from members of 
the legislative branch, and I have no reason to doubt that they 
heard the message and are going to continue to work on that.
    Mr. Ackerman. I thank you for that.
    I have some concerns over the assertions made by our 
colleague, Mr. Bereuter, that he was denied a briefing by the 
State Department prior to his trip because OMB refused to 
accede. Is there a----
    Mr. Bereuter. Would the gentlemen yield just for a 
correction? It is not this Member that was denied; the 
information which came to me was that the staff of the 
Speaker's office was denied, that the State Department had not 
acceded to the briefing, but not this gentlemen.
    Mr. Ackerman. Is there some structural thing that the OMB 
has authority to suggest to or order the State Department not 
to cooperate with the legislative branch?
    Mr. Beers. Sir, the issue in question was that some 
information had inadvertently been provided to a contractor 
which was not entirely correct, which had then been provided 
further to the Hill. We, the State Department, had been asked 
to come up and explain that information. We had acceded to that 
request. We had informed the Administration broadly about 
acceding to that request. And OMB had said that rather than 
providing an explanation of the interim information which was 
not thoroughly scrubbed, we should wait and get the entirely 
accurate information and provide the briefing at that point. We 
have been engaged within the Administration since that time, in 
near constant meetings run by the State Department, the Defense 
Department and OMB, in order to be able to give a fully 
accurate account of that piece of information, which was not 
accurate.
    Mr. Ackerman. So that will be forthcoming.
    Mr. Beers. It will be forthcoming. It is fully our 
intention to be responsive. We apologize for the creation of a 
sense that we didn't want to provide the information.
    Mr. Ackerman. Thank you. That is greatly appreciated.
    One final question. I haven't exceeded my time as yet. The 
Chairman of the Full Committee asserted that we should be more 
dependent on the CNP, which seems to have been more reliable in 
the efforts that we address today. And I think that most of us 
agree that they have been. However, is it--does the CNP have 
the capability to do the things that the Chairman had 
suggested? My understanding is that there are somewhere between 
2- and 3,000 anti-narcotics police in the CNP. Can they 
actually go in and take an area or hold territory, or is only 
the military capable of doing that?
    Mr. Beers. No, they cannot, and yes, only the military is 
capable of doing that.
    Mr. Ackerman. I appreciate it. Thank you.
    Mr. Gallegly. Mr. Bereuter.
    Mr. Bereuter. Thank you, Mr. Chairman. I would like to 
return to some questions that I raised and review my notes on 
your responses, Secretary Beers. I would like to ask if there 
is anyone from the White House congressional liaison who is 
here in attendance today? I would have liked to have heard from 
them directly. But I see that is not the case. My questions in 
part are derived mostly from material from the Speaker's staff. 
But also, Chairman Goss and I did meet with the head of the 
National Police and with the head of the military to understand 
their decision, their request, and the details directly when we 
were in Cartagena. Other members were involved in another 
meeting and/or with the presses at their press conference. In 
part, I bring that information to bear.
    Secretary Beers, perhaps you recall that I presented 
information that Sikorsky has notified the House Intelligence 
Committee staff that the 18 Black Hawks that were authorized 
would be reduced to 15 on the instructions of the State 
Department. But Sikorsky says, as I understand it--and I have 
this in writing from a good source--that they are willing to 
proceed with the delivery of 16 Black Hawks. I don't know the 
reason for the discrepancy between 18 and 16, at $234 million 
as provided by Plan Colombia.
    In part, this may involve a response from you, Secretary 
Sheridan, because, in fact, the DSCA is handling this on it, at 
the direction of the Congress. It appears from what Secretary 
Beers said that the Defense Department is using the U.S. Army 
procurement guidance documents, and I believe he, Secretary 
Beers, said that the Army estimates the Black Hawks can begin 
the delivery only in 2002. And the information I have indicates 
that will be late 2002 and conclude delivery in 2003. And 
furthermore, the Army guidelines you indicated, if I have this 
correct, would take 6 months to sign the contracts.
    Now, I am wondering if the information that you have 
conveyed to me or my understanding of it is correct, first of 
all, and second, whether or not you would think that the 
President, if he was knowledgeable about the use of these 
procurement documents, would find this a satisfactory and 
timely response given what seems to be his urgency, and 
certainly that of the Speaker, to move ahead in a timely 
fashion. And it seems to me a bipartisan effort here in the 
House. I would call on you in any order that you wish to 
respond.
    Mr. Beers. Thank you, sir. Your rendition of my oral 
statement is accurate. But I want to emphasize that those are 
the Army's conservative figures with respect to delivery. And I 
want to also emphasize that those delivery times are not 
acceptable to us. And that we will do everything to reduce 
them. And there is a commitment on the part of DSCA and the 
Army to reduce them, but that is the number that they can give 
you now.
    Secondly, let me say that included in the context of the 
Black Hawk helicopters, must be the pilots, the crew, the 
mechanics and the logistical structure. So the provision of 
those aircraft immediately out of, for example, the U.S. Army's 
active inventory would not allow those helicopters to be used. 
Because there are not, within the Colombian army, the pilots or 
the mechanics to fly them, contrary to the statement of Mr. 
Burton. There are not those pilots and mechanics in those 
numbers within the Colombian National Police to do that either.
    Mr. Bereuter. There seems to be an agreement within the 
Colombian police as to whether or not there are additional 
pilots that could fly Black Hawks that are trained based on 
what they told us in Cartagena, perhaps not in that number but 
additional pilots. I am not prepared with information to 
address whether or not maintenance capacity is there or not.
    Mr. Sheridan, Mr. Secretary, would you indicate what you 
believe your orders and overall directions are about expediting 
the delivery in contrast to the procurement documents of the 
U.S. Army?
    Mr. Sheridan. Congressman, I am glad you asked. I think we 
would all agree in the executive branch and in the legislative 
branch that we all want three things: We want to get the 
helicopters as fast as we can, consistent with them being ready 
to accept them, so we don't have helicopters sitting on the 
ground that no one can fly. We want to get them as fast as we 
can. We want to get as many as we can. And we need to get them 
properly configured to do the mission that they are being asked 
to perform.
    What we are in the middle of right now, which I think Randy 
alluded to, is, from my perspective, a very technical 
discussion among budget analysts and acquisition people as to 
which estimates were used last time, which assumptions were you 
making about the configuration, did you include external 
additional fuel tanks or did you not? Did you include the air 
defense systems on the helos or did you not? So let us compare 
the original numbers, what was the configuration, what 
currently is required, what has been the agreed-upon 
configuration with the Colombian army.
    And we had a configuration meeting in southern command 
between the Colombian army and our aviation experts in SOUTHCOM 
a couple weeks ago. And you have to do two things: You have to 
ask the real operators who are going to go out and perform the 
mission, the counterdrug battalions, what do you need? Where do 
you have to go? How far do have you to go? What bases do you 
have? What are the operating parameters that you have? And then 
you get the more technical guys to tell what you need on the 
helo. It is a very technical discussion. We are trying to wrap 
it up as quickly as we can, but rest assured, we want them as 
fast as we can, as many as we can, and we need them properly 
configured.
    Mr. Bereuter. Let us see if we have an understanding among 
Sikorsky and the U.S. Government on two things. One, the 
Sikorsky offer still stands for $234 million for Black Hawks. 
Is that an understanding? But second, is there an inadequate 
understanding of the configuration of the helicopter to be 
delivered on the offer made by Sikorsky?
    Mr. Sheridan. I think that--I think at this moment we 
cannot answer this question until we get Sikorsky back in the 
room with the aviation people and go through this one more 
time.
    Mr. Bereuter. The second on configuration or the dollar 
amount?
    Mr. Sheridan. Both. One has implications for the other. 
Depending on how you figure it, it has implications for the 
dollar amount. That is why we have to get back together with 
them again and understand what they are talking about when they 
communicate directly to the Hill on what they can do: what are 
they talking about for configuration versus what the Colombian 
army is talking about as it works with SOUTHCOM.
    Mr. Bereuter. How soon can that happen?
    Mr. Sheridan. We are doing it as fast as we can.
    Mr. Beers. I would add one additional point if I might.
    Mr. Bereuter. That is a little vague. I would like a 
commitment.
    Mr. Sheridan. There is a meeting today. There was a meeting 
that Randy and I were at at the end of last week. We are 
urgently working this. The other thing I would convey is, and 
Randy I think passed this on, when you talk to the DSCA and the 
Army, they tend to give you the most conservative or, in some 
sense, worst case time lines. When can you sign a contract? 
April. Why do you say April, because it usually takes this 
amount of time to sign a contract. Is it possible to sign a 
contract earlier than that? Yes. If there are no problems. Is 
it possible you could have it in a month or two. Yes. Okay.
    Mr. Bereuter. If the President has an interest in this, 
which I believe is sincere and if the Congress had a particular 
interest in a very specific direction, I would hope that the 
Defense Department and the Army would try to aim at the 
earliest possible responsible decision. I assume you can convey 
that. I want to go on to the Hueys.
    Mr. Beers. Can I give you one factual point? The numbers 
discrepancy, I believe, is explained in the following way: 
Sikorsky has taken two separate line items, $208 million for 16 
helicopters that the Black Hawk variety for the Army and $26 
million for two Black Hawks for the CNP. They have added those 
together and come up with $234 million, and they have gone back 
and applied it against the 16 helicopters for the Army. Our 
objective remains 18 helicopters for $234 million or a clear 
explanation to you of why that doesn't work. We have not given 
up on that objective. So Sikorsky is giving you a number for a 
lower number of helicopters and that is not our objective.
    Mr. Bereuter. We are about out of time to go vote. I do 
have this question, and I request an answer as soon as you can 
get it to us--is it contemplated that there will be, in effect, 
temporary Hueys delivered, so that there won't be as long a 
delay in delivering, which could be, you said the second 
quarter of 2003, on the Hueys? And, in fact, are some of these 
helicopters coming from Canada?
    Mr. Beers. Yes, sir, that's absolutely correct. What I 
referred to is the UN-1N Helicopter, 18 of which are in 
Colombia, 15 of which will be delivered early in 2001. Those 
were purchased from Canada. They are used, they are adequate 
helicopters. They will be the interim lift for the 
counternarcotics effort until we can make these new helicopters 
available.
    Mr. Sheridan. If I could add that has always been our plan. 
Regardless of what month the Black Hawks show up, we have known 
there has been a gap and the idea from the beginning was to 
design a program so the 33 UH-1N's provide the air lift as an 
interim solution until the Black Hawks arrive. As soon as they 
become operational, the battalions will be air mobile and they 
won't be sitting around.
    Mr. Bereuter. I understand that part of it. Thank you, Mr. 
Chairman.
    Mr. Gallegly. I thank the panel. I do have, without 
objection, a couple questions I would like to submit to the 
members of the panel today to have a written response back that 
could be made a part of the record of the hearing.
    Mr. Bereuter. Could I be included in that?
    Mr. Gallegly. Yes, without objection. And we have about 5 
minutes to get to the floor. I don't want to hold this panel up 
any more. I want to thank this panel very much for appearing 
for your testimony. And the Committee will be in recess until 
the vote is completed then we will reconvene with the second 
panel. Thank you.
    [Recess.]
    Mr. Ballenger. [Presiding.] Let me welcome Mr. Vivanco and 
Mr. Shifter to the second panel of the day.
    Then without further ado--I guess--do we have enough 
people? Okay. Mr. Vivanco, the floor is yours.

STATEMENT OF JOSE MIGUEL VIVANCO, EXECUTIVE DIRECTOR, AMERICAS 
                  DIVISION, HUMAN RIGHTS WATCH

    Mr. Vivanco. Thank you very much.
    Mr. Gallegly. Your full statement will be entered into the 
record and make it as concise as you can. Go ahead.
    Mr. Vivanco. Thank you very much. Thank you, Mr. Chairman. 
Mr. Chairman, Members of this Committee, it is a pleasure to be 
with you today. Thank you for inviting me to convey to this 
Subcommittee our concerns about the human rights situation in 
Colombia and the implications of the U.S. security assistance 
to Colombia.
    I know that the Subcommittee is most interested in an 
exchange, so my remarks will be brief.
    I would also like to submit for the record, Mr. Chairman, a 
copy of my written testimony, which includes what we consider 
to be the key benchmarks to evaluate the compliance of the 
Colombian government with the human rights conditions included 
in Public Law 106-246.
    Mr. Gallegly. So ordered.
    Mr. Vivanco. Thank you, Mr. Chairman. These benchmarks 
represent a joint effort that included Amnesty International 
and the Washington Office on Latin America.
    To summarize, the human rights situation in Colombia 
remains serious with abuses committed by all sides. The armed 
forces, paramilitaries and guerrillas continue to ignore 
international humanitarian law and fight this war by mainly 
attacking civilians, not combatants. For every combatant killed 
in this war, two civilians die, a situation that appears to be 
worsening, not improving, in Colombia.
    Unfortunately, we continue to receive credible and well-
documented information from multiple and credible sources that 
indicated that the armed forces, in particular the military, 
has yet to break long-standing ties to the paramilitary groups 
that are responsible for most human rights violations, 
including massacres and mutilations in Colombia.
    In addition, the two major guerrilla groups have refused to 
abide by international law or humanitarian law. Two of the 
newest tactics merit special consideration, the use of gas 
cylinder bombs in attacks on police barracks and paramilitary 
bases, a weapon that is inherently inaccurate and responsible 
for dozens of civilian casualties, and the practice of mass 
kidnapping, the seizure of large groups of civilians to hold 
for ransom or political concessions.
    In our view, Mr. Chairman, there has been no progress on 
the performance of the guerrillas, the ELN and the FARC, with 
regard to basic principles of international humanitarian law. 
Human Rights Watch remains convinced that the most important 
way that the United States can contribute to improving human 
rights protections in Colombia is to enforce the strict 
conditions on all military aid. Enforcement of the conditions 
contained in Public Law 106-246 would have contributed greatly 
to improving human rights protection, in my opinion.
    In essence, these conditions force Colombia's leaders to 
enforce existing laws by ensuring that cases involving alleged 
human rights abuses by members of the armed forces be 
prosecuted in civilian court and not military courts, where 
impunity has been the rule. The conditions also require 
Colombia to combat illegal paramilitary groups, a goal that 
would greatly fortify democracy and the rule of law in 
Colombia.
    Some Administration officials have claimed that the 
Colombian government lacked sufficient time to implement these 
human rights conditions. In our view, that is incorrect. 
Indeed, these conditions reflect the literally hundreds of 
recommendations made over several years to Colombia by the 
United Nations High Commissioner for Human Rights, the 
Organization of American States, and human rights organizations 
including Human Rights Watch.
    As I said, they essentially tell Colombia to enforce its 
own laws, laws that have been on the books since at least 1997, 
and in the case of paramilitaries, since 1989, time is not the 
problem, Mr. Chairman, political will is. Regrettably by 
waiving most of these conditions, the Administration has 
converted the clear will of the U.S. Congress into empty 
rhetoric. Without a clear enforcement, these conditions are 
worse than meaningless. The waiver demonstrates to the worst 
elements within the Colombian armed forces that atrocities will 
continue to go unpunished if there is a single-minded 
imperative to fight drugs. But the lawlessness of Colombia's 
war is not divorced from drug trafficking. To the contrary, by 
seeking that all laws be enforced, including the ones that 
protect human rights, the United States would contribute 
significantly to the strength of civilian society and its 
ability to defend democracy against the rule of the gun or 
machete in Colombia.
    I call on the Subcommittee to reassert its commitment to 
human rights by compelling the United States Government to 
enforce these human rights conditions. Specifically, I urge you 
to consider, Mr. Chairman, to eliminate the waiver authority 
through legislation. Human rights should never be considered a 
minor or secondary goal of U.S. foreign policy. Reflecting the 
ideals of this great Nation, human rights should be the 
centerpiece of foreign policy.
    Secondly, I respectfully request that you adopt the 
benchmarks that I have submitted to the Subcommittee as a way 
to measure the Colombian government's compliance with the 
conditions in Public Law 106-246. If these conditions remain 
unmet when aid is ready to be obliged for fiscal year 2001, I 
urge you to insist to the Administration that Congress will not 
tolerate another waiver, a weak certification, and more 
impunity for abusers in uniform in Colombia.
    Mr. Chairman, I would like to conclude my remarks by just 
saying for the record that in my experience, human rights 
organizations in Colombia and outside Colombia have 
unequivocally condemned violations of international law, human 
rights law committed by all sides in this internal armed 
conflict in Colombia. Human Rights Watch certainly has 
published several reports, long reports about the failure of 
the guerrillas as well as paramilitary groups and the state 
agency in Colombia to satisfy minimal standards of 
international law that should be enforced in Colombia.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Vivanco follows:]
Prepared Statement of Jose Miguel Vivanco, Executive Director, Americas 
                      Division, Human Rights Watch
    Chairman Gallegly, Representative Ackerman, Members of the 
Subcommittee:
    It is a pleasure to be with you today. Thank you for inviting me to 
convey to the Subcommittee our concerns about the human rights 
situation in Colombia and the implications of U.S. security assistance. 
I know the Subcommittee is most interested in an exchange, so my 
remarks will be brief. I would also like to submit, for the record, a 
copy of my written testimony, which includes what we consider to be the 
key benchmarks to evaluate the compliance of the Colombian government 
with the human rights conditions included in Public Law 106-246. These 
benchmarks represent a joint effort that included Amnesty International 
and the Washington Office on Latin America.
    To summarize, the human rights situation in Colombia remains 
serious, with abuses committed by all sides. The armed forces, 
paramilitaries, and guerrillas continue to ignore international 
humanitarian law and fight this war by mainly attacking civilians, not 
combatants. For every combatant killed in this war, two civilians die, 
a situation that appears to be worsening, not improving.
    Unfortunately, we continue to receive credible and well documented 
information from a variety of sources indicating that the Armed Forces, 
in particular the military, has yet to break long standing ties to the 
paramilitary groups that are responsible for most human rights 
violations, including massacres and the mutilations of bodies. In 
addition, the two major guerrilla groups have refused to abide by 
international law. Two of the newest tactics merit special rebuke: the 
use of gas cylinder bombs in attacks on police barracks and 
paramilitary bases, a weapon that is inherently inaccurate and 
responsible for dozens of civilian casualties; and the practice of mass 
kidnaping, the seizure of large groups of civilians to hold for ransom 
or political concessions.
    Human Rights Watch remains convinced that the most important way 
that the United States can contribute to improving human rights 
protections in Colombia is to enforce strict conditions on all military 
aid. Enforcement of the conditions contained in Public Law 106-246 
would have contributed greatly to improving human rights protection, in 
my opinion. In essence, these conditions obligate Colombia's leaders to 
enforce existing laws by ensuring that cases involving alleged human 
rights abuses by members of the armed forces be prosecuted in civilian, 
not military courts, where impunity has been the rule. The conditions 
also require Colombia to combat illegal paramilitary groups, a goal 
that would greatly fortify democracy.
    Some Administration officials have claimed that the Colombian 
government lacked sufficient time to implement human rights conditions. 
That is incorrect. Indeed, these conditions reflect the literally 
hundreds of recommendations made over several years to Colombia by the 
United Nations High Commissioner on Human Rights, the Organization of 
American States, and human rights groups like Human Rights watch. As I 
said, they essentially tell Colombia to enforce its own laws, laws that 
have been on the books since at least 1997 and, in the case of 
paramilitaries, since 1989. Time is not the problem; political will is.
    Lamentably, by waiving most of these conditions, the Administration 
has converted the clear will of the U.S. Congress into empty rhetoric. 
Without enforcement, these conditions are worse than meaningless. The 
waiver demonstrates to the worst elements within Colombia's armed 
forces that atrocities will continue to go unpunished if there is a 
single-minded imperative to fight drugs. But the lawlessness of 
Colombia's war is not divorced from drug trafficking; to the contrary, 
by seeking that all laws be enforced, including the ones that protect 
human rights, the United States would contribute significantly to the 
strength of civilian society and its ability to defend democracy 
against the rule of the gun or machete.
    I call on the Subcommittee to reassert its commitment to human 
rights by compelling the United States government to enforce these 
conditions. Specifically, I urge you eliminate the waiver authority 
through legislation. Human rights should never be considered a minor or 
secondary goal of U.S. foreign policy. Reflecting the ideals of this 
nation, human rights should be the centerpiece. Secondly, I 
respectfully request that you adopt the benchmarks that I have 
submitted to the Subcommittee as a way to measure the Colombian 
government's compliance with the conditions in Public Law 106-246. If 
these conditions remain unmet when aid is ready to be obligated for FY 
2001, I urge you to insist to the Administration that Congress will not 
tolerate another waiver, a weak certification, and more impunity for 
abusers in uniform.
Overview
    So far this year, there has been little progress beyond rhetoric 
supporting a negotiated end to Colombia's prolonged conflict this year. 
Both the Revolutionary Armed Forces of Colombia (Fuerzas Armadas 
Revolucionarias de Colombia, FARC) and the Camilist Union-National 
Liberation Army (Union Camilista-Ejercito de Liberacion Nacional, UC-
ELN) sent delegations to Europe in government-approved efforts to 
further talks. Yet in Colombia, individuals who spoke out in favor of 
peace and protection for civilians were eliminated relentlessly by all 
sides, advancing the turmoil of war.
    Colombia's military continued to be implicated in serious human 
rights violations as well as support for the paramilitary groups 
considered responsible for almost 80 per cent of the human rights 
violations recorded in the first nine months of 2000. Repeatedly, 
troops attacked indiscriminately and killed civilians, among them six 
elementary school children on a field trip near Pueblo Rico, Antioquia, 
on August 15. According to witnesses, soldiers fired for forty minutes, 
ignoring the screams of the adult chaperones.
    Even as he lamented the deaths, Gen. Jorge Mora, commander of the 
Colombian Army, seemed to justify them by telling journalists, ``these 
are the risks of the war we are engaged in.'' The Army's claim that 
guerrillas had used the children as human shields was dismissed by 
witnesses, who said that there had been no guerrillas present.
    There continued to be abundant, detailed, and continuing reports of 
open collaboration between Colombia's military and paramilitary groups. 
For example, government investigators believe that active duty and 
reserve army officers attached to the Third Brigade in Cali set up and 
actively supported the Calima Front, which continued to operate in 
Valle del Cauca. In the twelve months since July 1999, when it began 
operation, the Calima Front was considered responsible for at least 200 
killings and the displacement of over 10,000 Colombians.
    In a particularly shocking incident, on February 18, an estimated 
300 armed men belonging to the Peasant Self-Defense Force of Cordoba 
and Uraba (Autodefensas Campesinas de Cordoba y Uraba, ACCU) set up a 
kangaroo court in the village of El Salado, Bolivar, and for the next 
two days tortured, garrotted, stabbed, decapitated, and shot residents. 
Witnesses told investigators that the men tied a six-year-old girl to a 
pole and suffocated her with a plastic bag. One woman was reportedly 
gang-raped. Authorities later confirmed thirty-six dead. Thirty remain 
unaccounted for. ``To them, it was like a big party,'' a survivor told 
the New York Times. ``They drank and danced and cheered as they 
butchered us like hogs.''
    Meanwhile, the Colombian Navy's First Brigade maintained roadblocks 
around El Salado that prevented representatives of the International 
Committee of the Red Cross (ICRC) and others from entering. At one 
point, residents told investigators, a military helicopter evacuated a 
wounded paramilitary, but did not stop the slaughter. Thirty minutes 
after paramilitaries had safely withdrawn with looted goods and 
animals, Navy soldiers entered the village.
    Officers implicated in serious abuses remained on active duty, and 
only in exceptional cases were they transferred after intense 
international pressure. In numerous cases, military judges ignored a 
1997 Constitutional Court decision mandating that cases involving 
soldiers accused of human rights violations be prosecuted in civilian 
courts.
    The Superior Judicial Council (Consejo Superior de la Judicatura, 
CSJ), charged with resolving these disputes, continued to demonstrate 
clear bias in favor of the military. For that reason, on June 2, 2000, 
the Association of Family Members of the Detained and Disappeared 
(Asociacion de Familiares de Detenidos Desaparecidos-Colombia, 
ASFADDES), the Citizenry Alive Corporation (Corporacion Viva la 
Ciudadania), and the Colombian Commission of Jurists (Comision 
Colombiana de Juristas, CCJ) filed a petition calling on President 
Pastrana to use his powers to order the Armed Forces to cease disputing 
these cases.
    Defense Minister Luis Ramirez responded by arguing that military 
tribunals had already transferred 533 cases to civilian jurisdiction., 
demonstrating, he claimed, compliance. However, after review, Human 
Rights Watch found that only thirty-nine related in some way to crimes 
that could be construed as human rights violations, like murder. Most 
involved low-ranking sergeants and lieutenants, and none were senior 
officials who may have ordered or orchestrated gross violations.
    In one notorious case, the two soldiers who murdered Colombian 
senator Manuel Cepeda on August 9, 1994, remained on active duty until 
human rights groups protested in 1999. Press reports indicated that as 
late as July 1999, Sergeants Hernando Medina Camacho and Justo Gil 
Zuniga Labrador moved freely about Colombia and continued to work in 
military intelligence despite the fact that the Attorney General had 
issued arrest warrants against them. A Colombian judge found them 
guilty of murder in December, 1999. Others alleged human rights 
violators have simply walked out of the military facilities where they 
were reported to be detained.
    The Colombian government claimed dramatic improvement in its record 
against paramilitaries. Upon inspection, however, improvement was 
illusory. Most arrest warrants issued by the Attorney General remained 
unexecuted due to military inaction. The few arrests claimed were 
mainly low-ranking fighters. Meanwhile, leaders remain at large and 
collect warrants like badges of honor. As of this writing, there are 
twenty-two outstanding arrest warrants against Carlos Castano, for 
massacres, killings, and the kidnaping of human rights defenders and a 
Colombian senator.
    Although the government of Colombia has repeatedly claimed that it 
has special search units (Bloques de Busqueda) to target paramilitary 
groups, in fact these groups are little more than paper tigers that 
vanish once the press conference is concluded. One such group, the 
``Coordination Center for the Fight against Self-Defense Groups,'' 
formed with much fanfare on February 25, 2000, has never met.
    Violence was particularly acute in northeastern Colombia, where the 
UC-ELN tried to win government support for a territory to hold what 
they called a National Convention on social change in the 
municipalities of San Pablo, Cantagallo, and Yondo. Thousands of 
civilians protested, fearful of guerrilla abuses, paramilitary 
retaliation, and more war. At the same time, the area was increasingly 
controlled by advancing paramilitaries apparently tolerated by the 
Colombian military. A report by the office of the U.N. High 
Commissioner for Human Rights, government representatives, and human 
rights groups found that over 3,700 people in the region had been 
forcibly displaced over the first three months of the year and dozens 
had been murdered.
    Although Castano often announced plans for massacres publicly and 
well in advance, military commanders established a clear pattern of 
failing to deploy troops to protect civilians, even when local 
authorities directly informed them about imminent threats. Authorities 
also received reliable and detailed information about the location of 
permanent paramilitary bases, yet failed to act against them, 
contributing to an atmosphere of chaos and terror.
    Castano, who claims 11,200 armed and trained fighters, continued to 
maintain numerous and permanent bases and roadblocks and moved himself 
and his troops with apparent ease, employing computers, the Internet, 
radios, and satellite telephones to prepare death lists and coordinate 
massacres. In an unprecedented hour-length television interview in 
March, Castano described himself as the ``fighting arm of the middle 
class.''
    There was limited progress on human rights protection. On January 
13, President Pastrana signed the Ottawa Convention and promised to rid 
the country of an estimated 50,000 land mines. After languishing for 
twelve years, a bill criminalizing forced disappearance, torture, and 
forced displacement was passed by the Congress in May. A few cases that 
had long languished in impunity were reopened.
    Nevertheless, the Colombian Army continued to lash out at human 
rights and defenders. Army chief Gen. Jorge Mora characterized an 
government investigation into alleged army collusion in a massacre as a 
``persecution that affects the morale of the troops. Hundreds of cases 
that should have been transferred to civilian jurisdiction remained 
shielded in military tribunals.
Guerrilla abuses
    Even as the FARC entertained foreign dignitaries, journalists, U.N. 
officials, and Wall Street billionaires in the five southern Colombia 
municipalities ceded to them to promote peace talks, they murdered 
civilians, executed armed force and rival guerrilla combatants after 
surrender, threatened civilians who refused to provide them with 
information used to extort money, took hostages, and forced thousands 
of Colombians to flee. The group maintained an estimated seventy battle 
fronts throughout Colombia estimated to include at least 17,000 
trained, uniformed, and armed members.
    In dozens of attacks, the FARC used methods that caused avoidable 
civilian casualties, including the use of gas cannisters packed with 
gunpowder and shrapnel and launched as bombs. In an attack on Vigia del 
Fuerte, Antioquia, in March, FARC-launched cannisters left the town a 
virtual ruin. Witnesses told journalists that some of the twenty-one 
police agents who died were executed by the FARC, among them several 
who had sought medical attention in the local hospital.
    After a June mission, Human Rights Watch found evidence that the 
FARC may have executed at least twenty-six residents since taking 
control in 1998, more than double the official count taken by the 
office of Colombia's Public Advocate. In addition, sixteen others were 
reported missing. The FARC publicly acknowledged only eleven 
executions, claiming their victims had been paramilitary supporters, 
but observers believed the number was significantly higher. The Public 
Advocate reported that at least twenty children had been recruited.
    In an interview with Human Rights Watch in Los Pozos, Caqueta, FARC 
commander Simon Trinidad dismissed international humanitarian law as 
``a bourgeois concept.''
    Rarely is there confirmation that FARC members who commit 
violations are punished. To the contrary, the few cases the FARC admits 
show that punishment amounts to little more than a slap on the hand and 
rarely extends to the commanders who order or cover up killings. For 
example, the two guerrillas who killed Americans Terence Freitas, 
Lahe'ena'e Gay, and Ingrid Washinawatok on March 5, 1999, were 
eventually sentenced to construct fifty meters of trench and clear 
land.
    The UC-ELN tried to generate parallel talks, and even negotiated 
the temporary release of jailed leaders to take part in July talks in 
Geneva, Switzerland. However, talks appeared to bring little hope of a 
settlement and the group's estimated 1,500 fighters were increasingly 
pressed in the field by offensives launched by the armed forces, 
paramilitaries, and rival FARC units.
    Far from respecting dissent, the UC-ELN threatened groups that 
supported humanitarian accords meant to protect civilians, among them 
Conciudadania and Children, Planters of Peace (Ninos, Sembrando 
Semillas de Paz), both based in Antioquia. Guerrillas also targeted 
civilian infrastructure to protest government peace and economic 
policies, a violation of international humanitarian law. Since 1999, 
guerrillas have blasted over 300 high-voltage power pylons, at one 
point leaving a third of Colombia in the dark. The group continued 
attacks on oil pipelines, and for prolonged periods prevented transit 
on vital roads, converting thousands of detained travelers into de 
facto human shields against army counterattack.
    In areas where control was contested and around its camps, the UC-
ELN continued to use land mines.
    Both the FARC and UC-ELN continued to kidnap civilians for ransom 
or political concessions, a violation of international humanitarian 
law. According to the Pais Libre, an independent group that tracks 
kidnaping, guerrillas were responsible for an estimated 517 kidnapings 
in the first three months of this year, up from 1999. Paramilitaries 
also carried out 48 kidnapings, an increase of 45 per cent over the 
previous year. Most kidnapings, however, were unreported, since 
families fear risking the lives of their loved ones by going public.
    In April, FARC commander Jorge Briceno announced that all 
Colombians worth over $1 million should pay the FARC a ``peace tax'' or 
risk being taken hostage. Some hostages, including a three-year-old and 
a nine-year-old, were kept in the area reserved for government talks. 
As of this writing, three passengers seized on an Avianca flight on 
April 12, 1999, remained in UC-ELN custody, used as bargaining chips to 
force the government into concessions. Families of civilians kidnapped 
by the FARC confirmed that the group uses the area to hold at least 
some of its ransom targets, among them a three-year-old and a nine-
year-old.
    Forced displacement remained acute. In a report on a 1999 mission, 
Francis Deng, representative of the U.N. Secretary-General on 
internally displaced persons, called Colombia's situation ``among the 
gravest in the world . . . displacement in Colombia is not merely 
incidental to the armed conflict but is also a deliberate strategy of 
war.''
    According to the U.S. Committee for Refugees, there are at least 
1.8 million forcibly displaced people in Colombia and between 80,000 
and 105,000 Colombians living as unacknowledged refugees on Colombia's 
borders with Venezuela, Ecuador, and Panama. Colombia is now third 
behind Sudan and Angola in terms of displaced population.
    Although Law 387, passed in 1997, outlined a broad and 
comprehensive plan to assist the forcibly displaced, it had yet to be 
effectively implemented by the end of 2000. Indeed, Colombia's 
Constitutional Court ruled in August that the state had failed to 
enforce the law and was in violation of its duties. However, it 
appeared unlikely that even this unusual decision could substitute for 
the political will necessary to address the problem.
Defending Human Rights
    Five defenders were killed in the first nine months of 2000. 
Threats were particularly acute in the oil-refining city of 
Barrancabermeja, long the home of a vibrant and broad-based human 
rights movement. On July 11, ASFADES member Elizabeth Canas--whose son 
and brother had been seized by paramilitaries in 1998 and have yet to 
be found--was shot and killed in Barrancabermeja. By September, dozens 
of human rights defenders and trade unionists had received death 
threats. Almost all appeared to be the work of the paramilitary groups 
who vowed to ``sip coffee'' in guerrilla-controlled neighborhoods by 
December.
    The Regional Corporation for the Defense of Human Rights 
(Corporacion Regional para la Defensa de los Derechos Humanos, CREDHOS) 
received eleven telephone death threats in less than a month. At the 
same time, its members were featured on a death list circulated in the 
city in September; a trade unionist on the list was murdered in July, a 
lawyer remained in critical condition after an attack, and another 
lawyer had fled Colombia.
    Demetrio Playonero, a displaced person and human rights leader, was 
murdered by presumed paramilitaries on March 31. After shooting him in 
the head in front of his wife at his farm outside Yondo, Antioquia, the 
gunmen breakfasted, then stole all of the cattle. In May, defender 
Jesus Ramiro Zapata, the only remaining member of the Segovia Human 
Rights Committee, was killed near Segovia..
    Government prosecutor Margarita Maria Pulgarin Trujillo, part of a 
team developing cases linking paramilitaries to the army and regional 
drug traffickers, was murdered in Medellin on April 3, apparently 
because of her work. Several of her colleagues had already fled 
Colombia because of death threats from a gang of hired killers known as 
``La Terraza,'' a close ally of Carlos Castano.
    Journalists continued to be attacked and threatened for their work. 
In one particularly brutal incident, El Espectador reporter Jineth 
Bedoya was abducted on May 25 by paramilitaries from La Modelo prison, 
where she had planned to interview a jailed paramilitary leader. After 
the photographer and the editor she was with stepped away, Bedoya was 
abducted from the prison lobby in full view of the guards, drugged, 
bound and gagged, and driven to a city about three hours away. There 
she was beaten, tortured and raped by four men who accused her of being 
a guerrilla sympathizer. Before kicking her out of their car that night 
at a local garbage dump, the men told her they had plans to kill three 
other journalists.
    Other journalists faced threats by the FARC for their work. In 
January, FARC commander Manuel Marulanda Velez told reporters that they 
had been unfair to his group and would have to pay. At the time, the 
FARC was holding seventy-three year old journalist Guillermo ``La 
Chiva'' Cortes hostage; Cortes was later rescued. Other journalists who 
wrote frequently about the war, including Francisco Santos of El Tiempo 
and Ignacio Gomez of El Espectador, left the country because of 
threats.
    Cases involving the killings of human rights defenders, among them 
the 1996 killing of Josue Giraldo Cardona; the 1997 killings of Mario 
Calderon, Elsa Alvarado, and Carlos Alvarado; the 1998 killings of 
Jesus Valle Jaramillo and Eduardo Umana Mendoza; and the 1999 killing 
of Julio Gonzalez and Everardo de Jesus Puerta remained either in 
investigation or with only the material authors of the crimes 
identified or under arrest. In all cases, the people who planned and 
paid for the killings remain at large.
    Members of the Colombian military continued to make public 
statements accusing civilian institutions of having been infiltrated by 
the guerrillas and questioning the legitimacy of their investigations. 
The Colombian Armed Forces General Command maintained on its official 
Web Site a text that directly accused Human Rights Watch and the U.S. 
embassy's human rights officer of forming part of a ``strange and 
shameful alliance'' with a criminal drug trafficking cartel.'' After 
the release of ``The Ties That Bind: Colombia and Military-Paramilitary 
Links,'' Gen. Fernando Tapias, Colombia's commander in chief, and Gen. 
Jorge Mora, Army commander, echoed this rhetoric by suggesting that 
Human Rights Watch was in the pay of drug traffickers.
Implications of U.S. security assistance
    As required by law, the State Department held consultative meetings 
with non-governmental organizations (NGOs) in both Washington, D.C. and 
Bogota, Colombia prior to making a determination on the conditions 
included in Public Law 106-246. On August 17 and 18, various human 
rights organizations, including the Washington Office on Latin America 
(WOLA), Human Rights Watch, and Amnesty International, met with 
officials of the State Department and other US governmental departments 
and agencies in Washington, D.C. to discuss Colombia's compliance with 
these conditions.
    It was our unanimous conclusion that there was overwhelming 
evidence demonstrating that Colombia had not met these conditions.
    Subsequently, the State Department issued one certification, of 
Section 3201 1 (A) (i). On August 22, President Clinton invoked Section 
4 of the law, waiving the remaining six conditions on the grounds of 
U.S. national security interests even as American officials admitted 
that Colombia's military maintained ties to paramilitary groups, had 
failed to suspend or prosecute implicated officers, and refused to 
enforce civilian jurisdiction over human rights crimes. ``You don' t 
hold up the major objective to achieve the minor,'' said a spokesperson 
for the office of White House adviser and drug czar Gen. (Ret.) Barry 
McCaffrey.
    Amnesty International, Human Rights Watch, and WOLA protested both 
the decision to certify Section 3201 (1) (A) (i) and to waive the 
remaining human rights conditions.
    The single certification issued by the State Department came after 
President Pastrana signed a directive based on the entrance into law of 
the new Military Penal Code. Human Rights Watch believes this directive 
complied only partially with U.S. law, so should have resulted in a 
denial of certification.
    The Directive erroneously suggests that Colombia's Constitutional 
Court ruled in 1997 that only crimes against humanity (lesa humanidad) 
allegedly committed by members of the Armed Forces should go before 
civilian courts, and that those crimes were limited to torture, forced 
disappearance and forced displacement. In fact, the Court went much 
further, and included crimes of ``unusual seriousness'' (inusitada 
gravedad) that include gross violation of human rights. This would 
include extrajudicial executions and the aiding and abetting of 
paramilitary groups, the most common abuses linked to members of the 
Armed Forces. Therefore, the directive fell well short of the law, 
which called on the President of Colombia to direct in writing that 
Colombian Armed Forces personnel who are credibly alleged to have 
committed gross violations of human rights (emphasis added) will be 
brought to justice in Colombia's civilian courts, in accordance with 
the 1997 ruling of Colombia's Constitutional court regarding civilian 
court jurisdiction in human rights cases.
    In granting the waiver, Clinton not only makes the United States 
complicit in on-going abuses but risks converting a failed drug war 
into a disastrous human rights policy. It is the wrong decision at the 
wrong time. The waiver demonstrates to the worst elements that remain 
on active duty in Colombia's armed forces that reprehensible behavior 
will continue to go unpunished.
                               benchmarks
CONDITION (A)(i): Civilian Court Jurisdiction
    This condition requires:
    (A) (i) the President of Colombia has directed in writing that 
Colombian Armed Forces personnel who are credibly alleged to have 
committed gross violations of human rights will be brought to justice 
in Colombia's civilian courts, in accordance with the 1997 ruling of 
Colombia's Constitutional court regarding civilian court jurisdiction 
in human rights cases;
                              benchmarks:
    The following benchmarks should be achieved before the U.S. 
Secretary of State issues a certification of the Colombian government's 
compliance with this condition:
    A. A written directive should be sent by the President of Colombia 
to the Commander General of the Armed Forces ordering members of the 
armed forces to cease disputing jurisdiction of cases involving 
military personnel who are credibly alleged to have ordered, committed 
or acquiesced in gross violations of human rights, including by aiding 
or abetting of paramilitary activities, whether directly or by 
``omission.''
CONDITION (A)(ii): Suspension of Military Officers
    This condition requires the Secretary of State to certify that:
    ``(A)(ii) the Commander General of the Colombian Armed Forces is 
promptly suspending from duty any Colombian Armed Forces personnel who 
are credibly alleged to have committed gross violations of human rights 
or to have aided or abetted paramilitary groups;''
                              benchmarks:
    The following benchmarks should be achieved before the Secretary of 
State issues a certification on the Colombian government's compliance 
with this condition:
    A. The United States should require the suspension of members of 
the security forces within twenty four hours of the presentation of 
credible evidence of gross violations of human rights or international 
humanitarian law; the aiding and abetting of paramilitary groups; or 
their being formally charged by the Attorney General (Fiscalia) as 
suspects in alleged human rights crimes or the aiding and abetting of 
paramilitary groups.
    B. The United States should obtain a list of the names and ranks of 
military personnel who have been suspended from duty since August 1997 
as a result of credible allegations that they committed gross 
violations of human rights or aided or abetted paramilitary groups, 
together with the dates of their suspension. The U.S. Embassy should 
update this list at three-month intervals and distribute it to the 
appropriate congressional committees and the human rights groups 
included in the consultation process required for certification.
    C. The United States should obtain a list of names and ranks of 
military personnel who have not been suspended from duty since August 
1997 despite credible allegations that they committed gross violations 
of human rights or aided or abetted paramilitary groups. The U.S. 
Embassy should update this list at three-month intervals and distribute 
it to the appropriate congressional committees and the human rights 
groups included in the consultation process required for certification.
    D. In particular, the United States should ensure that the 
following individuals are or have been suspended, pending 
investigations and, as appropriate, prosecution for their alleged 
involvement in gross violations of human rights and paramilitary 
activities:

        1. LGeneral Rodrigo Quinones, Commander, Navy's 1st Brigade: 
        Colombian government investigators linked Quinones to at least 
        57 murders of trade unionists, human rights workers, and 
        community leaders in 1991 and 1992, when he was head of Navy 
        Intelligence and ran Network 3, based in Barrancabermeja. A 
        military tribunal decided that there was insufficient evidence 
        against him, but he has not been brought to trial in the 
        civilian justice system. The only people to be convicted for 
        these crimes were two civilian employees of Naval Intelligence 
        Network No. 7, one of whom was later murdered in prison. In his 
        ruling on the case, the civilian judge stated that he was 
        ``perplexed'' by the military tribunal's acquittals of Quinones 
        and others, since he considered the evidence against them to be 
        ``irrefutable.'' ``With [this acquittal] all that [the 
        military] does is justify crime, since the incidents and the 
        people responsible for committing them are more than clear.'' 
        This judge also discounted the military's contention that 
        Quinones was the victim of a smear campaign by drug 
        traffickers, concluding that there was no evidence to support 
        this claim. To the contrary, he concluded that evidence linking 
        Quinones to the Barrancabermeja atrocities was clear and 
        compelling.
          L  The only punishment meted out to Quinones so far has been 
        a ``severe reprimand'' ordered by the Procuraduria General de 
        la Nacion, which concluded that he was responsible for the 
        deaths. In a disputable interpretation of existing norms, the 
        Procuraduria has determined that murder is not classified as an 
        administrative infraction in the existing regulations. 
        Therefore, the maximum punishment it can impose for murder is a 
        ``severe reprimand,'' essentially a letter in an employment 
        file. It is important to note that the Procuraduria itself has 
        termed this absurd punishment ``embarrassingly insignificant, 
        both within the national sphere and before the international 
        community.'' Quinones is also the officer in charge of the 
        region at the time of the February 2000 massacre in El Salado 
        (Bolivar). Military and police units stationed nearby failed to 
        stop the killing and established roadblocks which prevented 
        human rights and relief groups from entering the town. Quinones 
        was promoted to General in June 2000.

        2. LGeneral Carlos Ospina Ovalle, Commander, 4th Division: 
        Colombia's Attorney General's Office has documented extensive 
        ties between the 4th Brigade and paramilitary groups between 
        1997 and 1999, while General Ospina was in command. Among the 
        cases that implicate Ospina is the October 1997 El Aro 
        massacre. Government documents show that a joint army-
        paramilitary force surrounded the village and maintained a 
        perimeter while about 25 paramilitaries entered the town, 
        rounded up residents, and executed four people.

        3. LBrigadier General Jaime Ernesto Canal Alban, Commander, 3rd 
        Brigade: Colombian government investigators found evidence 
        that, in 1999, while Brig. Gen. Canal Alban was in command, the 
        3rd Brigade set up a paramilitary group and provided them with 
        weapons and intelligence.

        4. LGeneral Jaime Humberto Cortes Parada, Inspector General of 
        the Army: The Attorney General collected compelling and 
        abundant evidence indicating that under his command at the 3rd 
        Division, the Army's 3rd Brigade set up a ``paramilitary'' 
        group in the department of Valle del Cauca, in southern 
        Colombia. Investigators were able to link the group to active 
        duty, retired, and reserve military officers and the ACCU in 
        Barranquilla, Atlantico (See below); and

        5. LGeneral Freddy Padilla Leon, Commander of the II Division, 
        and Colonel Gustavo Sanchez Gutierrez, Army Personnel Director: 
        In July 2000, the press widely reported that the Procuraduria 
        formally charged (pliego de cargos) General Jaime Humberto 
        Cortes Parada and these two officers with ``omission'' in 
        connection with the massacre in Puerto Alvira in June 1997. Two 
        other generals who also face disciplinary charges, for 
        ``omission''--Generals Jaime Humberto Uscategui and Agustin 
        Ardila Uribe--are already retired.

    E. If it is found after extensive review that the military lacks 
the legal power to impose suspensions required by this condition, the 
United States should require that the president of Colombia sign a 
decree authorizing these suspensions and implement it fully and without 
delay.
CONDITION (A)(iii): Compliance with Conditions by Armed Forces
    This condition requires that:
    ``(A) (iii) the Colombian Armed Forces and its Commander General 
are fully complying with (A) (i) and (ii);
                              benchmarks:
    A. The U.S. government should obtain from the Colombian government 
a list of all cases since August 1997 in which military judges have 
challenged jurisdiction in cases being investigated by the Attorney 
General's Office involving gross human rights violations or the aiding 
and abetting of paramilitary activities, including the charges, the 
rank of the individuals charged, and the decision of the Superior 
Judicial Council. The U.S. Embassy should update this list at three-
month intervals, and distribute it promptly to the appropriate 
congressional committees and the human rights groups included in the 
consultation process required for certification.
    B. The U.S. government should obtain a list of military personnel 
brought to justice in Colombia's civilian courts since August 1997, 
including the names and ranks of these personnel, details of the 
charges brought, and the disposition of the cases. The U.S. Embassy 
should update this list at three-month intervals, and distribute it 
promptly to the appropriate congressional committees and the human 
rights groups included in the consultation process required for 
certification.
    C. The Colombian military should transfer the cases involving the 
officers named below to the appropriate civilian authorities for 
investigation and prosecution:

        1. LGeneral (ret.) Fernando Millan, former Commander, 5th 
        Brigade: The Attorney General opened an investigation against 
        General Millan based on evidence that he set up the Las 
        Colonias CONVIVIR in Lebrija, Santander, while he commanded the 
        Fifth Brigade. The Las Colonias CONVIVIR operated throughout 
        1997 without a license but with army support, according to the 
        testimony of former members. According to residents and 
        victims' families, the group committed at least fifteen 
        targeted killings before the director, ``Commander Canon,'' a 
        retired army officer, and the employees he hired were arrested 
        and prosecuted under Decree 1194, which prohibits the formation 
        of paramilitary groups. Among the cases currently under 
        investigation by the Attorney General's Office are those of two 
        Protestants, brothers Oscar and Armando Beltran Correa, who 
        were taken captive by the Las Colonias CONVIVIR as they went to 
        work on July 29, 1997 and killed on the road leading from 
        Lebrija to the hamlet of La Puente. Apparently, the CONVIVIR 
        accused them of passing information to the guerrillas. On 
        September 4, 1997, father and son Leonardo and Jose Manuel 
        Cadena were forced out of their home by CONVIVIR members and 
        killed, according to a family member's testimony to the 
        Attorney General's Office. The CONVIVIR apparently accused the 
        Cadenas of providing food to guerrillas. According to a former 
        CONVIVIR member who was also an army informant, during its 
        months of operation, the Las Colonias CONVIVIR frequently went 
        on operations with army units, setting up roadblocks and 
        detaining suspected guerrillas and criminals. When the Attorney 
        General's Office investigated this case, the army high command 
        prevented prosecutors from questioning Millan, then interposed 
        a jurisdictional dispute, claiming that since Millan was on 
        active service and carrying out his official duties, the case 
        should be tried before a military tribunal. Following a 
        decision by the CSJ, the case was transferred to the military 
        justice system in October 1998. A prosecutor assigned to 
        investigate the May 1998 massacre of 11 people in 
        Barrancabermeja fled the country after receiving threats from 
        General Millan, then-Commander of the 5th Brigade. Nine members 
        of the military and police were disciplined in connection with 
        the massacre, but there have been no prosecutions under 
        civilian jurisdiction. General Millan has not been brought to 
        justice in the civilian justice system.

        2. LMajor Jesus Maria Clavijo, 4th Brigade: In March 2000, 
        Major Clavijo was relieved of his command pending the outcome 
        of his trial on charges of helping form and direct paramilitary 
        groups during his service with the 4th Brigade. Eyewitnesses 
        have linked Clavijo and other 4th Brigade officers to 
        paramilitaries through regular meetings held on military bases. 
        An investigation by the Procuraduria listed hundreds of 
        cellular telephone and beeper communications between known 
        paramilitaries and 4th Brigade officers, among them Clavijo. On 
        May 11, 2000, the Attorney General received a jurisdictional 
        dispute from the military judge handling the case. The case is 
        now pending before the CSJ.

        3. LGeneral (ret.) Jaime Uscategui, 7th Brigade: Dozens of 
        civilians were killed by paramilitaries and hundreds were 
        forced to flee for their lives from Mapiripan, Meta, in July 
        1997. For five days, paramilitaries acting with the support of 
        the army detained residents and people arriving by boat, took 
        them to the local slaughterhouse, then bound, tortured, and 
        executed them by slitting their throats. Local army and police 
        units ignored repeated phone calls from a civilian judge in the 
        area seeking to stop the slayings. At least two bodies--those 
        of Sinai Blanco, a boatman, and Ronald Valencia, the airstrip 
        manager--were decapitated. Judge Leonardo Ivan Cortes reported 
        hearing the screams of people who had been taken to the 
        slaughterhouse to be interrogated, tortured, and killed. In one 
        message that he sent to various regional authorities while the 
        massacre was in progress, he wrote: ``Each night they kill 
        groups of five to six defenseless people, who are cruelly and 
        monstrously massacred after being tortured. The screams of 
        humble people are audible, begging for mercy and asking for 
        help.'' Hundreds of people fled the region. They included Judge 
        Cortes, who was forced to leave Colombia with his family 
        because of threats on his life.
          L  Subsequent investigations revealed that troops under the 
        command of Uscategui, then in charge of the 7th Brigade, 
        assisted the paramilitaries during their arrival at the nearest 
        airport, and made sure that troops with the capability to 
        combat paramilitaries were engaged elsewhere. In an attempt to 
        cover up his responsibility, Uscategui tried to falsify 
        documents reporting the massacre. As a result of their internal 
        investigation, the army moved Gen. Uscategui to administrative 
        duties for failing to act promptly to stop the massacre and 
        detain those responsible. However, the CSJ later ruled that the 
        case involved an ``act of omission'' and belonged before a 
        military court. Uscategui has since retired, and has yet to be 
        prosecuted before a civilian court. However, the military has 
        reopened the case and announced that Uscategui will be brought 
        before a Consejo de Guerra on charges of ``homicidio,'' 
        ``prevaricacion por omision,'' and ``falsedad en documento'' 
        for the Mapiripan massacre. Uscategui has been re-arrested and 
        is being held in the 13th Brigade.

        4. LGeneral (ret.) Alberto Bravo Silva, Commander, 5th Brigade: 
        According to Colombia's Public Advocate, on May 29, 1999, 
        paramilitaries killed at least 20 people and abducted up to 
        fifteen more in La Gabarra (Norte de Santander). General Bravo 
        was repeatedly informed of the subsequent threats and the 
        ensuing massacres, but did not act to prevent them or to pursue 
        the perpetrators effectively once the massacre had taken place. 
        He was relieved of duty, but has not been prosecuted in a 
        civilian court for his alleged role in aiding and abetting this 
        atrocity.

        5. LGeneral (ret.) Rito Alejo del Rio, 17th Brigade: An 
        investigation was opened by Attorney General in 1998 into Del 
        Rio's support and tolerance for paramilitary activity in the 
        Uraba region in 1996 and 1997 while he was commander of the 
        17th Brigade. According to reports made by Colonel (ret.) 
        Carlos Velasquez, his chief of staff, to his superiors in 1996, 
        that Del Rio supported paramilitaries in Uraba, and maintained 
        a relationship with a retired army major who worked with 
        paramilitaries. Instead of prompting a serious investigation of 
        Del Rio, the reports prompted the army to investigate 
        Velasquez, in an apparent attempt to silence him. The army 
        concluded the inquiry by recommending not that Gen. del Rio, 
        who was later promoted, be punished, but that Colonel Velasquez 
        be disciplined for ``insubordination, [acts] against duty and 
        esprit de corps.'' Velasquez was forced to retire on January 1, 
        1997.
          L  Recent press reports indicate that an investigation was 
        opened by the Attorney General against Generals del Rio and 
        Fernando Millan in August 2000. According to these reports, 
        prosecutors charge that they attempted to present false 
        witnesses to the Attorney General to claim that a prominent 
        trade unionist and a human rights defender had paid witnesses 
        to denounce del Rio and Millan as having ties to 
        paramilitaries. These reports suggest that the Attorney General 
        suspects that, in fact, an army ``informant'' in league with 
        Del Rio and Millan paid the two false witnesses to lie to 
        authorities.

        6. LGeneral (ret.) Farouk Yanine Diaz: Gen. Yanine was arrested 
        in October 1996 for alleged complicity in the massacre of 19 
        merchants in the Middle Magdalena region in 1987. Eyewitnesses, 
        including a military officer, testified that he supported 
        paramilitaries who carried out the massacre and had operated in 
        the area since 1984, when Yanine was commander of the 14th 
        Brigade in Puerto Berrio. The paramilitary leader also 
        testified that Gen. Yanine had paid him a large sum to carry 
        out the killing. Yanine also allegedly provided paramilitaries 
        with the intelligence necessary to intercept their victims. 
        Despite compelling evidence, General Manuel Jose Bonnet, then 
        the army commander, closed the case citing a lack of evidence. 
        The Procuraduria appealed the decision on the grounds that 
        ``evidence presented against Yanine Diaz had not been taken 
        into account [the sentence] clearly deviates from the evidence 
        presented in this case.'' The U.S. State Department expressed 
        concern about the acquittal on July 1, 1997.

        7. LGeneral Rodrigo Quinones, Commander, Navy's First Brigade: 
        (See benchmarks above, under Condition (A)(ii).

        8. LGeneral Carlos Ospina Ovalle, Commander, 4th Division: (See 
        above).

        9. LBrigadier General Jaime Ernesto Canal Alban, Commander, 3rd 
        Brigade: (See above).
            The following cases should also be transferred to civilian 
                    jurisdiction:
        1. LMassacres at Trujillo (Valle del Cauca): Dozens of people 
        were killed in the municipality of Trujillo over a several year 
        period in the late 1980s and early 90s. On December 20, 1990, 
        the 3rd Brigade dropped charges that had been leveled against 
        Major Alirio Antonio Uruena Jaramillo. The sitting president 
        later cashiered him on human rights grounds. Further cases 
        arising from the Trujillo killings remain in military courts. 
        The paramilitary leader widely reported to have participated, 
        Henry Loaiza Ceballo, ``El Alacran,'' is not known to have been 
        convicted for his role in this case.

        2. LMassacre at El Caloto (Cauca): This massacre, in which 
        twenty members of Paez indigenous community were killed, was 
        carried out on December 16, 1992 by the Judicial Police. The 
        case was transferred to military jurisdiction at the end of 
        1997 and charges against the implicated officials were dropped.

        3. LMassacre at Riofrio (Valle del Cauca): Thirteen people were 
        killed in the village of El Bosque, in the Municipality of 
        Riofrio on October 5, 1993 by men in uniforms and ski masks. 
        The victims were presented as combat deaths by Battalion Palace 
        of the 3rd Brigade, based in Cali. The case was initially 
        transferred to the military court system by a 1994 CSJ 
        decision. A civilian judge then requested that the military 
        justice system transfer to him the portion of the case brought 
        against several military officials. The military justice system 
        refused to grant the transfer, and the matter returned to the 
        CSJ. In July 1998, the CSJ refused to decide the conflict on 
        the grounds that it had already decided the jurisdictional 
        question in 1994.

        4. LBlanquicet: On September 22, 1993, in the rural district of 
        Blanquicet, municipality of Turbo, in Uraba, Antioquia 
        department, members of the Colombian army killed Carlos Manuel 
        Prada and Evelio Bolano, members of the armed opposition group 
        Socialist Renovation Current, (Corriente de Renovacion 
        Socialista, CRS) who had been acting as peace negotiators. The 
        CRS later demobilized. An army captain, sergeant, and several 
        soldiers, were acquitted by the military justice system. This 
        decision was appealed by the lawyers acting for the families 
        and by the CRS on jurisdictional grounds, and they requested 
        the transfer of the case to the Attorney General in compliance 
        with the Constitutional Court's ruling. The request was 
        rejected but the rejection was appealed, whereupon the Tribunal 
        Superior Militar confirmed the decision to deny the transfer. 
        The Human Rights unit of the Fiscalia then requested the 
        transfer of the case on jurisdictional grounds, and it is now 
        before the CSJ. The case is also before the Inter-American 
        Commission, which has agreed to a `friendly settlement' on 
        condition that the criminal investigation is transferred to the 
        civilian justice system.

        5. LSan Jose de Apartado: On February 19 and July 8, 2000, 
        alleged paramilitaries killed a total of eleven civilians in 
        San Jose de Apartado. According to eyewitnesses, personnel of 
        the 17th Brigade were in the area at the time of both massacres 
        and failed to prevent or stop the killings. An army helicopter 
        allegedly belonging to the 17th Brigade hovered overhead at the 
        time of the July 8 massacre.

        6. LEl Aro: Colombian prosecutors collected evidence linking 
        the 4th Brigade, under the command of General Carlos Ospina 
        Ovalle, to the October 25, 1997, massacre committed by 
        paramilitaries in El Aro. Government documents show that a 
        joint army-paramilitary force surrounded the village and 
        maintained a perimeter while about 25 paramilitaries entered 
        the town, rounded up residents, and executed four people.
CONDITION (B): Cooperation with Civilian Authorities
    This condition requires the Secretary of State to certify that:
    (B) the Colombian Armed Forces are cooperating fully with civilian 
authorities in investigating, prosecuting, and punishing in the 
civilian courts Colombian Armed Forces personnel who are credibly 
alleged to have committed gross violations of human rights;''
                              benchmarks:
    The following benchmarks should be achieved before the Secretary of 
State issues a certification on the Colombian government's compliance 
with this condition:
    A. The United States should insist upon the capture and effective 
detention of alleged material and intellectual authors of gross human 
rights violations against whom there are arrest warrants, including 
military officers.
    B. The United States should obtain a list of outstanding arrest 
warrants issued by the Fiscalia relating to human rights cases. The 
U.S. Embassy should update it at three-month intervals, and distribute 
it promptly to the appropriate congressional committees and the human 
rights groups included in the consultation process required for 
certification. New cases should be included as well as developments in 
existing cases, in particular, whether the security forces are taking 
concrete measures to execute these warrants. The execution of arrest 
warrants should be sorted according to the security force units to 
which they refer.
    C. The United States should require that Colombia take effective 
measures to protect civilian investigators and prosecutors from threats 
that impede their work.
    D. There should be significant and measurable progress, including 
the execution of outstanding arrest warrants and the transfer to 
civilian courts of the prosecutions of implicated security force 
officers, of the following benchmark cases:

         1. LAlirio de Jesus Pedraza Becerra: Pedraza, a lawyer with 
        the Committee of Solidarity with Political Prisoners (Comite de 
        Solidaridad con Presos Politicos, CSPP), was ``disappeared'' by 
        eight heavily armed men on July 4, 1990. His whereabouts have 
        never been determined. At the time, he was representing the 
        family members of scores of peasants killed when the Luciano 
        D'Eluyart Battalion opened fire on a protest march in 1988 in 
        Llano Caliente, Santander. We are not aware of any arrests in 
        this case.

         2. LBlanca Cecilia Valero de Duran, CREDHOS: This human rights 
        defender belonging to the Regional Human Rights Committee for 
        the Defence of Human Rights (Comite Regional para la Defensa de 
        los Derechos Humanos, CREDHOS) was shot and killed on January 
        29, 1992 in Barrancabemeja, Santander. The then Colonel Rodrigo 
        Quinones Cardenas, director of intelligence for Colombian Navy 
        Intelligence Network 7, was believed responsible for her murder 
        and scores of other political killings by government 
        investigators. Nevertheless, Quinones was acquitted by a 
        military tribunal, although the Fiscalia named him as the 
        ``unequivocal'' intellectual author. He remains on active duty. 
        Two people were convicted in the killing.

         3. LOscar Elias Lopez, CRIC: This human rights lawyer had been 
        advising the Indigenous Regional Council of Cauca, (Consejo 
        Regional Indigena del Cauca, CRIC). He was killed in Santander 
        de Quilchao by heavily armed men on May 29, 1992.

         4. LJulio Cesar Berrio, CREDHOS: He was a security guard 
        employed by CREDHOS, also involved in a CREDHOS investigation. 
        Shot dead on June 28, 1992, allegedly by men working for Navy 
        Intelligence Director Colonel Quinones.

         5. LLigia Patricia Cortez Colmenares, CREDHOS: Cortez, an 
        investigator with CREDHOS, was killed on July 30,1992, 
        alongside several union members. We are not aware of any 
        arrests in this case.

         6. LJairo Barahona Martinez, Curumani Human Rights Committee: 
        This activist was killed on September 29, 1994 in Curumani, 
        Cesar following his abduction and torture. According to members 
        of human rights organizations who collected information and 
        pressed for a proper judicial investigation into the killing, 
        members of the security forces were implicated in the 
        assassination. No one has been brought to justice.

         7. LErnesto Emilio Fernandez, human rights defender: He was 
        shot while driving home with his children on February 20, 1995. 
        We are not aware of any arrests in this case.

         8. LJavier Alberto Barriga Vergal, CSPP: This human rights 
        lawyer was killed in Cucuta on June 16, 1995. We are not aware 
        of any arrests in this case.

         9. LJosue Giraldo Cardona, co-founder and president of the 
        Meta Civic Committee for Human Rights: Giraldo was killed on 
        October 13, 1996 after months of alleged harassment and threats 
        by paramilitaries and military intelligence officers working 
        for the 7th Brigade, then commanded by General Rodolfo Herrera 
        Luna.

        10. LElsa Alvarado and Mario Calderon, CINEP: Alvarado and 
        Calderon were investigators with the Center for Research and 
        Popular Education (Centro de Investigacion y Educacion Popular, 
        CINEP). On May 19, 1997 a group of masked gunmen forced their 
        way into Alvarado and Calderon's apartment, killing Elsa, 
        Mario, and Elsa's father. Although some material authors of the 
        crime are under arrest, the intellectual authors remain at 
        large. Arrest warrants have been issued for Fidel and Carlos 
        Castano as the intellectual authors of the killings.

        11. LJesus Maria Valle Jaramillo, ``Hector Abad Gomez'' 
        Permanent Committee for the Defense of Human Rights: Valle was 
        assassinated on February 27, 1998 by unidentified gunmen, after 
        repeatedly denouncing military / paramilitary links. Formal 
        criminal charges were brought by the Attorney General's office 
        against paramilitary leader Carlos Castano and eight others. 
        Six paramilitaries are currently detained. Despite strong 
        indications of military involvement in the crime, no formal 
        investigation has been opened against military personnel.

        12. LEduardo Umana, human rights lawyer: Umana was killed in 
        Bogota on April 18, 1998. Several alleged gunmen are either 
        under arrest or wanted for extradition. Shortly before his 
        murder he had denounced the role of a military intelligence 
        unit in paramilitary activity and human rights violations. The 
        intellectual authors remain at large.

        13. LJorge Ortega, union leader: This union leader and human 
        rights defender was killed in Bogota on October 20, 1998. Two 
        former police officers have been implicated in the attack and 
        are in prison. However, the intellectual authors remain 
        unidentified.

        14. LEverardo de Jesus Puertas and Julio Ernesto Gonzalez, 
        CSPP: Puertas and Gonzalez, lawyers with the CSPP, were shot 
        dead on January 30, 1999, as they traveled by bus from Medellin 
        to Bogota. We are not aware of any arrests in this case.

        15. LDario Betancourt, academic: Betancourt, a professor at 
        Bogota's Universidad Pedagogica Nacional, was forcibly 
        disappeared on May 2, 1999, and his body was found on September 
        2, 1999. There have been no arrest warrants issued in this 
        case.

        16. LHernan Henao, academic: Henao, the Director of the 
        University of Antioquia's Regional Studies Institute, was 
        killed on May 4, 1999. There have been no arrest warrants 
        issued in this case.

        17. LGuzman Quintero Torres, journalist: Quintero, a journalist 
        who had investigated reports of corruption within the Armed 
        Forces, was killed on September 16, 1999, in Valledupar 
        (Cesar). The Attorney General's Office detained two 
        paramilitaries allegedly involved in the killing, but the 
        intellectual authors have not been identified.

        18. LJesus Antonio Bejarano, academic: Bejarano, a former 
        government official involved in the peace talks with the FARC, 
        was killed on September 16, 1999. There have been no arrest 
        warrants issued in this case.

        19. LAlberto Sanchez Tovar and Luis Alberto Rincon Solano, 
        journalists: Journalists Sanchez and Rincon were allegedly 
        detained and executed by paramilitaries on November 28, 1999, 
        in El Playon (Santander), while covering municipal elections. 
        Three paramilitary gunmen have been arrested, but the 
        intellectual authors remain unidentified.

        20. LJairo Bedoya Hoyos, indigenous activist: Bedoya, a member 
        of the Indigenous Organization of Antioquia (Organizacion 
        Indigena de Antioquia, OIA), was abducted on March 2, 2000. 
        There have been no arrests in this case.

        21. LMargarita Maria Pulgarin Trujillo, Fiscalia: Pulgarin, a 
        prosecutor specializing in investigating links between the 
        military and paramilitary groups, was killed in Medellin on 
        April 3, 2000. No arrest warrants have been issued in this 
        case.

        22. LJesus Ramiro Zapata Hoyos, Segovia Human Rights Committee: 
        Zapata, the leader of an umbrella organization of human rights 
        groups, was abducted and killed on May 3, 2000 in Segovia, 
        Antioquia. The day he was abducted, Zapata had reported to 
        local authorities that paramilitaries had been seeking 
        information on his whereabouts. Paramilitaries had occupied the 
        area the month before.

        23. LElizabeth Canas Cano, Association of Family Members of the 
        Detained and Disappeared, ASFADDES: Canas, an ASFADDES 
        (Asociacion de Familiares de Detenidos Desaparecidos-Colombia) 
        member, was shot dead near her office on June 11, 2000. She had 
        lost relatives in the 1998 Barrancabermeja massacre. Witnesses 
        to the massacre and other ASFADDES members are currently in 
        grave danger of further attacks.
            In addition, we call for progress on the following cases 
                    involving kidnappings, attacks, and death threats:

        24. LJairo Bedoya, Olga Rodas, Jorge Salazar, and Claudia 
        Tamayo, IPC: These four human rights workers belonging to the 
        Institute for Popular Training (Instituto Popular de 
        Capacitacion, IPC) based in Medellin, Antioquia were abducted 
        from their offices on January 28, 1999 by an armed gang. 
        Several days later paramilitary commander Carlos Castano 
        claimed responsibility for the kidnappings, claiming the four 
        as ``prisoners of war.'' He remains at large.

        25. LPiedad Cordoba de Castro, Senator: On May 21, 1999 
        Cordoba, Liberal Party Senator and president of the Senate's 
        Human Rights Commission, was abducted in Medellin by a group of 
        fifteen armed men. The next day, paramilitary leader Carlos 
        Castano issued a public statement claiming responsibility for 
        the abduction. She was later released.

        26. LDiana Salamanca Martinez, Justice and Peace: Salamanca, a 
        human rights worker, was abducted on November 10, 1999 by 
        paramilitary forces in Dabeiba, Antioquia. Three days later, 
        following a national and international outcry, Salamanca was 
        released to church workers in Necocli, Antioquia. She reports 
        having been transported overland in a truck, passing unhindered 
        through various military and police checkpoints. We are not 
        aware of any arrests.

        27. LSan Jose de Apartado: On February 19 and July 8, 2000, 
        alleged paramilitaries killed 11 civilians in San Jose de 
        Apartado. According to eyewitnesses, personnel of the 17th 
        Brigade were in the area at the time of both massacres and 
        failed to prevent or stop the killings. An army helicopter 
        allegedly belonging to the 17th Brigade hovered overhead at the 
        time of the July 8 massacre.

        28. LEl Aro: Colombian prosecutors collected evidence linking 
        the 4th Brigade, under the command of General Carlos Ospina 
        Ovalle, to the October 25, 1997, massacre committed by 
        paramilitaries in El Aro. Government documents show that a 
        joint Army-paramilitary force surrounded the village and 
        maintained a perimeter while about 25 paramilitaries entered 
        the town, rounded up residents, and executed four people.
CONDITION (C): Prosecution for Paramilitary Activities
    This condition requires that the Secretary of State certify that:
    ``(C) The Government of Colombia is vigorously prosecuting in the 
civilian courts the leaders and members of paramilitary groups and 
Colombian Armed Forces personnel who are aiding or abetting these 
groups.''
                              benchmarks:
    The following benchmarks should be achieved before the Secretary of 
State issues a certification of the Colombian government's compliance 
with this condition:
    A. The ``Coordination Center for the Fight against Self-Defense 
Groups'' should present to the public a comprehensive plan that is 
fully funded and includes a long-term and politically feasible strategy 
to disband paramilitary groups and execute outstanding arrest warrants.
    B. The United States should obtain a list of the names of 
paramilitary leaders and members who have been indicted, arrested, and 
prosecuted since August 1997; a description of the charges brought; and 
the disposition of the cases. The US Embassy should update it at three-
month intervals, and distribute it promptly to the appropriate 
congressional committees and the human rights groups included in the 
consultation process required for certification. Included should be new 
cases and developments in existing cases, with particular emphasis on 
whether or not the security forces are taking concrete measures to 
execute warrants. Information regarding the execution of arrest 
warrants should be sorted according to the security force units to 
which they refer
    C. The United States should obtain a list of the names and ranks of 
Colombian armed forces personnel who have been brought to justice in 
civilian courts since August 1997 for aiding or abetting paramilitary 
groups, including a description of the charges brought and the 
disposition of the cases. The US Embassy should update it at three-
month intervals, and distribute it promptly to the appropriate 
congressional committees and the human rights groups included in the 
consultation process required for certification. Included should be new 
cases and developments in existing cases, with particular emphasis on 
whether or not the security forces are cooperating with the execution 
of arrest warrants. The execution of arrest warrants should be sorted 
according to the security force units to which they refer.
    D. The United States should require the investigation and, as 
appropriate, arrest and prosecution in civilian courts of the following 
military personnel. They have yet to be investigated and brought to 
trial under civilian jurisdiction despite credible allegations of their 
participation in gross human rights violations and/or support for 
paramilitary activity:

         1. LGeneral (ret.) Fernando Millan, former Commander, 5th 
        Brigade: The Fiscalia opened an investigation of General Millan 
        based on evidence indicating that he set up the Las Colonias 
        CONVIVIR in Lebrija, Santander, while he commanded the Fifth 
        Brigade. The Las Colonias CONVIVIR operated throughout 1997 
        without a license but with army support according to the 
        testimony of former members. According to residents and 
        victims' families, the group committed at least fifteen 
        targeted killings before the director, ``Commander Canon,'' a 
        retired army officer, and the employees he hired were arrested 
        and prosecuted under Decree 1194, which prohibits the formation 
        of paramilitary groups. Among the cases currently under 
        investigation by the Attorney General's Office are the killings 
        of two Protestants, brothers Oscar and Armando Beltran Correa, 
        taken captive by the Las Colonias CONVIVIR as they headed to 
        work on July 29, 1997 and killed on the road leading from 
        Lebrija to the hamlet of La Puente. Apparently, the CONVIVIR 
        accused them of passing information to the guerrillas. On 
        September 4, 1997, father and son Leonardo and Jose Manuel 
        Cadena were forced out of their home by CONVIVIR members and 
        killed according to a family member's testimony to the Attorney 
        General's Office, apparently because the CONVIVIR accused the 
        Cadenas of bringing food to guerrillas. According to a former 
        CONVIVIR member who was also an army informant, during its 
        months of operation, the Las Colonias CONVIVIR went on frequent 
        operations with army units, setting up roadblocks and detaining 
        suspected guerrillas and criminals. When the Attorney General's 
        Office investigated the case, the army high command prevented 
        prosecutors from questioning Millan, then interposed a 
        jurisdictional dispute, claiming that since Millan was on 
        active service and carrying out his official duties, the case 
        should be tried before a military tribunal. Following a 
        decision by the CSJ, the case was transferred to the military 
        justice system in October 1998. A prosecutor assigned to 
        investigate the May 1998 massacre of 11 people in 
        Barrancabermeja fled the country after receiving threats from 
        General Millan, then-Commander of the 5th Brigade. Nine members 
        of the military and police were disciplined in connection with 
        the massacre, but there have been no civilian prosecutions. 
        General Millan has not been brought to justice in the civilian 
        justice system.

         2. LMajor Jesus Maria Clavijo, 4th Brigade: In March 2000, 
        Major Clavijo was relieved of command pending the outcome of 
        his trial on charges of helping form and direct paramilitary 
        groups during his service with the 4th Brigade. Eyewitnesses 
        have linked Clavijo and other 4th Brigade officers to 
        paramilitaries through regular meetings held on military bases. 
        An investigation by the Internal Affairs agency (Procuraduria) 
        listed hundreds of cellular telephone and beeper communications 
        between known paramilitaries and 4th Brigade officers, among 
        them Clavijo. On May 11, 2000, the Attorney General received a 
        jurisdictional dispute from the military judge handling the 
        case. The case is now pending before the CSJ.

         3. LGeneral (ret.) Jaime Uscategui, 7th Brigade: Dozens of 
        civilians were killed by paramilitaries and hundreds were 
        forced to flee for their lives from Mapiripan, Meta, in July 
        1997. For five days, paramilitaries acting with the support of 
        the army detained residents and people arriving by boat, took 
        them to the local slaughterhouse, then bound, tortured, and 
        executed them by slitting their throats. Local army and police 
        units ignored repeated phone calls from a civilian judge in the 
        area asking for help to stop the slayings. At least two 
        bodies--those of Sinai Blanco, a boatman, and Ronald Valencia, 
        the airstrip manager--were decapitated. Judge Leonardo Ivan 
        Cortes reported hearing the screams of the people they brought 
        to the Slaughterhouse to interrogate, torture, and kill. In one 
        of the missives he sent to various regional authorities during 
        the massacre, he wrote: ``Each night they kill groups of five 
        to six defenseless people, who are cruelly and monstrously 
        massacred after being tortured. The screams of humble people 
        are audible, begging for mercy and asking for help.'' Hundreds 
        of people fled the region, including Judge Cortes, who was 
        forced to leave Colombia with his family because of threats on 
        his life.
           L  Subsequent investigations revealed that troops under the 
        command of Uscategui, then in charge of the 7th Brigade, 
        assisted the paramilitaries during their arrival at the nearest 
        airport, and made sure that troops able to combat 
        paramilitaries were engaged elsewhere. In an attempt to cover 
        up his responsibility, Uscategui tried to falsify documents 
        reporting the massacre. As a result of their internal 
        investigation, the army put Gen. Uscategui on administrative 
        duty for failing to act promptly to stop the massacre and 
        detain those responsible. However, the CSJ later ruled that the 
        case involved an ``act of omission'' and belonged before a 
        military court. Uscategui later retired, and has yet to be 
        prosecuted in civilian courts for his alleged crimes. 
        Subsequently, the military reopened the case and announced that 
        Uscategui would be brought before a Consejo de Guerra on 
        charges of ``homicidio,'' ``prevaricacion por omision,'' and 
        ``falsedad en documento'' for the Mapiripan massacre. Uscategui 
        has been re-arrested and is held in the 13th Brigade.

         4. LGeneral (ret.) Alberto Bravo Silva, Commander, 5th 
        Brigade: According to Colombia's Public Advocate, on May 29, 
        1999, paramilitaries killed at least 20 people and abducted up 
        to fifteen more in La Gabarra (Norte de Santander). General 
        Bravo was repeatedly informed of the subsequent threats and the 
        ensuing massacres, but did not act to prevent them or to pursue 
        the perpetrators effectively once the massacre had taken place. 
        He was relieved of duty, but was not prosecuted in civilian 
        courts for his alleged role in aiding and abetting this 
        atrocity.

         5. LGeneral (ret.) Rito Alejo del Rio, 17th Brigade: An 
        investigation was opened by Fiscalia in 1998 into Del Rio's 
        support and tolerance for paramilitary activity in the Uraba 
        region in 1996 and 1997 while he was commander of the 17th 
        Brigade. According to reports made by Colonel (ret.) Carlos 
        Velasquez, his chief of staff, to his superiors in 1996, that 
        Del Rio supported paramilitaries in Uraba, and maintained a 
        relationship with a retired army major who worked with 
        paramilitaries. Instead of prompting a serious investigation of 
        Del Rio, the reports prompted the army to investigate 
        Velasquez, in an apparent attempt to silence him. The army 
        concluded the inquiry by recommending not that Gen. del Rio, 
        who was later promoted, be punished, but that Colonel Velasquez 
        be disciplined for ``insubordination, [acts] against duty and 
        esprit de corps.'' Velasquez was forced to retire on January 1, 
        1997.
           L  Very recent press reports indicate that an August 2000 
        investigation was opened by the Fiscalia against Generals del 
        Rio and Fernando Millan. According to these reports, 
        prosecutors charged that they had attempted to present false 
        witnesses to the Fiscalia to claim that a prominent trade 
        Unionist and a human rights defender had themselves paid 
        witnesses to denounce del Rio and Millan for ties to 
        paramilitaries. These reports indicate that the Fiscalia 
        believes that, in fact, an army ``informant'' in league with 
        Del Rio and Millan paid the two false witnesses to lie to 
        authorities.

         6. LGeneral (ret.) Farouk Yanine Diaz: Gen. Yanine was 
        arrested in October 1996 for alleged complicity in the massacre 
        of 19 merchants in the Middle Magdalena region in 1987. 
        Eyewitnesses, including a military officer, testified that he 
        supported paramilitaries who carried out the massacre and had 
        operated in the area since 1984, when Yanine was commander of 
        the 14th Brigade in Puerto Berrio. The paramilitary leader also 
        testified that Gen. Yanine had paid him a large sum to carry 
        out the killing. Yanine also allegedly provided paramilitaries 
        with the intelligence necessary to intercept their victims. 
        Despite abUNdant evidence, General Manuel Jose Bonnet, at the 
        time commander of the Army, closed the case for alleged lack of 
        evidence. The Procuraduria appealed the decision on the grounds 
        that ``evidence presented against Yanine Diaz had not been 
        taken into account [the sentence] clearly deviates from the 
        evidence presented in this case.'' The Department of State 
        expressed concern about the acquittal on July 1, 1997.

         7. LGeneral Rodrigo Quinones, Commander, Navy's 1st Brigade: 
        Colombian government investigators linked Quinones to at least 
        57 murders of trade unionists, human rights workers, and 
        community leaders in 1991 and 1992, when he was head of Navy 
        Intelligence and ran Network 3, based in Barrancabermeja. A 
        military tribunal decided that there was insufficient evidence 
        against him, but he has not been brought to trial in the 
        civilian justice system. The only people to be convicted for 
        these crimes were two civilian employees of Naval Intelligence 
        Network No. 7, one of whom was later murdered in prison. In his 
        ruling on the case, the civilian judge stated that he was 
        ``perplexed'' by the military tribunal's acquittals of Quinones 
        and others, since he considered the evidence against them to be 
        ``irrefutable.'' ``With [this acquittal] all that [the 
        military] does is justify crime, since the incidents and the 
        people responsible for committing them are more than clear.'' 
        This judge also discounted the military's contention that 
        Quinones was the victim of a smear campaign by drug 
        traffickers, concluding that there was no evidence to support 
        this claim. To the contrary, he concluded that evidence linking 
        Quinones to the Barrancabermeja atrocities was clear and 
        compelling.
           L  The only punishment meted out to Quinones so far has been 
        a ``severe reprimand'' ordered by the Procuraduria General de 
        la Nacion, which concluded that he was responsible for the 
        deaths. In a disputable interpretation of existing norms, the 
        Procuraduria has determined that murder is not classified as an 
        administrative infraction in the existing regulations. 
        Therefore, the maximum punishment it can impose for murder is a 
        ``severe reprimand,'' essentially a letter in an employment 
        file. It is important to note that the Procuraduria itself has 
        termed this absurd punishment ``embarrassingly insignificant, 
        both within the national sphere and before the international 
        community.'' Quinones is also the officer in charge of the 
        region at the time of the February 2000 massacre in El Salado 
        (Bolivar). Military and police units stationed nearby failed to 
        stop the killing and established roadblocks which prevented 
        human rights and relief groups from entering the town. Quinones 
        was promoted to General in June 2000.

         8. LGeneral Carlos Ospina Ovalle, Commander, 4th Division: 
        Colombia's Attorney General's Office has documented extensive 
        ties between the 4th Brigade and paramilitary groups between 
        1997 and 1999, while General Ospina was in command. Among the 
        cases that implicate Ospina is the October 1997 El Aro 
        massacre. Government documents show that a joint army-
        paramilitary force surrounded the village and maintained a 
        perimeter while about 25 paramilitaries entered the town, 
        rounded up residents, and executed four people.

         9. LBrigadier General Jaime Ernesto Canal Alban, Commander, 
        3rd Brigade: Colombian government investigators found evidence 
        that, in 1999, while Brig. Gen. Canal Alban was in command, the 
        3rd Brigade set up a paramilitary group and provided them with 
        weapons and intelligence.

        10. LGeneral Jaime Humberto Cortes Parada, Inspector General of 
        the Army: the Fiscalia collected compelling and abundant 
        evidence indicating that under his command at the 3rd Division, 
        the Army's 3rd Brigade set up a ``paramilitary'' group in the 
        department of Valle del Cauca, in southern Colombia. 
        Investigators were able to link the group to active duty, 
        retired, and reserve military officers and the ACCU (See 
        below);

        11. LGeneral Freddy Padilla Leon, Commander of the II Division, 
        and Colonel Gustavo Sanchez Gutierrez, Army Personnel Director: 
        In July 2000, the press widely reported that the Procuraduria 
        formally charged (pliego de cargos) General Jaime Humberto 
        Cortes Parada and these two officers with ``omission'' in 
        connection with the massacre of Puerto Alvira in June 1997. Two 
        other generals who also face disciplinary charges, for 
        ``omission''--Generals Jaime Humberto Uscategui and Agustin 
        Ardila Uribe--are already retired.

    E. Investigation and, as appropriate, arrest and prosecution of the 
following paramilitary leaders and members:

        1. LCarlos Castano Gil, leader of the Peasant Self-Defense 
        Force of Cordoba and Uraba (ACCU): Castano has twenty-two 
        outstanding arrest warrants, including one relating to the 
        killings of human rights defenders. He has been implicated in 
        the death of political satirist Jaime Garzon, whom he allegedly 
        threatened and he claimed responsibility for the death of 
        University of Antioquia student Gustavo Marulanda. Castano has 
        repeatedly threatened to have his forces continue the May 2000 
        massacres in La Gabarra (Norte de Santander) until the area is 
        ``cleansed'' of guerrillas. Despite Castano's public 
        appearances, including a television appearance in March 2000, 
        Colombian law enforcement agencies have not executed warrants 
        for his arrest.

        2. LFidel Castano Gil, Los Tangueros: Although the Castano 
        family claims that Fidel is dead, there is no confirmation of 
        this. Meanwhile, the Fiscalia continues to bring charges and 
        sentences against him, and he should at the present be 
        considered a fugitive.

        3. LAlexander ``El Zarco'' Londono, Las Terrazas: Londono is 
        the head of a group of professional killers that works with 
        Carlos Castano and is wanted in connection with a series of 
        killings and kidnappings, including the 1999 IPC kidnapping, 
        carried out on the orders of the ACCU. There are several 
        warrants for his arrest.

        4. LJulian Duque, Bolivar: Duque is the paramilitary leader of 
        the Autodefensas del Sur de Bolivar and is wanted for 
        organizing paramilitary groups.

        5. LGabriel Salvatore ``El Mono'' Mancuso Gomez, ACCU: Mancuso 
        has eight arrest warrants outstanding against him, including 
        one related to the 1997 El Aro massacre, carried out in 
        coordination with the 4th Brigade.

        6. LRamon Isaza Arango, Middle Magdalena: A veteran 
        paramilitary leader, Isaza is wanted for paramilitary activity 
        in the region surrounding Barrancabermeja.

        7. LLuis Eduardo ``El Aguila'' Cifuentes Galindo, Cundinamarca: 
        Cifuentes is the paramilitary leader of the Autodefensas de 
        Cundinamarca and is wanted for organizing paramilitary groups.

        8. LDiego Fernando Murillo Bejerano: Murillo is not directly 
        associated with the military wing of the ``self-defense 
        forces,'' instead playing a white-collar financial role. He is 
        allegedly responsibly for a series of kidnappings in and around 
        Medellin, carried out in association with the AUC. The Attorney 
        General reportedly also suspects him of being the 
        ``intellectual author'' of the murder of Mario Calderon and 
        Elsa Alvarado.

    F. Investigation and, as appropriate, arrest and prosecution of 
paramilitaries believed to be involved in the following human rights 
cases:

         1. LAlirio de Jesus Pedraza Becerra: Pedraza, a lawyer with 
        the Committee of Solidarity with Political Prisoners (Comite de 
        Solidaridad con Presos Politicos, CSPP), was ``disappeared'' by 
        eight heavily armed men on July 4, 1990. His whereabouts have 
        never been determined. At the time, he was representing the 
        family members of scores of peasants killed when the Luciano 
        D'Eluyart Battalion opened fire on a protest march in 1988 in 
        Llano Caliente, Santander. We are not aware of any arrests in 
        this case.

         2. LBlanca Cecilia Valero de Duran, CREDHOS: This human rights 
        defender belonging to the Regional Human Rights Committee for 
        the Defence of Human Rights (Comite Regional para la Defensa de 
        los Derechos Humanos, CREDHOS) was shot and killed on January 
        29, 1992 in Barrancabemeja, Santander. The then Colonel Rodrigo 
        Quinones Cardenas, director of intelligence for Colombian Navy 
        Intelligence Network 7, was believed responsible for her murder 
        and scores of other political killings by government 
        investigators. Nevertheless, Quinones was acquitted by a 
        military tribunal, although the Fiscalia named him as the 
        ``unequivocal'' intellectual author. He remains on active duty. 
        Two people were convicted in the killing.

         3. LOscar Elias Lopez, CRIC: This human rights lawyer had been 
        advising the Indigenous Regional Council of Cauca, (Consejo 
        Regional Indigena del Cauca, CRIC). He was killed in Santander 
        de Quilchao by heavily armed men on May 29, 1992.

         4. LJulio Cesar Berrio, CREDHOS: He was a security guard 
        employed by CREDHOS, also involved in a CREDHOS investigation. 
        He was shot dead on June 28, 1992, allegedly by men working for 
        Navy Intelligence Director Colonel Quinones.

         5. LLigia Patricia Cortez Colmenares, CREDHOS: Cortez, an 
        investigator with CREDHOS, was killed on July 30,1992, 
        alongside several Union members. We are not aware of any 
        arrests in this case.

         6. LJairo Barahona Martinez, Curumani Human Rights Committee: 
        This activist was killed on September 29, 1994 in Curumani, 
        Cesar following his abduction and torture. According to members 
        of human rights organizations who collected information and 
        pressed for a proper judicial investigation into the killing, 
        members of the security forces were implicated in the 
        assassination. No one has been brought to justice.

         7. LErnesto Emilio Fernandez, human rights defender: He was 
        shot while driving home with his children on February 20, 1995. 
        We are not aware of any arrests in this case.

         8. LJavier Alberto Barriga Vergal, CSPP: This human rights 
        lawyer was killed in Cucuta on June 16, 1995. We are not aware 
        of any arrests in this case.

         9. LJosue Giraldo Cardona, co-founder and president of the 
        Meta Civic Committee for Human Rights: Giraldo was killed on 
        October 13, 1996 after months of alleged harassment and threats 
        by paramilitaries and military intelligence officers working 
        for the 7th Brigade, then commanded by General Rodolfo Herrera 
        Luna.

        10. LElsa Alvarado and Mario Calderon, CINEP: Alvarado and 
        Calderon were investigators with the Center for Research and 
        Popular Education (Centro de Investigacion y Educacion Popular, 
        CINEP). On May 19, 1997 a group of masked gunmen forced their 
        way into Alvarado and Calderon's apartment, killing Elsa, 
        Mario, and Elsa's father. Although some material authors of the 
        crime are under arrest, the intellectual authors remain at 
        large. Arrest warrants have been issued for Fidel and Carlos 
        Castano as the intellectual authors of the killings.

        11. LJesus Maria Valle Jaramillo, ``Hector Abad Gomez'' 
        Permanent Committee for the Defense of Human Rights: Valle was 
        assassinated on February 27, 1998 by unidentified gunmen, after 
        repeatedly denouncing military / paramilitary links. Formal 
        criminal charges were brought by the Attorney General's office 
        against paramilitary leader Carlos Castano and eight others. 
        Six paramilitaries are currently detained. Despite strong 
        indications of military involvement in the crime, no formal 
        investigation has been opened against military personnel.

        12. LEduardo Umana, human rights lawyer: Umana was killed in 
        Bogota on April 18, 1998. Several alleged gunmen are either 
        under arrest or wanted for extradition. Shortly before his 
        murder he had denounced the role of a military intelligence 
        unit in paramilitary activity and human rights violations. The 
        intellectual authors remain at large.

        13. LJorge Ortega, union leader: This union leader and human 
        rights defender was killed in Bogota on October 20, 1998. Two 
        former police officers have been implicated in the attack and 
        are in prison. However, the intellectual authors remain 
        unidentified.

        14. LEverardo de Jesus Puertas and Julio Ernesto Gonzalez, 
        CSPP: Puertas and Gonzalez, lawyers with the CSPP, were shot 
        dead on the January 30, 1999, as they traveled by bus from 
        Medellin to Bogota. We are not aware of any arrests in this 
        case.

        15. LDario Betancourt, academic: Betancourt, a professor at 
        Bogota's Universidad Pedagogica Nacional, was forcibly 
        disappeared on May 2, 1999, and his body was found on September 
        2, 1999. There have been no arrest warrants issued in this 
        case.

        16. LHernan Henao, academic: Henao, the Director of the 
        University of Antioquia's Regional Studies Institute, was 
        killed on May 4, 1999. There have been no arrest warrants 
        issued in this case.

        17. LGuzman Quintero Torres, journalist: Quintero, a journalist 
        who had investigated reports of corruption within the armed 
        forces, was killed on September 16, 1999, in Valledupar 
        (Cesar). The Attorney General's Office detained two 
        paramilitaries allegedly involved in the killing, but the 
        intellectual authors have not been identified.

        18. LJesus Antonio Bejarano, academic: Bejarano, a former 
        government official involved in the peace talks with the FARC, 
        was killed on September 16, 1999. There have been no arrest 
        warrants issued in this case.

        19. LAlberto Sanchez Tovar and Luis Alberto Rincon Solano, 
        journalists: Journalists Sanchez and Rincon were allegedly 
        detained and executed by paramilitaries on November 28, 1999, 
        in El Playon (Santander), while covering municipal elections. 
        Three paramilitary gunmen have been arrested, but the 
        intellectual authors remain unidentified.

        20. LJairo Bedoya Hoyos, indigenous activist: Bedoya, a member 
        of the Indigenous Organization of Antioquia (Organizacion 
        Indigena de Antioquia, OIA), was abducted on March 2, 2000. 
        There have been no arrests in this case.

        21. LMargarita Maria Pulgarin Trujillo, Fiscalia: Pulgarin, a 
        prosecutor specializing in investigating links between the 
        military and paramilitary groups, was killed in Medellin on 
        April 3, 2000. No arrest warrants have been issued in this 
        case.

    Mr. Ballenger. Thank you. We will now recognize Mr. Michael 
Shifter, senior fellow at the Inter-American Dialogue.

  STATEMENT OF MICHAEL SHIFTER, SENIOR FELLOW, INTER-AMERICAN 
                            DIALOGUE

    Mr. Ballenger. Now today, I understand you may be wearing 
two hats. I understand you have also been serving as the 
project director for the independent private task force on 
Colombia cosponsored by both the Dialogue and the Council or 
Foreign Relations. Is there a report coming out on your work?
    Mr. Shifter. Yes, Mr. Chairman. We hope to have it in 
several weeks.
    Mr. Ballenger. Good. I look forward to hearing your report.
    Mr. Shifter. I would like to submit my written testimony 
for the record please.
    Mr. Ballenger. Without objection.
    Mr. Shifter. I very much appreciate the opportunity to 
testify at this important hearing. The recently approved aid 
package to Colombia is a first step for the United States to 
begin to help Colombia turn around its deterioration. It offers 
an opportunity to devise a broader, longer-term strategy toward 
that country. That is what can best advance U.S. interests and 
values. The United States has a lot at stake in Colombia.
    The aid package, though, is not enough. It responds to a 
desire to ``do something'' about drugs and drug-fueled violence 
at home and in Colombia. But it does not adequately respond to 
Colombia's many crises and does not reflect a clear strategy. 
We should not be under any illusions that the package will make 
a dent in the serious drug problem here.
    What is needed, I believe, is a broader, longer term policy 
that moves beyond the aid package and moves beyond fighting 
drugs. A sound policy should deal with Colombia's underlying 
problems. The country is experiencing rampant lawlessness and 
insecurity. 70 percent of the world's kidnappings take place in 
Colombia. U.S. policy should be designed fundamentally to help 
Colombians address their urgent security crisis. The government 
cannot now protect its citizens, and it is hard to imagine how 
it can deal with any other problem without first performing 
this essential government function. Colombia cannot make any 
progress on any front in such a climate of chaos and 
insecurity. Drugs are, to be sure, an important dimension of 
Colombia's crisis, but the core problem is one of state 
authority and governance.
    As a central element of a longer term strategy, the United 
States, I believe, should give priority attention to working 
closely with the Colombians to help professionalize the Army 
and the police. Professionalization means two things: One, 
greater effectiveness, and two, strict adherence to human 
rights standards. The focus should be on training security 
forces against all actors who violate the law in Colombia. This 
includes the FARC, the ELN, paramilitary forces and criminals; 
all of them represent significant threats to Colombia's 
democratic system and the rule of law.
    In light of President Pastrana's commitment to a peace 
process and to a political solution to the armed conflict, such 
a strategy should be aimed an enhancing the likelihood of 
achieving a negotiated settlement. We know that so far the 
process has yielded few, if any, tangible results. But the 
purpose behind our assistance should be to help level the 
playing field which would change the calculations of the FARC, 
make them more inclined to negotiate seriously in good faith. 
The overarching aim should be a political solution. If this 
purpose is kept in mind, there is no contradiction at all in my 
judgment, Mr. Chairman, between a well-targeted security 
assistance on the one hand, and active support for Colombia's 
peace process on the other. On the contrary, if done well, 
these tracks are mutually reinforcing.
    Many critics have pointed out with some reason that U.S. 
assistance carries many risks. The assistance could drag the 
United States into a quagmire and could also associate the 
United States with a military that has had a problematic human 
rights record and has been tainted by links with paramilitary 
forces. Such risks are real but can and should be faced 
directly and held in check. What many critics fail to 
acknowledge in my judgment is that the risks of not providing 
security assistance to Colombia are even greater than the risks 
of doing so. It is essential to deal with Colombia's security 
crisis, otherwise, the dirty war that is already under way 
could get dirtier still.
    Professionalization is only, of course, one element, one 
track of what must be a broader longer-term policy. The United 
States must fashion a comprehensive strategy that addresses 
Colombia's multiple problems on all fronts, including support 
for institutional reforms (especially judicial reform), 
humanitarian assistance, alternative development efforts, and 
economic and trade benefits.
    In short, U.S. policy toward Colombia must be multitrack. 
The challenge today is to go beyond the aid package's emphasis 
on military support aimed at fighting drugs. The United States 
has the opportunity and the responsibility to engage in a 
stronger multilateral approach in such areas as illegal 
narcotics, on the political and diplomatic fronts and on 
economic and financial matters.
    Specifically, the United States should extend full support 
to the promising initiative on illegal narcotics being 
undertaken by the Organization of American States. The United 
States should back the important role that the United Nations 
is playing in pursuing peace and protecting human rights. We 
need to mobilize more support from the financial institutions 
for development efforts to help Colombia. And Congress should 
do what it can to ensure that Colombian products have access to 
U.S. markets. The benefits should be comparable to those 
provided in the Caribbean Basin Initiative.
    Such an approach would send a positive signal at a critical 
moment. It would be favored by most Colombians and would also 
have the advantage of being supported by other Latin American 
and European governments. Their constructive participation in 
what must be a collective effort to get behind Colombia is 
absolutely essential.
    To be sure, the United States is already working hard and 
making progress in many of these areas. But it needs to do a 
lot more and be consistent in carrying out a multitrack policy 
that seeks to help the Colombians achieve peace and 
reconciliation. Too often, efforts are too dispersed and show 
little evidence of clear strategic thinking. There is a need 
for greater political direction and political leadership.
    Of course, the task of reversing Colombia's deterioration 
lies primarily with the Colombians. No policy or strategy, no 
matter how competent or how comprehensive, will produce results 
unless the Colombian leadership is committed to serious 
reforms. That is why the United States should exercise its 
leverage and continue to insist on compliance with the 
important human rights conditions spelled out in the 
legislation concerning Colombia. Such sustained pressure is not 
only critical to uphold and promote U.S. values, but is also 
welcomed by the vast majority of Colombians committed to 
democratic principles.
    Finally, Mr. Chairman, the United States not only has a 
history of engagement in Colombia, but it also bears some 
responsibility for being part of the drug problem that affects 
both countries. High level constructive bipartisan and 
sustained U.S. involvement would go a long way toward helping 
Colombia achieve the peace and security that is in the utmost 
interest of us all. Thank you very much. I will be happy to 
answer any questions.
    [The prepared statement of Mr. Shifter follows:]
 Prepared Statement of Michael Shifter, Senior Fellow, Inter-American 
                                Dialogue
    Mr. Chairman, I appreciate the invitation to testify at such a 
timely and important hearing. The recently approved $1.3 billion aid 
package to Colombia is a first step for the United States to begin to 
help Colombia turn around its dramatic deterioration. It offers an 
opportunity to devise a broader strategy toward the country, a strategy 
that can best advance US interests and values. The United States has a 
great deal at stake in Colombia.
    The aid package is not enough. It mainly responds to a desire to 
``do something'' about drugs and drug-fueled violence at home and in 
Colombia. It does not adequately respond to Colombia's many crises, and 
does not reflect a clear purpose or strategy. We should not be under 
any illusions that the package will make a dent in the serious drug 
problem. For that, we need to seriously explore other options, 
including greater attention to demand reduction, better law 
enforcement, and most importantly, more emphasis on genuinely 
multilateral approaches.
    What is needed, rather, is a broader, longer-term policy that moves 
beyond the aid package and fighting drugs. A sound and sensible policy 
should deal with Colombia's underlying problems. The country is 
experiencing rampant lawlessness and insecurity; about 70% of the 
world's kidnappings take place in Colombia. U.S. policy should be 
designed fundamentally to help Colombians address their urgent security 
crisis. The government cannot now protect its citizens, and it is hard 
to imagine it tackling other problems without first performing such an 
essential function. Colombia cannot make progress on any front in a 
climate of such insecurity and chaos. Drugs are, to be sure, an 
important dimension of Colombia's crisis, but the core problem is one 
of state authority and governance.
    As a central element of a longer-term strategy, the United States 
should give priority attention to working closely with Colombians to 
help professionalize their security forces, the military and police. 
Professionalization means two things: greater effectiveness and strict 
adherence to human rights standards and behavior. The focus should be 
on training to provide security against all actors who violate the law 
in Colombia. This includes the insurgents, paramilitary forces, and 
criminals--all pose significant threats to Colombia's democratic system 
and the rule of law.
    In light of President Pastrana's commitment to a peace process and 
to a political solution to Colombia's internal conflict, such a 
strategy should be aimed at enhancing the likelihood of achieving a 
negotiated settlement. We should recognize of course that the process 
so far has yielded few, if any, tangible gains. The purpose behind our 
assistance would be to level the playing field, which would change the 
calculations of the insurgents and make them more inclined to negotiate 
seriously, in good faith. The overarching aim should be achieving a 
political solution. For a variety of reasons, a military solution is 
not viable.
    If such a strategic purpose is kept clearly in mind, there is no 
contradiction at all between providing well-targeted security 
assistance on the one hand, and actively supporting Colombia's peace 
process on the other. On the contrary, if done properly, these tracks 
are mutually reinforcing.
    Many have pointed out, with some reason, that U.S. assistance has 
many risks. Such assistance could drag the United States into a 
quagmire and could also associate the United States with a military 
that has had a problematic human rights record and has been tainted by 
links with paramilitary forces. Such risks are real, but can and should 
be faced directly, and held in check. What many critics fail to 
acknowledge is that the risks of not providing security assistance to 
Colombia are even greater than the risks of doing so. It is essential 
to deal directly with the country's security crisis. Otherwise, the 
dirty war that is already underway could get dirtier still.
    Professionalization is of course only one element, one track, of 
what must be an integrated, long-term policy. The United States must 
fashion a comprehensive strategy that addresses Colombia's multiple 
problems on all fronts, including support for institutional reforms 
(especially judicial reform), humanitarian assistance, alternative 
development efforts, and economic and trade benefits.
    In short, U.S. policy toward Colombia must be multitrack, including 
military along with social, political, and economic components. The 
challenge today is to go beyond the aid package's emphasis on military 
support aimed at fighting drugs. The United States has the opportunity 
and responsibility to engage in a strong multilateral approach in the 
areas of illegal narcotics, on the political and diplomatic fronts, and 
on economic and financial matters.
    Specifically, the United States should extend full support to the 
promising initiative on illegal narcotics being undertaken by the 
Organization of American States. The United States should also back the 
important role the United Nations is playing in pursuing peace and 
protecting human rights. We need to mobilize more support from the 
multilateral financial institutions for development efforts. And the 
Congress should do what it can to ensure that Colombian products have 
access to US markets; benefits should be comparable to those provided 
in the Caribbean Basin Initiative (CBI).
    Such an approach would send a positive signal at a critical moment. 
It would be favored by most Colombians, and would also have the 
advantage of being supported by other Latin American and European 
governments. Their constructive participation in what must be a 
collective effort to get behind Colombia is essential.
    To be sure, the United States is already working hard and making 
progress in many of these critical areas. But it needs to do a lot 
more, and be consistent in carrying out a multitrack policy that seeks 
to help the Colombians achieve peace and reconciliation. Too often, 
efforts are too dispersed and show little evidence of clear, strategic 
thinking. There is a need for greater political direction and 
leadership.
    The task of reversing Colombia's deterioration lies, of course, 
primarily with the Colombians. No policy or strategy, no matter how 
competent or comprehensive, will produce positive results unless the 
Colombian leadership is committed to serious reforms. That is why the 
United States should exercise its leverage and continue to insist on 
compliance with the important human rights conditions spelled out in 
the legislation on Colombia. Such sustained pressure is not only 
critical to uphold and promote US values, but is also heartily welcomed 
by the vast majority of Colombians committed to democratic principles.
    Finally, Mr. Chairman, the United States not only has a history of 
engagement in Colombia, but it also bears great responsibility for the 
worsening of one of the principal factors that has substantially 
aggravated Colombia's conditions--illegal narcotics. High-level, 
constructive, bipartisan and sustained U.S. involvement in Colombia 
would go a long way toward helping Colombia achieve the peace and 
security that it is in the utmost interest of us all.
    Thank you very much. I'd be happy to answer any questions.

    Mr. Ballenger. Mr. Vivanco, according to our calculations, 
the battalions that are being trained are all vetted for human 
rights and therefore should meet your standards. But of the 
rest of the budget, according to our calculations, only $2.6 
million of the entire U.S. contribution to Plan Colombia is 
earmarked for the Colombian army outside of the 
counternarcotics battalions which are vetted and so forth.
    This money includes $1 million to start the Judge Advocate 
General school and a million and a half dollars to train the 
Colombian military trainers who will go into various units and 
provide human rights training, and 1.1 million to provide 
training with U.S. senior Colombian officers. If this is the 
case, what is all the fuss about the U.S. money going to the 
Colombian army?
    Mr. Vivanco. Mr. Chairman, I think the main issue here is 
if you are going to engage with the Colombian armed forces by 
supporting the creation of new battalions or helping them in 
logistical transportation, training, and developing their own 
military justice system, basic human rights conditions need to 
be fulfilled--I mean, satisfied.
    Mr. Ballenger. These battalions are supposedly vetted for 
human rights and trained in that.
    Mr. Vivanco. I think within the Colombian package there is 
and there was an excellent opportunity and a unique opportunity 
to use this leverage to help the Colombian armed forces to 
professionalize to improve its human rights standards and to 
break ties with paramilitary groups. And I wouldn't focus the 
attention on whether they are receiving 2\1/2\ million, or 50 
million, but on what is exactly the purpose. I mean, the whole 
point is that the package is essentially a military package. 
And 80 percent of the resources are going to the military. And 
the political message that you are sending to the Colombian 
armed forces is that the U.S. is ready to do business with 
them, but before they do business with them, they have to 
comply with basic human rights standards.
    Mr. Ballenger. Unless I am mistaken, though, this military 
force that you are speaking of are meeting the criteria that 
you would consider proper in human rights and so forth. In 
other words, there is a mandate that these battalions, which 
the majority of all this aid is going to, be vetted as far as 
human rights are concerned, and the Colombian National Police, 
where the rest of the money is going, obviously have been 
meeting all your criteria. So in reality, it seems to me a 
great deal is being done that would match what you are asking 
for. But let me ask you another one.
    Mr. Bereuter. Would the gentleman yield? I just wondered if 
I might ask if the gentleman, Mr. Vivanco, is familiar with the 
fact that the overall Plan Colombia is to be funded at $7 
billion, whereas the U.S. is providing approximately one-sixth 
to one-seventh. And we are providing most of the military aid, 
but the other things that you emphasize in the balanced package 
should be from international organizations and from Colombia, 
according to the plan. Are you familiar with that? Thank you, 
Mr. Chairman.
    Mr. Vivanco. Right. Yes, I am fully familiarized with the 
idea. The Plan Colombia is $7.5 billion. The hope of the 
Colombian government is to persuade the European Union to 
contribute substantively to this Plan Colombia.
    But, Mr. Chairman, if I may, I would like to answer you, 
first of all, I am not in a position to answer or to tell you 
whether these three battalions are in compliance with the Leahy 
amendment because there is no transparency on the application 
of the Leahy amendment. The Leahy amendment is applied by the 
embassy personnel essentially in Bogota and they are supposed 
to be vetting those officers and that is true. That is the law, 
which, you know, they have the obligation to enforce. But I 
have no way to comment on that one because we don't have access 
to that information.
    Secondly, Mr. Chairman, there are six conditions in the 
human rights plan. And we don't think that there is any single 
one that is being satisfied. We disagree with the 
Administration on the first condition. The Administration is 
fully convinced that the first condition is being complied with 
by President Pastrana issuance of a presidential directive to 
remind the armed forces that human rights atrocities should be 
investigated under civilian jurisdiction. We consider that 
condition as being partially met because President Pastrana 
relied mostly on the military Penal Code in his instructions to 
the military. And the military Penal Code refers to genocide, 
torture and disappearances but there are crimes like rape----
    Mr. Ballenger. Don't use up all the time. I understand the 
statements you are making, but let me ask you a question: You 
mentioned the waivers, that we ought to remove those. If all 
the aid to Colombia were held up until all of the benchmarks 
that you picked out were achieved, it could take years. For 
instance, even if all the people you mentioned in your 
statement were arrested and tried, knowing the speed of the 
trials in Central America and South America, it could take 
years for due process to be served. Wouldn't this leave 
Colombia even more vulnerable to the ongoing war that they have 
got?
    Mr. Vivanco. Mr. Chairman, I realize that it is a complex 
and very delicate decision. And I don't think there is a simple 
answer. But I believe that if you, for political reasons, 
suspend the applications of these conditions, what will be the 
message? The military forces will clearly understand that human 
rights are subordinated to other more important business.
    Mr. Ballenger. But didn't we do that already with the 
previous President? And it had a disastrous affect as far as 
the growth of Colombia's war. In the case of President Samper, 
you know, we did not issue the waiver, in other words. And we--
unless I am mistaken, rather compounded the situation that was 
already very bad.
    Let me switch to Mr. Shifter. Having worked in Central 
America about 35 years, it always appeared to me, and that was 
the side of this that I was on, when we had a war going on in 
El Salvador, Nicaragua, and Guatemala, until it appears to be a 
situation where both sides could recognize that neither one 
could win, it takes that before you can have peace.
    And at the present time, the way I read what is going on 
down there right now in Colombia, it appears to me that the 
FARC and ELN consider themselves in a rather strong situation. 
They don't have much to worry about since they are better 
financed than the Colombian government, even with our 
assistance. Could you play around that one a little bit?
    Mr. Shifter. Thank you. I agree wholeheartedly. I think 
that there is not going to be any optimistic outcome in 
Colombia unless the state and the government get stronger in 
relation not only to the FARC and the ELN, but also to the 
paramilitary groups. The paramilitary groups exist because of 
the weakness of the security forces of the state. That has to 
be turned around.
    I would just ask for your consideration, whether the way 
the aid package is currently designed is the best way in terms 
of use of resources to achieve that purpose, to put the 
government into better position to negotiate as was done in the 
cases of Central America. At some point, there may be a 
contradiction or a problem between the emphasis on improving 
the professionalization of the security forces and making them 
better and going after the drugs. I think going after drugs is 
part of it, but I am not sure that is the whole thing. But I 
agree with you. That has to be the emphasis and that requires 
full engagement and support.
    Mr. Ballenger. Mr. Delahunt. It is all yours.
    Mr. Delahunt. You need more time, Mr. Chairman? I will 
address my first question to Mr. Shifter. And I concur with 
your observations in your opening statement. I think you are on 
the mark. And I think you are aware of my own feelings in terms 
of the need to advance the peace process because stability is 
absolutely essential in terms of our narrow, discreet but 
significant national interest regarding the flow of drugs into 
this country. But I think that far beyond that we should take 
what is a tragedy and try to make it into an opportunity in 
terms of reassessing and rethinking our relationship at 
multiple levels with Colombia, and, in fact, all of Latin 
America for that matter, because the issue with drugs is just 
not restricted to Colombia. And we are all aware of what has 
occurred in the past in terms of Bolivia, Peru and Ecuador, et 
cetera.
    Your analysis of the peace process, we currently have a 
position by the Administration that they won't talk. They will 
have no contacts whatsoever, at least with the FARC, because of 
the murders of three Americans several years ago. And yet I 
hear when I travel to Colombia that there is a desire on the 
part of some of the members of the various insurgency groups to 
have contact with the United States. In fact, there was a 
published report about a year ago, I think it was Mr. Reyes 
that indicated he wanted to come to the United States. Is it 
time for us to reassess our position in terms of if invited by 
the Pastrana government, to become engaged in the peace process 
itself? Are we accomplishing anything with the current policy 
of no contact?
    Mr. Shifter. Congressman, let me answer this way: I think 
that that is an option that should be seriously explored. I am 
not at all sure, given my understanding of the peace process 
right now, that somehow the United States getting involved in 
that way would really produce results right away. I don't think 
the conditions are there for that. But I think if the 
circumstances reach that point, I think if the Colombian 
Government requested that support and felt that it could 
achieve a positive result in terms of advancing peace, I think 
the United States should reconsider that position. I think that 
is an important thing. But I am just not sure right now if that 
would happen.
    Mr. Delahunt. I don't disagree with that statement in terms 
of conditions and timing. I understand that is essential. But 
you know, in the end, I think it is clear that the role of the 
United States, at least the perception of the United States in 
terms of the internal dynamic right now in Colombia, is of 
great consequence, is of great consequence. And we are aware, 
obviously, that there is some history there in terms of what 
occurred in the mid 1980's when the FARC, you know, through the 
union patriarch, became engaged in the electoral process. In my 
conversations with some of the guerrillas, that was raised 
during the course of those discussions. They came in, they 
participated, and some--when they were meeting with political 
success, there commenced a period of political assassinations. 
I think it numbered in excess of 3,000 of their candidates.
    So while sitting here in Washington, we might describe that 
as paranoia, it is understandable paranoia I would suggest. But 
I think maybe it is time to reconsider that position. 
Reconsider it again upon the invitation of the Colombian 
government, and given the conditions and the time, I am not 
saying we should involve ourselves now.
    What is your current analysis of the peace process?
    Mr. Shifter. I think it really is struggling. It is having 
a hard time. I think that the interest on both sides is keeping 
something going, but I think you are likely to see a lot of war 
and a lot of bloodletting, and some continuing low-level 
discussions going on simultaneously. But I don't see any really 
significant progress, at least in the short term. I wish I 
could be more optimistic, but that is my reading of the 
situation. I just don't see that really producing results in 
the short term.
    If I could just comment on the other point, Congressman, I 
agree with you wholeheartedly that the position of the United 
States should be reconsidered in terms of direct talk. I also 
think the United States can do more to work with the Colombian 
government to get them to try to get a consensus in the country 
about the peace process and to try to work with them to try to 
overcome the mistrust that is so profound that you properly 
identified. Because in the long term, that is what really needs 
to happen is to establish the confidence and trust between the 
Colombian elite and the political class and the insurgents. 
There is a long way to go. I think we can play a role in that 
process. But I think it is their responsibility and I think we 
can work with them to achieve that purpose.
    Mr. Delahunt. Well, I think, you know, I agree with that. 
Mr. Vivanco, I think you are aware that I agree with you that 
the Colombian government should be in full compliance with the 
1997 Constitutional court decision relative to the trial of 
military in civilian courts. But I have a problem. I don't have 
a significant amount of confidence in the civilian courts. 
There has been historically a history of impunity within the 
civilian courts, in terms of the administration of justice. How 
do we deal with that issue? Is it any better? Can we expect a 
different outcome than what has occurred in terms of the 
adjudication of allegations surrounding the human rights abuses 
within the military justice system? Do you have more hope than 
I or optimism than I?
    Mr. Vivanco. Congressman Delahunt, I am not extremely 
optimistic about the civilian criminal justice system in 
Colombia. But if you look at the record of the human rights 
unit of the chief prosecutor of Colombia, the Fiscalia, it is 
pretty positive. In other words, 25, close to 30 prosecutors 
who have the jurisdiction to deal with abuses by guerrillas, 
paramilitaries and agents----
    Mr. Delahunt. Let me just interrupt for a moment. I want it 
very clear and on the record I have great respect and 
confidence in the Fiscalia. I think Jaime Bernal has done 
extraordinary work. I think that is recognized in the human 
rights community. But I am talking about the adjudication of 
these cases as they go through the legal process in the 
nonmilitary courts in Colombia. I mean, it has been those 
courts that have been rife with problems and serious 
allegations regarding corruption. I am willing to make the 
effort, but I think we have got to be honest in terms of 
expectations. Because we could become very disappointed, even 
if we hopefully, at some point in time, achieve full compliance 
with the 1997 Constitutional court decision.
    Mr. Vivanco. Congressman, right. I think it is important to 
strengthen the role of the judiciary. By the way, I was 
referring to the Fiscalia, not the Procurduria.
    Jaime Bernal Cuellar is the head of the Procurduria which 
deals with disciplinary actions. Fiscalia is criminal 
investigation in Colombia and the head is Alfonso Gomez Mendez.
    These 30 ``fiscalias'' or prosecutors with authority to 
deal with human rights problems in Colombia, they have made 
terrific progress in several cases. Unfortunately, there has 
been no cooperation from the armed forces in Colombia. And 
normally what defendants from the army do when they have cases 
against them----
    Mr. Delahunt. I am going do have to interrupt because I 
think we have a point of disagreement. Because I share that 
concern, I had conversations with both Mr. Gomez and Mr. 
Bernal. And again, this was prompted by a statement by a 
General Ramirez, regarding a statement he made about both the 
Fiscalia, and I don't know how to say it in Spanish, the 
prosecutor. I went specifically to visit with Jaime Bernal, who 
indicated that at least at the senior command level with 
General Tapias, he felt that a change had occurred. I think it 
is important at some point in time that we here in this 
institution invite both Mr. Gomez and Mr. Bernal to come and 
testify and give us their understanding and their perception. I 
think you know that I agree that there is a long, long road to 
go, but I couldn't let that comment pass that there is no 
cooperation because that is not what they say to me. That is 
not what they tell me directly. This is myself talking with 
them.
    Mr. Vivanco. But Congressman Delahunt, you are referring to 
an incident there which the number two of the Army went to 
Miami in a conference and accused the Fiscalia and the 
Procurduria to be infiltrated by guerrillas. So if we are 
talking about the leadership of the armed forces of Colombia, I 
am not prepared to say that the--. If the number two of the 
Army is accusing the Fiscalia and the chief prosecutor of 
involvement with guerrilla members, I don't see this one as a 
sign of change.
    Mr. Delahunt. Agree. I totally agree. But I am just 
relating to you what was said to me by the individuals directly 
involved. And again, I think just simply the fact that it 
occurred indicates that there is a very long road to go. But I 
think we are at the beginning of that process. It was just 
recently we had an indictment of four generals. This occurred 
within the past several months. I am not trying to in any way 
put a gloss on it or suggest to you no substantial progress has 
been made, because that would just be simply inaccurate.
    Let me ask you just one other question. I think a lot of 
what is going on has to deal with the issue of the credibility 
of the military in terms of its public pronouncements regarding 
human rights which sound good to us. In conversations that I 
have had with senior officials and, in fact, I sent a letter--I 
will be happy to provide it to you--to President Pastrana back 
in July. In the aftermath of the incident that occurred on July 
7th, I sat down with the Secretary of Defense, Mr. Ramirez and 
General Tapias and discussed that. They gave me an explanation.
    Obviously, I don't have the resources or the wherewithal to 
corroborate it, but it's one that is satisfactory. I have said 
this to them and I said this to the President, that is 
incorporated in this letter that I will be happy to provide 
you, I think it is important in these particular incidents that 
there be an independent group, a commission, comprised of both 
military and other representatives of the government, as well 
as representatives of the various NGOs, and in particular, 
human rights organizations within Colombia to examine these 
particular allegations and these particular concerns. Because 
until the Colombian military in my judgment has some 
credibility, they are going to find themselves, whether it be 
true or not, continually on the defense. What do you think of 
that particular concept, that particular mechanism? And do you 
think that human rights groups within Colombia would 
participate in that particular effort? Protection would be 
provided them, assurances for their personal safety would be 
guaranteed, and let them be the arbiters, if you will, of the 
facts, of the reality of what occurred.
    Mr. Vivanco. I do believe that the Colombia military has a 
credibility problem on human rights. Whether that mechanism 
that includes participation of members of the NGO community, 
human rights organizations could help, is a matter of 
discussing the details of what will entitle that kind of 
participation.
    Mr. Delahunt. Understand the details, the details are 
important. But I am just talking in terms of a conceptual 
position. Because I think it is absolutely essential that there 
be a mechanism that has integrity, that has credibility, that 
either issues its findings either condemning individuals in the 
military responsible for human rights violation or exonerates 
them. Because I believe no matter what the military says at 
this point in time, it is going to be difficult for them to 
regain credibility in terms of the human rights issues.
    Mr. Vivanco. Congressman Delahunt, the military sometimes, 
especially General Tapias, issue the right statements. You 
know, his public positions are normally the right ones on human 
rights issues. But you refer to the recent indictment of some 
generals in Colombia on disciplinary grounds by Jaime Bernal 
Cuellar, the head of the Procurduria. The reaction of the head 
of the Army, General Mora, was to accuse the Procurador General 
de la Republica Jaime Bernal Cuellar, of being part of a 
campaign to demoralize the members of the armed forces. So that 
was his reaction. It was not, you know, a receptive one that 
shows commitment to collaborate with the civilians.
    I really prefer to handle these matters, these human rights 
investigations in the hands of the human rights unit of the 
Fiscalia. Fortunately, the good news is that this Plan Colombia 
includes important resources that hopefully will end up in the 
hands of the human rights unit to reinforce their work, 
especially in terms of increasing the ability of the CTI, the 
technical support that helps them to investigate their human 
rights cases.
    Mr. Delahunt. I have one more question. Thank you, Mr. 
Chairman. Mr. Shifter, you alluded to the issue of the 
consequences of the CBI enhancement policy. And what is the law 
of unintended consequences. Do you have any recommendations? 
Have you had a conversation with Senator Graham, I guess?
    Mr. Shifter. I just think that the trade issue is of utmost 
concern to the Colombians. And I just think this is a country 
that has suffered lots of crises at the same time. The economic 
one is the one that they are probably least accustomed to, 
because historically they have been a very good economic 
performer. I just think, given the fact that Colombia is a 
priority as reflected in its aid package, not to make every 
effort to extend the benefits of CBI really sends the wrong 
signal.
    I know that the politics are complicated, and I understand 
the reasons why. But I just think if this is going to be taken 
seriously as a priority, I think that every effort has to be 
made to ensure the Colombians access to our market. I think you 
have to be concerned about employment, immigration. I think it 
makes lots of consequences that need to be very carefully 
considered. I would hope the Congress would----
    Mr. Delahunt. Do you have any time frames in mind, time 
lines? Mr. Ballenger and I discussed it and to be engaged in 
Colombia and providing this package of assistance and then 
simultaneously not addressing the trade issue with what I 
understand to be the potential loss of a couple of hundred 
thousands of jobs, is just totally self defeating and makes no 
common sense. But do you have an assessment as to how timely 
action by Congress, our time frames in which action by Congress 
would be necessary before jobs in Colombia are lost to 
Caribbean nations.
    Mr. Shifter. Congressman I don't have a precise sense of 
that. All I can say is obviously the situation is critical, so 
time is very, very important. But I don't know how much time 
goes by and what the costs are in terms of job lost. But I know 
that the numbers are very high and it is extremely troubling as 
I think we agreed. So I think it should be taken very, very 
seriously. But I don't know, I haven't seen any analysis to 
that effect. I can try to see if I can come up with some 
analysts or economists to see whether I can come up with that 
for you.
    Mr. Delahunt. Thank you, Mr. Chairman. Just one more 
observation. I wanted to pick up on, I think, the opening 
statement by Mr. Vivanco regarding the reporting by various 
human rights organizations as to human rights violations by the 
FARC and the ELN. I think earlier the gentleman from Indiana 
indicated that hardly ever is there any comment regarding the 
human rights abuses by both the FARC and the ELN. I have to 
disagree vehemently with his statement and acknowledge that all 
of the human rights organizations, including our own State 
Department, have been very clear regarding the egregious 
conduct of the insurgents in materials of human rights 
violations. So I wanted to make that a matter of record.
    Mr. Ballenger. Well, one thing I would like from Mr. 
Vivanco, in our financial assistance, is a, I think little over 
a million to build a Judge Advocate Generals--those of us that 
watch TV, JAG operation and recognizing that that may be an 
important way of going about developing some sort of judicial 
operation there. I don't know how rapidly such a thing can 
occur, but I have been involved in El Salvador since the peace 
process started there, and we started redoing their judicial 
system 5, 6, 7 years ago, and we are not there yet. Do you see 
any positive way to develop any judicial system that is 
trustworthy and so forth as far as your human rights are 
concerned in any short period of time?
    Mr. Vivanco. You mean within the military?
    Mr. Ballenger. Wherever.
    Mr. Vivanco. Within the military, I am thinking about 
condition E of the package, I think it is a good initiative and 
hopefully it will be in place soon in Colombia, this Judge 
Advocate General. Only under one condition that in accordance 
to the language of the condition of the package, it says that 
the jurisdiction for this entity should be to investigate 
military personnel for misconduct, and that is extremely 
important. Because otherwise, we will continue with this 
tension between civilian authorities and military authorities 
regarding atrocities in Colombia.
    Mr. Ballenger. What I was trying to bring up is when the 
effort was made in El Salvador, it took 5 or 6 years and it is 
still not there yet. So a Judge Advocate Generals operation is 
not something you create overnight. So in my considered 
opinion, it is going to take quite some time to be able to 
develop that.
    Mr. Shifter, you said that the U.S. policy should be 
targeted toward addressing the Colombian security crisis and 
that the creation of the three counternarcotics battalions 
would not seem to answer that challenge. Only a small portion 
of the U.S. aid is directed to the rest of the military. Are 
you advocating that the U.S. assistance should be broadened to 
include all the military?
    Mr. Shifter. I am suggesting, Mr. Chairman, that the 
purpose should be improving the performance and 
professionalization of the military. That may mean less money, 
that may mean more money. The purpose, the way it is framed now 
doesn't help the Colombians as much as it could to protect 
citizens. Some of that is related--a lot of it is related to 
drugs, but not all of it. So it may include instead of three 
battalions, yes, doing a much more wider institutional kind of 
effort, professionalization and reform, I am not sure if that 
would be more expensive or less expensive. One would have to do 
the analysis. But I think the focus and the purpose should be 
different. I would like to see it changed. I think it could 
help Colombia begin to get more control over its country. The 
state would be a better partner with us in fighting drugs and 
dealing with all other issues if it were in more control. And I 
think we should do everything we can to help Colombia get in 
that position.
    Mr. Ballenger. I would like to thank you two gentlemen for 
being here. Obviously this is a big problem for our whole 
Congress and country. The two of us have been kind of heavily 
involved in this thing, as you can tell. He invited me to meet 
with the FARC. I told him my right wing friends would kill me 
if I did something like that. But in truth, we do sincerely 
want to do something positive as far as the developments in 
Colombia.
    Mr. Delahunt. I think that is a very good question you 
asked Mr. Shifter. Because the military, in terms of Colombian 
society, is a different institution than the military in our 
democracy. And currently, if I am misinterpreting your words, I 
think what you are saying in terms of professionalization, is 
to change the culture of the Colombian military so that it is 
more reflective of a military that is in compliance with 
democratic principles clearly in terms of the area of human 
rights; is that a fair statement?
    Mr. Shifter. That is correct. I think compliance with human 
rights, and effectiveness and capacity are related.
    Mr. Delahunt. Like much of Colombian society, it is a 
question of who does the dirty work and who reaps the wealth. I 
guess that is true in other societies. We shouldn't be too 
quick to castigate. But I agree with that position.
    I heard earlier today that there were concessions made by 
the Pastrana government in terms of the distension zone.
    Let us be really honest. There was never any governmental 
presence of real consequence in that entire area, including 
most of rural Colombia. The state abdicated its responsibility 
a long time ago. This is a civil war that has been going on for 
years before the 1980's when they discovered they could earn 
monies from the sale of marijuana and coca and poppy. So these 
are really fundamental issues that have to be dealt with. And 
until we deal with those, with all due respect to others, you 
can talk about guns and helicopters and it ain't going to do 
anything.
    Mr. Ballenger. He is speaking with a southern accent. 
Again, let me thank you for participating today. It has been 
very educational on our part. And I would like to say that some 
of your suggestions implanted in our minds can maybe get 
something constructive out of us. So thank you again for 
appearing. The Subcommittee stands adjourned.
    [Whereupon, at 12:22 p.m., the Subcommittee was adjourned.]
                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions for the Record Submitted to Assistant Secretary of State Rand 
                    Beers by Chairman Elton Gallegly
Question 1:
    Critics of the overall Plan Colombia say that the new infusion of 
U.S. military support, weapons and training only serves to further 
militarize the current conflict and could weaken the peace process by 
escalating the violence and encouraging hard-liners on both sides who 
want to keep fighting. How do you respond to these comments?
Answer:
    We believe such criticism is derived from too great a focus on 
specific components of our assistance rather than on the entire 
program. There will only be peace in Colombia when there is a strong 
state capable of defending the rights and interests of the Colombian 
citizens. To the extent that our assistance under President Pastrana's 
Plan Colombia reinvigorates the Colombian economy, enhances Colombian 
governing capability, encourages respect for and protection of human 
rights, strengthens democratic institutions, and reduces the money 
available to guerrillas and paramilitaries from involvement in the drug 
trafficking, it will encourage the peace process.
    Our package will provide support to the peace process by training 
Colombian government negotiators and advisors on managing conflict 
negotiations. The training will draw on the lessons learned in Northern 
Ireland, the Middle East, and Central America. The training will also 
examine the techniques for reintegrating ex-combatants into civil 
society and seek their support for all aspects of Plan Colombia. This 
is an extremely complex, difficult process, but it can be done.
    Importantly, the package will also send a strong message to 
Colombia's armed actors that meaningful negotiations offer the best 
hope for peace and social justice. The guerrillas have demonstrated 
that, under the present status quo, they feel little incentive to 
negotiate in good faith, despite the remarkable out-reach efforts of 
the Government of Colombia. The strengthening of the Colombian state, 
institutionally and militarily, should convey to those groups that they 
cannot win political advantage through violence.
Question 2:
    Some have suggested that even if the ``push'' were wildly 
successful, putting an end to a significant amount of coca cultivation 
in that region, the net flow of cocaine from Colombia will not be 
seriously affected because demand will just force it to relocate 
elsewhere in Colombia. How do you respond?
Answer:
    This is precisely the process that the effort is meant to combat. 
Cultivation exploded in southern Colombia after concentrated efforts 
were made in Colombia's Guaviare Department (and in Peru and Bolivia 
before that). One of the aims of this package is to provide sufficient 
resources needed to make concerted, simultaneous efforts in multiple 
locations so that cultivation is localized and eliminated rather than 
simply pushing it from one region to another.
Question 3:
    A recent IG Audit of INL-Administered programs in Colombia 
suggested that neither the CIA nor the INL could agree on the 
effectiveness of coca reduction in Colombia. If you cannot determine 
what the level of coca production currently is in Colombia, how can the 
Colombians know how much they have to eradicate by 2005 and how could 
President Clinton ever certify that the goal was being met by the 
Colombians?
Answer:
    The cultivation estimates made by the CIA are the official 
estimates and are used to make determinations, including the 
presidential certifications that President Clinton's successor will 
need to make in coming years. INL does not disagree with those 
estimates. With regard to those certifications, the Government of 
Colombia has adopted a strategy for a fifty percent reduction of 
illegal crops. Any results that approached that goal would be clear.
    The differences reported between INL and CIA have occurred at a 
tactical level. As verification of the results of Plan Colombia become 
a priority, such differences should be resolved.
Question 4:
    President Pastrana has again hinted that he thinks it would be a 
good idea if the U.S. itself found a way to engage the FARC in some 
type of dialogue to allow both to better understand each other's goals 
in Colombia. What is the Department's position on opening a dialogue 
with the FARC or the ELN?
Answer:
    The United States Government strongly supports President Pastrana's 
efforts to broker a negotiated settlement to end Colombia's internal 
conflict. We remain convinced that the peace process is integral to 
long-term prospects for fighting drug trafficking, reducing 
kidnappings, and restoring respect for human rights.
    However, until the FARC takes steps to ensure that those involved 
in the killing of the three U.S. citizen NGO workers in March 1999 are 
turned over to the appropriate judicial authorities, the USG will have 
no contact with the FARC. We also continue to call upon the FARC to 
provide information regarding the welfare and whereabouts of the three 
New Tribes Missionaries they seized in Panama in 1993.
Question 5:
    It has been my understanding that the currently configured CNP 
Black Hawk with GUA-19s (sic) has never been done before. Sikorsky and 
General Dynamics have agreed to the configuration of this helicopter. 
Secretary Beers, do you have confidence that the agreement of these 
companies is sufficient proof of flight worthiness?
Answer:
    The Department has not relied on either Sikorsky or General 
Dynamics for the determination of the air worthiness of the CNP Black 
Hawks as configured. That determination has been made by a Federal 
Aviation Administration (FAA) Quality Assurance Board which has issued 
a ``Certificate of Compliance'' for the aircraft.
Question 6:
    There seems to be some rivalry between the Colombian military and 
the police over who will ultimately be in charge of the ``push into the 
South'' effort. I am told that neither side is willing to cede 
leadership to the other and that the police have already said they will 
not participate in the ``push'' if the army is in charge. If this is 
the case, is the program doomed before it even beings?
Answer:
    If that were the situation, it would be a serious obstacle, but we 
do not believe the situation to be that dire. Yes, there are intra-
service rivalries, as there are here in the United States. Coordination 
across those lines is difficult and, in the case of Colombia, 
unprecedented. The Colombian leadership, particularly Minister of 
Defense Ramirez, to whom both the army and police report, understands 
the challenges facing Colombia. They came to us with this concept and 
the process is continuing to develop and improve. Army-police 
coordination efforts witnessed since the December initiation of coca-
spraying in Putumayo Department demonstrate heightened inter-service 
cooperation--and unprecedented results in aerial eradication efforts.
Question 7:
    In your statement you say that spraying in Putumayo will begin in 
December which corresponds to the arrival of the UH-1N helicopters and 
the completion of the training for the 2nd battalion. Does this mean 
the 1st and 2nd counter-narcotic battalions will begin operations in 
December?
Answer:
    First let me clarify that the first counternarcotics battalion has 
been operating since its training was completed in December 1999, 
although past operations were limited by the unavailability of air 
mobility. With regard to the question, the two battalions, having 
completed their coordination and training with the UH-1Ns, are now 
since mid-December conducting air-mobile operations in southern 
Colombia.
Question 8:
    Do you have some type of organizational chart (of the 
Administration's Executive Committee for Colombia)?
Answer:
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Questions for the Record Submitted to Assistant Secretary of State Rand 
                      Beers by Hon. Gary Ackerman
Question 1:
    It is our understanding that the Administration is sole-source 
contracting for the purchase of Ayers S2R T-65 sprayer aircraft for the 
Colombian National Police. However, it has come to our attention that 
there may be better aircraft available such as the Air Tractor Thrush, 
which has a larger payload capacity, bigger wingspan for fewer passes 
to kill an airfield (sic), and better landing gear to allow planes to 
land safely while loaded without jettisoning chemicals over water or 
non-targeted land.
    What is the cost per airplane for the Ayers S2R T-65?
    Has the Department ever done a comparison of the Ayers S2R T-65 
with the Air Tractor Thrust to determine which is the most effective 
spray plane?
Answer:
    The Ayers S2R T-65 costs approximately $1.5M per aircraft. The 
Department has not done a comparison of the Ayers S2R T-65 with the Air 
Tractor Thrush, and does not intend to do so for two reasons: the 
Colombian National Police have requested that we provide them with 
additional T-65s; and the conference report for the FY2000 emergency 
supplemental bill recommended that the Department provide to the CNP 
``Ayres S2R T-65 agricultural spray aircraft.'' In our Congressional 
Notification of a spending plan for the appropriate funds, we notified 
the Congress that ``The Department plans to use $20 million to procure 
additional commercial agricultural spray aircraft, and of those funds, 
not less than $12 million will be allocated for procurement, training, 
and operations of Ayers S2R T-65 agricultural spray aircraft. We are 
using the notwithstanding authorities contained in Section 481 (a)(4) 
of the FAA of 1961 (P.L. 87-195) for such procurement.''
Question 2:
    Now that U.S. assistance under Plan Colombia has begun to flow, 
what benchmarks for success is the Administration looking for? What 
should we expect to see, in the way of policy accomplishments, by this 
time next year?
Answer:
    Benchmarks specifically for Plan Colombia are currently being 
discussed. These discussions have been dependent on delivery schedules 
for equipment and training which are still being determined as well as 
initial operational results to make sure our joint expectations are 
realistic.
Question 3:
    If one of the helicopters provided by the U.S. is proved to have 
been used to aid or abet a paramilitary unit, what will be the process 
of repossessing it, as required by law?
Answer:
    As we have done in the past, the U.S. Government will provide 
aircraft to Colombia under a no-cost lease. The U.S. Government will 
retain title to the aircraft and no legal repossession will be 
necessary in the event of misuse. That said, we will not hesitate to 
remove from Colombia any equipment--helicopters or any other type of 
assistance--that has been used inappropriately.
Questions for the Record Submitted to Assistant Secretary of State Rand 
                      Beers by Chairman Ben Gilman
Question 1:
    Mr. Beers stated the CNP cannot go in and hold hostile areas. That 
has never been their mission, it is to enforce the ``rule of law'' and 
eliminate drugs.
    Can the Colombian Army hold the FARC controlled areas today in 
Putumayo and Caqueta that you say the police cannot?
Answer:
    The purpose of the assistance being given to the military is to 
give them the equipment and training to do just that.
    My earlier statement was in no way meant to impugn the ability or 
dedication of the CNP. They are an outstanding organization and I hold 
them in the highest esteem. I was simply pointing out that there are 
military missions just as there are law enforcement missions and that 
democracy is best served when those distinctions are respected. For the 
Colombian state to defend the interests of its citizens, particularly 
in southern Colombia, both the Army and the police need to fulfill 
their respective missions.
Question 2:
    Did INL ever consult the Bureau of Diplomatic Security (DS), as it 
relates to security needs and personnel, for Plan Colombia? If not, why 
not? Obviously there will be more personnel in the Embassy and some 
reports indicate there are close to 500 temporary duty personnel 
currently in Bogota. I would suspect that the threat to Embassy 
personnel will rise.
Answer:
    INL is working closely with the Bureau of Diplomatic Security to 
ensure that additional personnel needed for the implementation of Plan 
Colombia will receive adequate and secure office space and that their 
security needs are met.
Question 3:
    Where will the additional Embassy personnel be physically located? 
If they will be in the trailers, will they be safe and secure from 
attack? Will the trailers be blast proof? If not, why not?
Answer:
    The Department has examined several options for the additional 
office space needed in Bogota. The preferred choice is the use of pre-
fabricated structures, or ``modules,'' that have been certified for 
blast and forced entry standards. A location that meets security 
setback guidelines has been identified for the modules within the 
Embassy compound.
Question 4:
    It was reported that recently the State Department turned down the 
Colombian National Police (CNP) request for night vision goggles 
training on one of their Black Hawks by the Colombian army at no cost 
to the U.S. Government. Please explain why we would not want the CNP to 
be able to use the Black Hawks at night and increase their 
effectiveness?
Answer:
    The issue was not over night vision goggle (NVG) training, but over 
the ad hoc nature of the proposal to train one crewman. We are working 
with the CNP to organize a comprehensive NVG training program that will 
benefit their entire UH-60 fleet.
Questions for the Record Submitted to Assistant Secretary of State Rand 
                      Beers by Chairman Dan Burton
Question 1:
    Let me just say quickly, we have a lot of Black Hawks in our 
inventory. We have mechanics and pilots in the Colombian National 
Police who can fly those and take care of them today, not 3 years from 
now, today. It will be a tragedy if we have to wait 2 or 3 years to get 
new Black Hawks and train people when we already have trained--look at 
me, sir, please. We already have trained pilots down there with the CNP 
and mechanics who can today fly Black Hawks. We have Black Hawks in our 
inventory, a lot of them. We could send them down there now. To wait 2 
or 3 years for new Black Hawks to come off the line and train a whole 
bunch of people when we have them already trained and ready to go down 
there is a ludicrous argument. I mean, there is a war that is going to 
be lost if we wait 2 or 3 years. They already have a DMZ. The president 
down there is scared to death of these people. And you are going to 
wait 3 years to get them the help they need? That is bologna.
Answer:
    The delivery timeline you refer to represented a conservative 
estimate provided by the Defense Security Cooperation Agency (DSCA), 
through which we are purchasing the aircraft at the explicit 
instruction of Congress. Since the hearing we have signed a contract 
with Sikorsky and the first Black Hawk will be in Colombia on July 1.

                                   - 

</pre></body></html>
